L

& £

Barrett v. Parris
United States Court of Appeals, Sixth Circuit. j July 20, 2020 1 Not Reported in F:ed. Rptr. ■ 2020 WL 4875315

(Approx. 7 pages)

2020 WL 4875315
Only the Westlaw citation is currently available.
United States Court of Appeals, Sixth Circuit.

Jerome Sidney 1B1ARRETT, Petitioner-Appellant,
v.

Mike PARRIS, Warden, Defendant-Appellee.
No. 20-5202
FILED July 20, 2020

Attorneys and Law Firms
Jerome Sidney Barrett, Wartburg, TN, pro se.
Richard Davison Douglas, Assistant Attorney General, Office Of The Attorney
General, Nashville, TN, for Defendant-Appellee.
Before: SILER, Circuit Judge.
ORDER
*1 Jerome Sidney Barrett, a pro se Tennessee prisoner, appeals the judgment
of the district court denying his 28 U.S.C. § 22:54 petition for a writ of habeas
corpus. Barrett has filed an application for a certificate of appealability
("COA"). See Fed, R. App. P. 22(b)(1).
In 2009, Barrett was indicted on charges of first-degree murder and felony
murder in the perpetration of larceny in connection with the 1975 death of a
nine-year-old, who disappeared after going to deliver Girl Scout cookies to a
neighbor across the street. State v. Barrett, No. M2009-02636-CCA-R3-CD,
2012 WL 2870571, at *1 (Tenn. Crim. App. July 13, 2012). The victim was
found in a neighbor's garage more than a month after she disappeared. Id. at
*2, Although biological evidence was collected, DNA testing was not available in
1975. Id. at *6. A DNA profile was developed in 1992. Id. at *11. Barrett was
eventually investigated as a suspect and police obtained a warrant for his DNA
in 2007. Id. at *15. After Barrett's DNA matched a profile developed from the
victim's blouse, he was arrested and indicted. Id. The evidence against Barrett
at trial consisted of DNA and the testimony of two individuals—Sheldon Anter
and Andrew Napper—who had been incarcerated with Barrett while he was
/.
awaiting trial and who testified that Barrett told them he killed the victim. Id. /

\

i

at *12, *14. A jury convicted Barrett of the lesserincluded offense of seconddegree murder for both the first-degree murder and felony-murder charges. Id.
at *25. The trial court sentenced Barrett to forty-four years of imprisonment
for each conviction, merged the convictions, and ordered that the forty-fouryear sentence be served consecutively to a life sentence that had been imposed
in a prior criminal case. Id.
Barrett appealed, challenging the sufficiency of the evidence against him; the
denial of a motion to suppress his DNA sample; the denial of his motion to
dismiss the indictment on the basis that the delay between the offense and the
indictment violated due process; the trial court's admission of testimony of
"prior bad acts"; the trial court's permitting the State to exceed the scope of
cross-examination; the trial court's permitting a medical examiner to testify as
an expert in DNA analysis; the sentence as excessive; and the trial court's,
imposition of his sentence to run consecutively to the life sentence for a
previous conviction. The Tennessee Court of Criminal Appeals found no error
and affirmed. Id. at *46. The Tennessee Supreme Court denied Barrett's
application for permission to appeal in December 2012. /2 - 1 "2-"1
Barrett filed a pro se post-conviction petition in the trial court: in November
2013. Subsequently appointed counsel filed ari amended petition raising
numerous grounds for relief. The trial court denied the motion. Elarrett
appealed the denial of only three claims: trial counsel was ineffective for failing
to (a) call an alibi witness, (b) call a DNA expert to testify on behalf of the
defense, and (c) timely request independent DNA testing. Barrett v. State, No,
M2015-01161-CCA-R3-PC, 2016 WL 4410649, at *2 (Term. Crim. App. Aug. 18,
20.16). The Tennessee Court of Criminal Appeals affirmed. The Tennessee
Supreme Court denied Barrett's application for permission to appeal on
December 14, 2016.
*2 Barrett timely filed his habeas petition in January 2017 and an amended
petition approximately two weeks later. The district court construed the
pleadings as raising ten total claims, some with numerous sub-claims: (1) the
indictment was not issued by a grand jury with a foreman; (2) the trial court
erred in eighteen ways relating to the denial of certain motions, the admission
and exclusion of evidence and testimony, jury instructions, and sentencing; (3)
the State committed prosecutorial misconduct; (4) insufficient evidence
supported Barrett's convictions; (5) trial counsel was ineffective in fourteen
ways; (6) the Tennessee Supreme Court erred on direct appeal by reversing its
decision to allow a discretionary appeal; (7) the post-conviction trial court erred
in eleven ways; (8) post-conviction counsel was ineffective at the initial-review
stage in three ways; (9) post-conviction counsel was ineffective on appeal in
three ways; and (10) the Tennessee Court of Criminal Appeals erred on post-

%

conviction appeal by failing to address Barrett's claim that the trial court
erroneously admitted Anter's testimony.
In a detailed and thorough opinion, the district court concluded that a majority
of Barrett's claims were either non-cognizable on habeas review or were
procedurally defaulted. Further, the district court concluded that Barrett had
not demonstrated cause and prejudice to excuse his default. The district court
reviewed the merits of the remaining claims but concluded that the state court's
adjudication of them was not unreasonable or contrary to clearly established
federal law. Accordingly, the district court dismissed Barrett's petition and
declined to issue a COA.
To obtain a COA, a petitioner must make "a substantial showing of the denial of
a constitutional right." 28 U.S.C. § 2253(c)(2), He may do so by demonstrating
that "reasonable jurists would find the district court's assessment of the
constitutional claims debatable or wrong." Miller-El v. Cockrell, 537 U.S. 322,
338 (2003) (citing Slack v. McDaniel, 529 U.S, 473, 484 (2000)). Where the
district court denies an issue on procedural grounds without evaluating the
merits of the underlying constitutional claim, courts should grant a COA only if
two requirements are satisfied: first, the court must determine that reasonable
jurists would find the district court's procedural assessment debatable or
wrong; and, second, the court must determine that reasonable jurists would
3U
find it debatable or obvious that the petition states a valid underlying
constitutional claim. See Stack, 529 U.S. at 484-85. "[A] COA does not require
a showing that the appeal will succeed," Miller-El, 537 U.S. at 337; it is
sufficient for a petitioner to demonstrate that "the issues presented are
adequate to deserve encouragement to proceed further." Id. at 327 (citing
Slack, 529 U.S. at 484). ~
'
"
I. Non-Coanizable Claims
In its opinion, the district court first determined that a number of Barrett's
claims were not cognizable on habeas review. In particular, it concluded that six
of Barrett's claims of trial-court error were not cognizable: Claims 2.F, 2.G, 2.1
(as it related to the testimony of Anter), 2.J, 2..N, and 2.O. Reasonable jurists
would not debate this conclusion.
In Claim 2.F, Barrett alleged that the trial court erred by denying his motion to
suppress his DNA sample and any test results from that sample. However,
federal habeas relief is precluded when a petitioner had a full and fair
opportunity to litigate a Fourth Amendment claim in state court proceedings.
Stone v. Powell, 428 U.S. 465, 494 (1976). A Fourth Amendment claim is
barred by Stone unless "either the state provided no procedure by which the
prisoner could raise his Fourth Amendment claim, or the prisoner was
foreclosed from using that procedure." Good v. Berghuis, 729 F.3d 636, 639

3

I

\Av

i.'

(6th Cir. 2013) (quoting Willett v. Lockhart, 37 F.3d 1265, 1273 (8th Cir.
1994)).
Barrett could not establish that he was denied an opportunity to challenge the
validity of the search warrant for his DNA. He challenged the warrant in a
motion to suppress, the trial court held a hearing on the motion and denied it,
and the Tennessee Court of Criminal Appeals affirmed that denial. Because
Barrett had an available avenue to present his Fourth Amendment claim to the
Tennessee courts, he was afforded a full and fair opportunity to litigate his claim
and it does not deserve encouragement to proceed further.
*3 In the other non-cognizable claims of trial court error, Barrett asserted that
the trial court erred by: allowing the medical examiner to testify as a DIMA
expert for the prosecution (Claim 2.G); allowing the testimony of Anter, a
"jailhouse liar" (Claim 2.1); admitting Anter's testimony that Barrett stated
that he "had killed before" (Claim 2.J); allowing the prosecution to ask a
defense witness if he was "arrested, suspended, and had resigned from the
police force in 1978" (Claim 2.N); and allowing the prosecution to impeach a
defense witness with a prior misdemeanor conviction (Claim 2.0). Barrett
raised these claims on direct appeal, challenging the trial court's application of
the Tennessee Rules of Evidence, and the Tennessee Court of Criminal Appeals
analyzed the claims under state law and rejected them.
As the district court explained, state court evidentiary rulings are generally not
cognizable on habeas review. See Estelle v. McGuire, 502 U.S. 62, 67-68
(1991). "A state court evidentiary ruling will be reviewed by a federal habeas
court only if it were so fundamentally unfair as to violate the petitioner's due
process rights." Coleman v. Mitchell, 244 F3d 533, 542 (6th Cir. 2001)
(emphasis omitted) (citing Seymour v. Walker, 224 F.3d 542, 552 (6th Cir.
2000)). Barrett did not establish that the alleged errors rose to this level,
however. These claims do not deserve encouragement to proceed further.
The district court next concluded that Ba.
Is sjxth claim, which alleged that
the Tennessee Supreme Court erred on^irect appeal^by denying him permission
to appeal, was not cognizable on habeas review. Barrett claimed that the court
was "intimidated" into denying his appeal after a story about his case appeared
on local television. Reasonable jurists would not debate the district court's
denial of this claim, as it is a claim arising under state law. See Estelle, 502
U.S. at 67.
The district court also concluded that Barrett's seventh claim, which alleged
that the post-conviction trial court erred in eleven ways, and his tenth claim,
which alleged that the Tennessee Court of Criminal Appeals erred in addressing
one of his claims on post-conviction, were not cognizable on habeas review.
Reasonable jurists would not debate this conclusion. "[T]he Sixth Circuit has

H

consistently held that errors in post-conviction proceedings are outside the
scope of federal habeas corpus review." Cress v. Palmer, 484 F.3d 844, 853 (6th
Cir. 2007). These claims do not deserve encouragement to proceed further.
Barrett's eighth and ninth claims alleged the ineffective assistance of post­
conviction counsel during trial court proceedings (Claims 8.A, 8.B, and 8.C) and
on appeal (Claims 9.A, 9.B, and 9.C.). Reasonable jurists would not debate the
district court's determination that these were not cognizable as independent
habeas claims, see 28 U.S.C. § 2254(i), but could be considered as cause to
excuse procedural default of ineffective-assistance-of-trial-counsel claims. See
Martinez v, Ryan, 566 U.S. 1, 17 (2012). Those procedural-default rulings will
be discussed below.
II. Cognizable Claims Decided on the Merits
The district court found that five of Barrett's claims were cognizable in a §
2254 proceeding and were not procedurally defaulted: the trial court's denial of
the motion to dismiss for excessive pre-indictrnent delay (Claim 2.A); the trial
court's imposition of an improper consecutive sentence above the maximum
(Claim 2.R); and the ineffective assistance of trial counsel for retaining DNA
expert Ronald Acklen (Claim 5.D), failing to have a competent DNA expert
conduct an independent DNA test (Claim 5.F), and advising Barrett not: to call
any alibi witnesses (Claim 5.L). After consideration, the district court
determined that these claims did not warrant habeas relief.
*4 Reasonable jurists would not debate the district court's conclusion that the
state court's resolution of Barrett's pre-indictment delay claim was not
contrary to clearly established federal law. A delay in charging a defendant does
not: necessarily deprive him of due process, even if his defense is somewhat
prejudiced by the lapse in time. United States v. Lovasco, 431 U.S. 783, 796
(1977). Rather, dismissal for pre-indictment delay is warranted only when the
defendant shows both substantial prejudice to his right to a fair trial and that
the delay was intentionally caused by the government to gain a tactical
advantage. See United States v. Brown, 667 F.2d 566, 568 (6th Cir. 1982) (per
curiam) (citing United States v. Marion, 404 U.S, 307, 325 (1971)).
Even assuming that Barrett was prejudiced by the delay in charging him, he
could not establish that the State intentionally caused the delay. Rather, the
investigation of the victim's murder took more than three decades because the
DNA evidence in this case was developed over the years, as DNA-testing
technology evolved, and the evidence was not available at the time of the
victim's murder. A DNA profile was not even available until the 1990s, and the
DNA test identifying Barrett did not take place until 2007. Because Barrett's
due process rights were not violated by the delay, this claim does not deserve
encouragement to proceed further.

-b

Reasonable jurists would not debate the district court's denial of Barrett's
claim that the imposition of consecutive sentences was excessive (Claim 2.R).
On direct appeal, Barrett argued that his forty-four-year sentence was
excessively long and that it should not have been ordered to be served
consecutively to the life sentence he was already serving. He also argued that
he should have not been sentenced pursuant to the law that applied to crimes
committed before July 1, 1982, as mandated by Tennessee Code Annotated §
40-35-117, but should have been sentenced under the law that applied at the
time of trial. The state appellate court concluded that Barrett’s sentence was
not improper and affirmed. Barrett, 2012 WL 2870571, at *43-44.
First, the determination by the Tennessee Court of Criminal Appeals as to the
propriety of Barrett's; sentence under state law is binding on a federal court
sitting in habeas review. See Bradshaw v, Richey, 546 U.S. 74, 76 (2005).
Second, there is no constitutional right to strict proportionality between a crime
and its punishment. Harmelin v. Michigan, 501 U.S. 957, 965 (1991). A
sentence that falls within the maximum penalty authorized by statute—as
Barrett's did here—generally does not constitute "cruel and unusual" or
excessive punishment. Austin v. Jackson, 213 F.3d 298, 302 (6th Cir. 2000)
(quoting United States v. Organek, 65 F.3d 60, 62 (6th Cir. 1995)). Finally, the
discretion left to state court judges to determine whether a sentence should be
served consecutively or concurrently is not unconstitutional. See Oregon v. Ice,
555 U.S. 160, 163-64 (2009).
Reasonable jurists would also not debate the district court's denial of Barrett's
ineffective assistance of counsel claims. To establish ineffective assistance of.
counsel, a defendant must show deficient performance and resulting prejudice.
Strickland v. Washington, 466 U.S. 668, 687 (1984). The performance inquiry
requires the defendant to "show' that counsel's representation fell below ari
objective standard of reasonableness." Id. at 688. The prejudice inquiry
requires the defendant to "show that there is a reasonable probability that,, but
for counsel's unprofessional errors, the result of the proceeding would have
been different." Id. at 694. In habeas proceedings, the district court must apply
a doubly deferential standard of review: "[T]he question [under § 2254(d)] is
not whether counsel's actions were reasonable. The question is whether there is
any reasonable argument that counsel satisfied Strickland's deferential
standard." Harrington v. Richter, 562 U.S. 86, 105 (2011).
*5 Regarding the claims alleging ineffective assistance in connection with DNA
experts, Barrett argued that counsel had known about the DNA evidence for
eleven months before he moved to continue the trial to allow time to obtain
independent testing; Barrett asserts that, had the motion been filed sooner, it:
might have been granted. Barrett also faults counsel for retaining Ronald
Acklen as a DNA expert. Prior to trial, counsel consulted with Acklen, who

concurred with the conclusions of the state's DNA expert. As a result, Acklen
was not called to testify. Acklen's opinion also informed counsel's decision
regarding independent testing; at the post-conviction hearing, counsel testified
that, because of Acklen's opinion, counsel decided that independent testing was
unnecessary. Barrett, 2016 WL 4410649, at *4. Counsel testified that he later
filed a motion for independent testing because Barrett wanted it done. In his
habeas petition, Barrett claims that, had Acklen been sufficiently competent,
he would have disagreed with the state's expert and identified discrepancies or
deficiencies in the state's testing.
These claims do not deserve encouragement to proceed further because
Barrett failed to establish that he was prejudiced by counsel's actions.
Primarily, Barrett provided no support during post-conviction proceedings that
independent DNA testing would have produced results different from those
produced by the State. Barrett also failed to establish that an expert was
available to testify that the State's DNA results were flawed or misleading.
Absent such evidence, he cannot establish that the result of the trial would
have been different.
In his third exhausted ineffective-assistance-of-trial-counsel claim, Barrett
argued that counsel was deficient for failing to present witnesses to support his
alibi that he was in Chicago on the day that the victim went: missing. In
particular, Barrett argued that counsel should have called an individual named
"Cicero," who was the only person who remembered Barrett being in Chicago
that day. Barrett, 2016 WL 4410649, at *2. Trial counsel testified that he
discussed with Barrett the fact that he believed that. Cicero would not be an
effective witness, as he suffered from serious medical issues and had previously
been incarcerated; Barrett acknowledged that, at the time, he agreed with
counsel's judgment but now believed that "even a little bit might have been
better than none." Id. Like his claims regarding an independent DNA expert,
however, Barrett failed to provide support for his belief that Cicero would have
impacted the outcome of trial by providing an affidavit from Cicero as to what
testimony he could have provided. See Tinsley v. Million, 399 F.3d 796, 810
(6th Cir. 2005). Accordingly, he cannot establish prejudice in connection with
counsel's failure to call Cicero as a witness—a decision with which Barrett
initially agreed. This claim also does not deserve encouragement to proceed
further.
III. Procedurallv Defaulted Claims
The district court concluded that the remainder of Barrett's claims—the
defective-indictment claim; the twelve remaining allegations of trial-court error;
a prosecutorial-misconduct claim; an insufficient-evidence claim; and the
eleven remaining allegations of the ineffective assistance of counsel—were

7

procedurally defaulted. Further, the district court determined that Barrett did
not establish cause and prejudice to excuse the default.
If a petitioner fails to fully exhaust a claim by invoking one complete round of
the state's established appellate review process, and no state remedy remains
available, that claim is procedurally defaulted. O'Sullivan v, Boerckel, 526 U.S.
838, 847-48 (1999). "[Fjederal habeas review of the claims is barred unless the
prisoner can demonstrate cause for the default and actual prejudice as a result
of the alleged violation of federal law, or demonstrate that failure to consider
the claims will result in a fundamental miscarriage of justice." Coleman v.
Thompson, 501 U.S. 722, 750 (1991). A habeas petitioner carries the burden of
demonstrating cause and prejudice to excuse his procedurally defaulted claims.
Lucas v. O'Dea, 179 F.3d 412, 418 (6th Cir. 1999).
*6 In Tennessee, a prisoner challenging a conviction may file only one post­
conviction petition attacking a single judgment. Tenn. Code Ann. § 40-30102(c). A prisoner may file a motion to reopen his first post-conviction petition
only if his claim stems from a newly established constitutional right that: applies
retroactively, relies on scientific evidence showing that he is actually innocent,
or involves a sentence enhanced because of a previous conviction that has been
declared invalid. Fletcher v. Tennessee, 951 S,W.2d 378, 380-81 (Tenn. 1997)
(citing Tenn. Code Ann. § 40-30-217(a)).
Reasonable jurists would not debate the district court's denial of Barrett's first
claim, which alleged that the indictment was defective because it was not
issued by a grand jury with a foreman. Barrett did not raise this claim on direct
appeal and, though he raised it in his post-conviction petition, he did not
present it on post-coriviction appeal. Because the claim does not rely ori a new
constitutional right, scientific evidence, or an enhanced sentence, no state court
remedies remain. Accordingly, the claim is procedurally defaulted. See
O'Sullivan, 526 U.S. at 848.
Barrett asserts that the failure to present the claim on post-conviction appeal
was due to the ineffective assistance of post-conviction counsel. The ineffective
assistance of post-conviction counsel may establish cause to excuse default of a
petitioner's claim of ineffective assistance of trial counsel where a state
procedural law prohibits defendants from raising ineffective assistance of trial
counsel claims on direct appeal. Martinez, 566 U.S. at 17. This exception
applies in Tennessee cases. Sutton v. Carpenter, 745 F.3d 787, 795-96 (6th Cir.
2014). The exception, however, "does not extend t:o attorney errors in any
proceeding beyond the first occasion the State allows a prisoner to raise a claim
of ineffective assistance at trial," "including appeals from initial-review collateral
proceedings." Martinez, 566 U.S. at 16. Because Barrett asserts that post-

f

conviction counsel was ineffective for failing to raise this issue on appeal, and
not on initial review, it cannot establish cause to excuse the default.
The district court also determined that Barrett’s twelve remaining claims of
trial-court error were defaulted. These errors involved pre-trial media coverage
(Claims 2.B, 2.C, and 2.H), pre-trial motions (Claims 2.D and 2.E), the
admission of evidence (Claims, 2.1, 2.K, 2.L, and 2.M), and jury instructions
(Claims 2.P and 2.Q). Reasonable jurists would not debate the district court's
procedural ruling because these claims were either not raised on direct appeal
or were not appealed to the Tennessee Court of Criminal Appeals following the
denial of Barrett's post-conviction petition. These claims are defaulted because
Barrett may no longer present them to the state court. Further, Bairirett did
not assert cause to excuse the default.
In his third claim, Barrett asserted that the prosecutor committed misconduct
during closing arguments. Barrett presented several claims of prosecutorial
misconduct in his post-conviction petition but did riot: raise any of them on
appeal from the denial of that petition. Reasonable jurists would not debate the
district court's conclusion that this claim was defaulted and that Barrett did not
establish cause for the default.
In his fourth claim, Barrett alleged that insufficient evidence supported his
convictions because there was no evidence of a felony or premeditated murder.
The district court concluded that this claim was defaulted because Barrett did
not present this claim under the same theory in state court, where he
contended that the evidence did not establish his identity as the perpetrator.
See Hicks i/. Straub, 377 F.3d 538, 552-53 (6th Cir. 2004). Reasonable jurists
would not debate the district court's procedural ruling.
*7 Barrett's remaining eleven allegations of ineffective assistance of trial
counsel were presented in Barrett's initial post-conviction petition but were not
appealed to the Tennessee Court of Criminal Appeals. Although some were
raised in his application for permission to appeal to the Tennessee Supreme
Court, he did not give the state courts "one full opportunity" to resolve the
claims. O'Sullivan, 526 U.S. at 845. Because these claims do not present
grounds based on an exception to Tennessee's rule for reopening a postconviction petition, Barrett has no state remedy remaining arid the claims are
considered defaulted.
In support of cause for his default of these claims, Barrett asserted the
ineffective assistance of post-conviction counsel. As explained above, however,
post-conviction counsel raised these eleven ineffective-assistance-of-trialcounsel claims in his initial post-conviction petition, but did not appeal the
denial of the eleven claims to the Tennessee Court of Criminal Appeals. As
previously noted, the Martinez exception that allows the ineffective assistance

7

* '

t

of post-conviction counsel to be considered as cause to excuse default of a
petitioner's claim of ineffective assistance of trial counsel "does not extend to ...
appeals from initial-review collateral proceedings." Martinez, 566 U.S. at 16.
Accordingly, reasonable jurists would not debate the district court's procedural
ruling relating to these claims.
IV. Requests for Discovery and an Evidentiary Hearing
Barrett's habeas petition also requested discovery and an evidentiary hearing;
the district court denied both. Reasonable jurists would not debate this
decision. Barrett requested discovery of sentence-reduction agreements that
Ariter and Napper made with the prosecution in exchange for their testimony.
However, Barrett provided no support that these agreements existed and did
not provide evidence that either Anter or Napper received a sentence reduction
following his trial. Bald assertions and conclusory allegations do not provide
sufficient grounds to warrant discovery. Stanford v. Parker, 266 F.3d 442, 460
(6th Cir. 2001).
Likewise, Barrett failed to make a threshold showing of how and why an
evidentiary hearing could change the district court’s resolution of his petition.
Generally, "[i]f the applicant has failed to develop the factual basis of a claim in
State court proceedings, the court shall not hold an evidentiary hearing on the
claim." 28 U.S.C. § 2254(e)(2). Barrett asserts that the fact-finding procedure
in the state courts was not adequate because the state failed to turn over any
information that Anter and Napper had sentence-reduction agreements. As with
his request for discovery, however, he has no support for his claim that such
agreements existed. Reasonable jurists would not debate the district court's
decision to deny an evidentiary hearing under these circumstances.

Mrs

For the foregoing reasons, we DENY Barrett's application for a CO A.

All Citations
Not Reported in Fed. Rptr., 2020 WL. 4875315

End of
Document

WestlawNext © 2020 Thomson Reuters

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

& p-

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
JEROME SIDNEY BARRETT
Petitioner/Appellant,
CANO. 20-5202
v.
DC NO. 3:17-CV-00062
MIKE PARRIS, Warden,
Respondent/Appellant.

ON APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF TENNESSEE
THE HONORABLE CHIEF JUDGE WAVERLY CRENSHAW
MOTION FOR CERTIFICATE OF APPEALABILITY

)

PETITIONER/APPELLANT:
Jerome S. Barrett Pro-Se
73179
M.C.C.X.
UNIT 6/7
P. O. Box 2000
Wartburg, TN 37887
No Phone

1

1
MOTION FOR CERTIFICATE OF APPEALABILITY

INTRODUCTION
NOW COMES Jerome Sidney Barrett, a Tennessee Department of
Correction inmate, and respectfully moves this Court to issue a Certificate of
Appealability under 28 U .S.C. § 2253© and 22(b) of the Federal Rules of
Appellate Procedure. Because reasonable jurists could disagree with the
district court’s resolution of several of petitioner’s constitutional claims a
Certificate of Appealbility is required. “Under the ‘”unreasonable application’”
clause, a federal habeas court may grant the writ if the state court identifies the
correct governing legal principle from this court’s decision but unreasonably
applies that principle to the facts of the prisoner’s case. ” Williams v. Taylor, 529
U.S. 362 (2000) discussing Section 2254 (d). (“In sum, the statute directs federal
courts to attend to every state-court judgment with utmost care, but it does not
require them to defer to the opinion of every reasonable state-court judge on the
content offederal law.. .For purposes of today’s opinion the most important point
is that an unreasonable application offederal law is different from an incorrect
application offederal law.” Id.
“On the other hand it is significant that the word ‘’’deference’” does not
appear in the text of the statute itself. Neither the legislative history nor the
statutory text suggests any difference in the so-called ‘’’deference’” depending on
which of the two phrases is implicated. ” Id.
PROCEDURAL BACKGROUND
The petition for the Writ of Habeas Corpus was filed on January 12, 2017 for
being wrongful convicted and imprisoned in violation of the Untied States Constitution. (Barrett
v. Genovese, U.S.D.Ct., M.D. Term. Nashville Div. No. 3:I7-cv-00062). Honorable U.S. District
Judge Aleta A. Trauger maintained jurisdiction until 17th day of December 2019, when she
inexplicably “recused” herself from the case.
Thereafter, Chief Judge Waverly Crenshaw assumed jurisdiction on the
case, denied the Petition for Writ of Habeas Corpus on January 24, 2020,

2

which raised several grounds for federal constitutional relief under 28 U.S. C. §
2254. [“Petitioner is not entitled to relief on any of his claims. ”] Court also denied a
Certificate of Appealability on January 24, 2020. An evidentiary hearing was
denied on his claims and motion for discovery also denied.
Petitioner now seeks a Certificate of Appealability from the Sixth Circuit
Court of Appeals, with respect to several of those grounds for relief and files a
timely Notice of Appeal and filing fee in conjunction with this Request. The
Petitioner has not actually violated any procedural rule.
STANDARDS FOR GRANTING RELIEF
A petitioner seeking a Certificate of Appealability (“COA”) must make a
substantial showing of the denial of a constitutional right.” 28 U.S.C. §
2253©(2). To make the requisite substantial showing, “apetitioner must show
that reasonable jurists could debate whether (or for that matter agree that) the
petition should have been resolved in a different manner or that the issues
presented were “adequate to deserve encouragement to proceed further. ” MillerEl v. Cockrell 123 S.Ct. 1029 1039 (2003) (citations omitted); “Woolbrisht v. Crews.
2018 WL 7247245, No. 18-5131, (7-9-2018, 6th Cir.), citins. Slack v. McDaniel 529 U.S. 473
484 (2000) {quoting Barefoot v. Estelle, 463 U.S. 880, 893 & n. 4 (1983).
To be “substantial”, a claim must have some merit under the standard for I AC set forth in
Strickland v. Washington 466 U.S. 668 (1984). The standard under Strickland is that petitioner
must establish that a counsel’s performance was deficient and that he suffered prejudice as a
result. Strickland. 466 U.S. at 687.
(21)

Where a district court has rejected a petitioner’s constitutional claims on

the “merits” “the petitioner must demonstrate that reasonable jurists would find
the district court’s assessment of the constitutional claims debatable or wrong” to
secure a COA. Swisher v. True 325 F. 3d 225 229 (4th Cir. 2003) (quoting Slack
v. McDaniel 529 U .S. 473 484 (2000). “The prefatory language of § 2254(d) provides:
“An application for a writ of habeas corpus on behalf of a person in custody pursuant to the
judgment of a State court shall not be granted with respect to any claim that was ‘adjudicated on
the merits ’ in State court proceedings unless the adjudication of the claim.... ” In the usual case,
a denial of relief on procedural grounds will completely bar federal review of the claim unless
3

the prisoner can prove cause and prejudice or a miscarriage of justice. See Wainwright v. Sykes,
Murray v. Carrier; Engle v. Issac; House v. Bell. (547 U.S. 518 (2006).
(22)

In Coleman v. Thompson, the Supreme Court concluded when a state decision “fairly

appears to rest primarily on federal law or to be interwoven with the federal law and when the
adequacy and independence of any possible state law ground is not clear from the face of the
opinion ” there is no adequate and independent state procedural bar supporting the judgment. In
the absence of an adequate and independent state procedural bar federal review is not precluded
and if federal review is not precluded by an adequate and independent procedural rule, then
federal review is not barred by AEDPA. 501 U.S. 722, 752-753 (1991). (De Novo Review of the
Merits of a Claim Permitted when the State Court System Summarily Denies the Constitutional
Claim.)
(23)

“a petitioner who was represented by post-conviction counsel in his initial review

collateral proceeding must show not only that his procedurally defaulted trial level 1AC claim is
substantial but also that there is a reasonable probability that the trial-level IAC claim would
have succeeded had it been raised by post conviction counsel. Calderon v. Thompson 523 U.S.
538, 118 S.Ct. 1489 (1998). “ [Pjrejudice, ’for purposes of the Coleman ‘cause and prejudice '
analysis in the Martinez context requires only a showing that the trial-level ineffective assistance
of counsel claim was ‘substantial. ’ ” Id. @ 523 U.S. @ 560. Therefore, in order for a petitioner
to demonstrate cause and prejudice sufficient to excuse the procedural default, he must make two
showings: First to establish “cause,” he must establish that his counsel in the state postconvicton
proceeding was ineffective under the standards of Strickland. Strickland, in turn, requires him to
establish that both (a) post-conviction counsel’s performance was deficient, and (b) there was a
reasonable probability that, absent the deficient performance, the result of the post-conviction
proceedings would have been different. See Strickland, 466 U.S. at 687, 694, 104 S.Ct. 2052.
' Second, to establish “prejudice,” he must establish that his “underlying ineffective-assistance-oftrial counsel claim is a substantial one, which is to say that the prisoner must demonstrate that

4

the claim has some merit. ” Haley v. Cockrell, 306 F. 3d 257, 264 (5th Cir. 2002), vacated and
remanded on other grounds, 541 U.S. 386 124S.Ct. 1847 (2004).
(24)

“Under the ‘’’unreasonable application”’ clause a federal habeas court may

grant the writ if the state court identifies the correct governing legal principle from
this court’s decision but unreasonably applies that principle to the facts of the
prisoner’s case.’” Williams v. Taylor, 529 U.S. 362 (2000). [‘Forpurposes of
today’s opinion the most important point is that an unreasonable application of
federal law is different from an incorrect application offederal law.” Id.]
(25)

Like the state appellate courts on appeal, the Federal Court had jurisdiction within the

statute 28 U.S.C.A. § 2254(a)(A)(B)(I)(ii) and (2) as to the pro se questions. “An application for
a writ of habeas corpus may be denied on the merits, notwithstanding the failure of the applicant
to exhaust the remedies available in the courts of the State
(26)

Also “[w]hen the district court denies a habeas petition on procedural grounds without

reaching the prisoner’s underlying constitutional claim, a COA should issue when the prisoner
shows at least, that jurists of reason wouldfind it debatable whether the petition states a valid
claim of the denial of a constitutional right and that jurists of reason wouldfind it debatable
whether the district court was correct in its procedural ruling. ” Id
(27)

A COA determination is merely a “threshold inquiry” undertaken before full

consideration of petitioner’s claims. Miller-El v. Cockrell 123 S.Ct. at 1039. It “does not require
a showing that the appeal will succeed. ”Id- “Deciding the substance of an appeal in what
should only be a threshold inquiry undermines the concept of a COA . The question is the
debatability of the underlying constitutional claim not the resolution of that debate.” Id.
Moreover “a claim can be debatable even though every jurist of reason might agree, after the
COA has been granted and the case has received full consideration, that petitioner will not
prevail.” Id. at 1040, § 2253© actually forbids such “full consideration” of the factual or legal
basis of the claims in the course of determining whether or not to grant a COA. Id. at 1039.
(“When a court of appeals side steps [the COA] process by first deciding the merits of an appeal
and then justifying its denial of a COA based on its adjudication of the actual merits, it is in
essence deciding an appeal without jurisdiction.”) Swisher v. True. 325 F. 3d at 230. See also
Buckv. Davis. 137S.C. 759.

5

(28)

“Constitutional Claims”
Therefore petitioner will attempt to first make a substantial showing of

the denial of his constitutional rights and (2) and show that reasonable jurists
could disagree with the district court’s resolution of these constitutional claims
or (3) these issues are capable of deserving encouragement to go further.

Failure To Communicate Or Assist On Post Conviction (“P.C.) Appeals: Counsel
(1)
unilaterally terminated the right to file a Rule 11 appeal to the TN S.Ct. and rendered deficient
performance by not filing Petitioner’s clear requests and by failing to notify the Appellant of the
decision of the TCCA and what grounds it had based its Brief to the TSCT (failed to notify the
Appellant in writing....) See Garza v. Idaho, 139 S.Ct. 738,744: “And, most relevant here,
prejudice is presumed ‘"when counsel’s constitutionally deficient performance deprives a
defendant of an appeal that he otherwise would have taken. ” ’ Citing. Flores-Ortega, 528 U.S. at
484, 120 S.C. 1029. "So long as a defendant can show that ‘’’counsel’s constitutionally deficient
performance deprive [d him] of an appeal that he otherwise would have taken. ” ’ Courts are to
presume prejudice with no further showingfrom the defendant of the merits of his underlying
claims. ” Ibid. Gaza. @ 747, citins, Flores-Ortesa, 528 U.S. at 484, 120 S.Ct. 1029.
Petitioner relies on Evitts v. Lucev 469 U.S. 387. 401 105 S.Ct. 830. 838-839 (1985). for
his position that even though the State of Tennessee does not grant a prisoner access to the
effective assistance of counsel on post conviction relief process, it does provide the meaningful
assistance of counsel for a prisoner seeking post conviction relief. T.C.A. § 40-30-106(e). See
United States v. Cronic, 466 U.S. at 658, 104 S.Ct. 2039(1984): “when ‘counsel
entirely fails to subject the prosecution’s case to ‘meaningful adversarial testing,’
the process becomes ‘’’presumptively unreliable’” and proof of actual prejudice is
not required.” Wallace v. State, supra, @ 657, citing, Cronic @ 659, 104 S.Ct.
2039. (emphasis supplied)
The Due Process Clause of the Fourteenth Amendment requires. “Due process is flexible
and calls for such procedural protections as the particular situation demands. ” Smith v. State,
357 S. W. 3d 322, 359,[12-19-11], citins, Phillips v. State BD of Resents 863 S/W/ 2d 45, 50
(Tenn. 1993)(citation omitted), that counsel’s actions comport with the procedures in Anders v.
State of California, 386 U.S. 738, 741 87 S.Ct. 1396, instead of the unilateral fiasco represented

6

in his actions in the state appellate courts “The flexible nature ofprocedural due process
requires an imprecise definition because due process embodies the concept of fundamental
fairness. Id, citing. State v. Barnett 909 S. W. 2d 423, 426 (Tenn. 1995); State v. Hale, 840 S. W.
2d 307, 313 (Tenn. 1992). See Matthews v. Eldridge, 424 U.S. 319, 335, 96 S.Ct. 893, 903,
-

(1976f
(26)

“Non-Constitutional Claims”
“To warrant relieffor a non-constitutional claim a petitioner must establish

that a fundamental defect in the proceeding resulted in a complete miscarriage of
justice or an egregious error that deprived him of ‘"the rudimentary demands of
fair procedure.’” Reed v. Fairley, 512 U.S. 339, 354 (1984); see Grant v. United
States, 72 F. 3d 503 505-06 (6th Cir. 1996).
(27)

“Non-Cognizable Claims”

1.

Definition of non-cognizable claims in the Section 2254(a) habeas corpus context:

(“Petitioner asserts eighteen claims of trial error. Six are not cognizable.” [Order, 2020 WL
409688, 1-24-2020 @ *6](emphasis supplied) Apparently twelve claims of trial error are
cognizable. Petitioner will review those twelve claims and the adjudged non-cognizable claims
in turn.
(28)

STATEMENT OF THE CASE
In its Order dismissing his Petition for the Writ of Habeas Corpus, the

District Court went on to find that “In June 2008, a Davidson County grandjury indicted the
Petitioner for first-degree murder andfelony murder. In July 20091, (a) jury found Petitioner
guilty ofsecond-degree murder a lesser-included offense, on both counts. ’ ‘The jury sentenced
him to forty-four years for each conviction. The trial court ordered that the sentence be served
consecutively to a life sentence for a previous conviction. ” Barrett v. Genovese, WL 409688(a),
*1.
(29)

Appellant contends that the District Court’s agreement with the State of Tennessee, that

“the Petitioner is not entitled to relief because the claims are either (1) not cognizable, (2) do
not survive the ‘demanding review of claims exhausted in state court, or (3) are procedurally
defaulted” in this case is an unreasonable agreement, and secondly, unjustly maintains a statefederal edifice which should have been effaced long ago when relied on in similar circumstances.
Petitioner was convicted September 9 2009

7

The District court’s initial statements are difficult to understand because on the one hand,
it states that “(although the claims in the original petition are unsupported by facts...) the court
will not rely on the pleading standard ofHabeas Rule 2© to summarily deny Petitioner’s
claims. ” Then in its next sentence in the Order, the Court decided that it will nonetheless use
Habeas Rule 2©, to see if “ ...Petitioner has complied with Rule 2©, ‘as necessary’ in its
‘consideration ’ of each individual claim. ” [Id. @*6, Analysis1
(30)

Petitioner was never given an opportunity - as a pro se petitioner - to cure the original

petition’s “unsupported facts'''’ conclusion of the District Court (“ ...and much of the amended
petition ‘is difficult to decipher ’... ”) or to attempt to relieve the Court of some of its difficulty by
amendment. The first time he learned of any ‘deficiency’ in the Petition was when the Court
dismissed it. He was never put on notice of the court’s reported difficulty, or given an
opportunity to amend and improve the ability of the Court to ‘decipher’ the amended Petition before his Petition and certificate of appealaability were denied.
(31)

The United States Supreme Court and Appellate courts of this Circuit appear to give

guidance inapposite to the short shrift that his Petition was treated with by the District Court,
even with the understanding that “duty to be less stringent with pro se complaint does not require
court to conjure up unplead allegations, Merritt v. Faulkner, 697 F. 2d 761 (7th Cir).
However “[FJundamental fairness entitles indigent defendants to an ‘adequate
opportunity to present their claims fairly within the adversary system. ” Ake v. Oklahoma, 470
U.S. 68, 77, 105 S.Ct. 1087, 1093 (1985)(citation omitted). The Supreme Court has longestablished that pro se pleadings are held to less stringent standards than formal pleadings
drafted by lawyers. Haines v. Kerner, 92 S.Ct. 594 596 (1972); Hushes v. Rowe 101 S.Ct. 173
176 (1960); Estelle v. Gamble. 97S.Ct. 285, 292 (1976); Bounds v. Smith. 97S.Ct. 1491 1497.
In as much as post conviction petitions and their appeals are often drawn by undereducated lay
people proceeding pro se as in the instant case, one who is also one of the state’s own citizens - a
pro se prison inmate - the courts have “long disregarded legalistic requirements in examining
applications ...andjudged the papers by the simple statutory test ofwhetherfacts are alleged that

8

entitle the applicant to relief. ” Parr v. Burford. 70 S.Ct. 587 590 (1950). (Overruled on other
grounds by Fay v. Noia, 83 S.Ct. 822 (1963).
Appellant respectfully submits that to avoid a miscarriage ofjustice, does not include the
Court to plead unpled grounds of action for appellant. See Andre Lovell Dotson v. Shelby County,
et. al., 2014 WL 3530820 [7-15-2014]: “Pro se complaints are to be held "’to less stringent
standards than formal pleadings drafted by lawyers, ’ and should therefore be liberally
construed. ” Williams v. Curtin, 631 F. 3d 380, 383 (quotim Martin v. Overton. 391 F. 3d 712
[6,h Cir. 2004].
(32)

“Procedural Default”

As to those claims the district court found to be procedurally defaulted petitioner would show
whether he stated valid claims of the denial of constitutional rights and whether the district court
was correct in its procedural ruling. Because of what appellant believes is an unreasonable
restriction on his right to present his own appellate brief(s), which even the District Court held
that some claims were meritorious enough to consider and then dismiss them, contained claims
that were abandoned by court appointed post conviction counsel(“pcc”) on appeal, this form of
‘procedural default’ should be unavailing to the State.
An Evidentiary Hearing was held in the trial court and it rejected all of petitioner’s
claims. He appealed some of his post conviction claims pro se because of the absence of or his
inability to find out if he had counsel on appeal. The appellate courts refused to hear his pro se
grounds on the excuse that he had an attorney. Petitioner made it plain in his pro se appeals that
due to a lack of communication, he did not know he had an attorney on appeal. In Gravely v.
Mills, 87 F. 3d 779 [C.A. 6, Tenn, 1996], this Court rules (1) that the defendant’s trial counsel
provided ineffective assistance, and defendant could thus bring habeas petition in spite of failing
to comply with Tennessee rules for preserving constitutional claims; (2) prosecutor’s references
to defendant’s post arrest silence violated due process; and (3) prosecutor’s misconduct had
substantial influence on jury mandating new trial.
(33)

Further, the Tennessee Constitution and law in accord gives him the right to be heard by

counsel and himself “But, by our State constitution it is provided: "’That in all criminal

9

prosecutions, the accused has a right to be heard by himself and h is counsel

and our

Supreme Court has held in the case of Wilson v. State. 3 Heisk, 232 , that the section means both
in criminal cases....” Grace v. Curley, 3 Tenn. App. 1 (1926); See Charles Wilson v. The State,
50 Tenn. 232,234, Supreme Court of Tennessee, April Term, 1871 (“Under the Constitution of
the State, Art. 1, § 9, giving to a person accused the right to be heard by himself and his
counsel.... ”)
(34)

The State of Tennessee unconstitutionally denied appellant his 5th, 6th and 14th

Amendments appeal right with or without appointed counsel. Strickland v. Washington, 466 U.S.
668, 687, 104 S.Ct. 2052,2064. (1984) See Rules of the Tennessee Supreme Court Rule 28, $ 6©;
T.C.A. § 40-30-113©; T.R.A.P. 13fal: (“Dismissal of the original appeal shall not preclude
issues raised by another party from being considered by an appellate court. ”) (emphasis added)
See also Tennessee Rules of Appellate Procedure Rule 36(a) relief to be Granted: Relief
Available (b): “when necessary to do substantial justice an appellate court may consider an
error that has affected the substantial rights of a party at any time, even though the error was
not raised in the motion for a new trial or assigned as error on appeal. Rule 3(b”). Advisory
Commission Comment subdivision (a): This subdivision makes clear that the appellate courts are
empowered to grant whatever relief an appellate proceeding requires. In addition this subdivision
states that the appellate court should grant the relief to which a party is entitled.” (emphasis)
That is, when these dismissed grounds were first presented to the state appellate courts by
petitioner, they were entitled to be review and not ignored, to prevent a fundamental and blatant
miscarriage of justice, apparent from the typical position taken by the Federal Courts that deny
relief because of the concocted “procedural bar”. The petitioner fairly presented these grounds
standing on his Federal Constitutional rights and state law in accord, by invoking one complete
round of Tennessee State court appellate review and, therefore, he has exhausted his state
remedies as to these claims.
(35)

In dismissing some of his claims, for “procedurally default” and others “on the merits”,

it did not appear to rule on the pro se appeals and their substantive merits. As to those claims
rejected on the merits, petitioner would show that reasonable jurists would find the district
court’s treatment of these claims debatable. Consequently, the state appellate courts’
adjudication of the grounds alleged to be procedurally barred was contrary to, or an unreasonable

10

application of clearly established state and federal law that gives the petitioner the due process
right to present his claims on appeal that had first been presented to the post conviction court.
(36)

For cause Petitioner disagrees that he has procedurally defaulted his IAC claim by failing

to raise it in his post conviction appellate proceedings. Petitioner did raise it in his post
conviction appellate proceeding. He is not bound at the hip of derelict counsel who refused to not
only communicate but also refuse to raise on appeal grounds petitioner insisted that counsel
raise. As cause to excuse his procedural default, Petitioner submits that he received IAC of post
conviction appellate counsel on purpose, as a deliberate act calculated to deny him federal
oversight of his conviction by disappearing and two deaf ears. See in re U.S. v. Cronic, 648, 104
S.Ct. 2039.
(37)

Petitioner did not fail to exhaust “available state remediesHodses v. Colson 127 F. 3d

517, 529 (6th Cir. 2013).EvQn the District Court gives slight reference to this notable lack of
essential communication and coordination between petitioner and his “court-appointed counsel”:
“Petitioner filed a pro se amended petition. ” (Id.) but one was not filed by court-appointed
counsel, even though he was hired (“appointed”) to do so. T.C.A. § 40-30-106(e). (Petitioner
had to file an amended petition pro se) Here at this point in time begins the denial of procedural
and substantive due process of law. (“The original petition and amended petition contained
numerous grounds for post conviction relief only three of which have been maintained on
appeal...” (Id.)
(38)

Petitioner was aware that only those grounds submitted on his Post Conviction Petition

will be heard at the scheduled evidentiary hearing, and only those grounds will be available on
appeal of the denial of the petition. Ergo if those post conviction grounds are not submitted to the
state appellate courts, the treatment they receive when submitted to the Federal Courts, is they
are ’’procedurally barred”....
Thus, petitioner was not trying to sit idly by while court appointed counsel let him be faced with
denials of meritorious grounds as happened to many hundreds- if not thousands ofpro se
petitioners in the past whose counsel, -appointed by the same court the pro se petitioner was
suing - to assist petitioner sue the court, with the result being as said, that post conviction
appointed counsel never filed, and apparently had no intention of heeding his client’s incessant
requests to file these grounds in the appellate courts that are now ruled as being procedurally
barred! The Supreme Court in Murray v. Carrier, 477 U.S. 478, 106 S.Ct. 2639 (1986) ruled in

11

what appears to be the exact scenario here, “cause for a procedural default exists where
something external to the petitioner that cannot be fairly attributed to him, impeded [his] efforts
to comply with the state’s procedural rule. ” @ 496.
So, after many months of counsel failing to answer petitioner’s request about the status of
his appeals and to forward him a draft of the appellate brief before submitting it to the appellate
court for assistance or status, petitioner took it upon himself to file his own appellate briefs, to
avoid losing all rights to appeal or at a minimum, a possible procedural bar of grounds that he
wanted to be appealed from the denial of post conviction relief in the trial court.
(39)

Based upon the contentious relationship and lack of willingness to assist him that existed

at the post conviction stage, petitioner was certain, based on the lack of correspondence his
conduct at the evidentiary hearing, and failure to provide him with a copy of the requested
evidentiary hearing transcript or Order of the trial Court, that counsel had abandoned the case.
Petitioner submits that it is counsel who should be penalized in these circumstances, not him.
(40)

Appellant claims that no matter how appointed counsel’s conduct is seen, the results is

that appellant had fewer possible claims than some other appellants who had the communication
and coordination with their attorneys. Thus, a denial of due process and equal protection of the
laws are also apparent. “The duty of the State under our cases is not to duplicate the legal
arsenal that may be privately retained by a criminal defendant in a continuing effort to reverse
his conviction but only to assure the indigent defendant an adequate opportunity to present his
claims fairly in the context of the State’s appellate process. ” Pennsylvania v. Finley 107 S.Ct.
1990, 1994, citinsRoss v. Moffitt, 417 U.S. 600 616, 94 S.Ct. 2437, 2447 (1974) (emphasis
added) (“These considerations apply with even more force to postconviction review. ”
Pennsylvania, supra, @ 1994](emphasis added)
(41) ’ Contrary to Evitts, in spite of the circumstances which he put the appellate courts in
Tennessee on notice of, right there in both briefs as the reason why he was appearing in the
courts instead of appointed counsel, as the result of his court appointed counsel lack of
communication/assistance on appeal, resulting in him filing his own appeal, the State appellate
court’s dismissed both appeals- but appellant provided each appeals court that he was filing
because he did not know if or what appointed counsel was filing. Further, appointed counsel
failed to follow the appellate rules regarding communication to his client.

12

(42)

In cutting off defendant’s pro se appeal briefs, the TCCA and TSC ran afoul of the Equal

Protection and Due Process Clauses. “The court reasoned that

when a State opts to act in a

field where its action has significant discretionary elements, it must nonetheless act in accord
with the dictates of the Constitution- and, in particular in accord with the Due Process Clauses. ”
Pennsylvania. @558, 1995, citing. Evitts 469 U.S. 387, 401, 105 S.Ct. 830 839; Ross v. Moffitt,
417 U.S. at 609, 94 S.Ct. at 2443 [“Due process emphasizes fairness between the State and the
individual dealing with the State. ’ Ross, 417 U.S. at 609, 94 S.Ct. at 2443.]
The High Court in Evitts held that “[t]he right to appeal would be unique among state actions if
it could be withdrawn without consideration of applicable due process norms. ”469 U.S., at 400401, 105 S.Ct. at 838.
(43)

Here, the appellate courts of Tennessee essentially cut off his right to appeal because of

his lawyer’s lone wolf strategy that ended up causing manifest injustices to the Defendant, in
terms of the “procedural bar” which the State unfairly relied on and the District Court
unreasonably decided in favor of the State.
Again, the validity of these grounds in his pro se appellate briefs for appellate review is that they
were first preferred in the post conviction trial Court, and addressed in its order of denial; they
were never ruled as being frivolous or malicious by any court, and Petitioner argued pro se while
appointed counsel stood there in the courtroom. There was no problem with petitioner personally
arguing his grounds then at the first evidentiary hearing, while he had appointed counsel....
(44)

Therefore Appointed Counsel’s disappearances and refusal to respond or even give his

client an idea of what he intends to file on appeal on petitioner’s behalf, should excuse
petitioner’s resorting again to the technique that started his post conviction journey, going “pro
se ”. He contends that it is an unreasonable position to see it any other way under these
circumstances. The only sensible thing would be to file his own pro se appellate brief in light of
appointed counsel’s misconduct.
(45)

Note the observation made by the District Court below itself which supports appellant’s

description of the dilemma claimed herein: “The (trial) court held an evidentiary hearing and
denied relief. The TCCA affirmed. [Petitioner] then file two applications for permission to
appeal: one prepared by counsel and another prepared by petitioner himself On December 14,
2016, the TSC denied discretionary review and dismissed Petitioner’s pro se application because

13

he was

represented by counsel.... ’ (Notations and citations omitted) Barrett v. Genovese, @ *7

(emphasis supplied)
Here the District Court sees that the Tennessee Supreme Court was aware of the obvious lack of
coordination and communication between counsel and client, Your Appellant on appeal.
(46)

The next step in this all too often practiced ruse is that the Tennessee Court of Criminal

Appeals (“TCCA”) rejects petitioner’s pro se appellate brief, on the excuse that “because he has
counsel appointed to represent him. ” (See Barrett. 2020 WL 409688, fn. 1, citing, Barrett v.
State, 2016 WL 4410649, @ *2, n. 1 (T.CCA, 8-18-16: “Although counsel had been appointed at
the time the amended petition was fded, it was not filed by counsel and was submitted by the
Petitioner. ”) (Id. @ fn. 1) There the appellate court finds that counsel did not amend the petition,
as he is required to do, and in his appellate briefpro se, he advised the appellate court that
counsel was play8ng fast and loose with his obligations to consult with his client.
(47)

This “amendedpetition(s) submitted by the Petitioner” was an act of desperation and

motivated by the foreknowledge that only the grounds submitted in his post conviction petition,
would be heard at a the evidentiary hearing and only those grounds would be heard on appeal in
the TCCA, that were submitted to the post conviction court. See generally T.C.A. § 40-30106(d)(e) and (g).
(49)

Petitioner was totally in the designed dark as to whether his court appointed counsel

would file an appeal brief to the TCCA, and what that brief would contain. He had every reason
to belief that this attorney, who would not file or assist at the evidentiary hearing, the grounds
petitioner wanted to assert, that he would do the same thing on appeal, and he did.
Since counsel never told petitioner whether he would file an appeal against his boss’s denial of
post conviction relief, and never sent his client, a copy of the appeal brief, petitioner had no
obligation to sit there and let his time run out on appeal and be foreclosed on the concept of
procedural default that way. In his pro se briefs to both appellate courts, the petitioner pleaded
with them and informed them that the reason he was filing pro se was because court appointed
counsel was playing ‘hide n’ seek’ with his client, Your Appellant, at the amended petition stage,
and at the appellate court stage.
Petitioner submits that counsel’s actions were deliberate and determined to deny appellate review
of rounds he asked to be filed, ignoring obstinately and unlawfully his client’s requests to include
grounds he wanted filed, or tell him why he thought they shouldn’t be filed. This is what the law

14

requires. PCC did neither, and then the state appellate courts went along with these denials of
due process, abusing their discretion to reject pro se applications to appeal and instead accepted
counsel’s recalcitrant and deficient filings.
(50)

The petitioner was not aware that counsel had filed an Application in the Tennessee

Supreme Court until he received the Order dismissing his federal habeas corpus petition. His
grounds submitted in the federal district court were blocked all the way from the trial courthouse
to the esteemed state supreme court: “The (trial) court held an evidentiary hearing and denied
relief. The TCCA affirmed. [Petitioner] then file two applications for permission to appeal: one
prepared by counsel and another prepared by petitioner himself. ” Barrett v. Genovese. @ *1
(emphasis supplied)
Appellant does not intend to be flippant or discourteous to these state actors. In his opinion from
this jail cell and observation, America probably has the best judicial system in the world in toto,
and many countries have imitated to a significant extent, our system of jurisprudence, as we have
borrowed from others. But it is more than consternation that the Federal District Court- long the
haven or North Star against state’s denials of due process -would go with the flow and find as it
does herein as to “procedural bars” and “failure to exhaust”.
(51) Claims ‘ Barred By Procedural Default’
Relevant to the issues regarding indictment and the mysterious underlying felony, petitioner
notes that the District Court did not cite in this synopsis, the part of the indictment where
petitioner was charged with the underlying felony.... Or found guilty of the mysterious
underlying felony....(mysterious because the Trial Court in the Evidentiary Hearing said
Petitioner “was not convicted of larceny.”)
Petitioner argues that any “procedural default” was due to the ineffective assistance of post­
conviction appellate counsel. PCC failed in this procedural due on appeal by his absence or lack
of communication at the appellate stage of post conviction process, which is a particular but
crucial duty. U.S. v. Cronic, 648, 104 S.Ct. 2039. Petitioner’s due process right is guaranteed by
the Fourteenth Amendment. Wolff v. McDonnell. 418 U.S. 539 558, 94 S.Ct. 2963, 2975 (1974).
Heyne v. Metropolitan Nashville Bd. OfPublic Education, 380 S. W. 3d 715 (“When a person
asserts a procedural due process claim the court must first determine whether he or she has an
interest entitled to due process protection. ” Board ofResents State Colls. V. Roth, 408 U.S. 564,
570-71, 92 S.Ct. 2701 (1972). If the court determines that the person has an interest that is

15

entitled to constitutional due process protection then the court must determine ‘’’what process is
due”’. Morrissey v. Brewer 408 U.S. 471, 481 92 S.Ct. 2593 (1972).
(51)

In an appellate court decision where PCC was also slack, the Tennessee Supreme Court

held in Donald Wallace v. State of Tennessee, 121 S.W. 3d 652. (Tenn. 12-23-2003), citing,
United States v. Cronic, 466 U.S. at 658, 104 S.Ct. 2039(1984)-. “when ‘counsel entirely fails to
subject the prosecution’s case to ‘meaningful adversarial testing, ’ the process becomes
‘’’presumptively unreliable’” and proof of actual prejudice is not required. ” Wallace v. State,
supra, @ 657, citing, Cronic @ 659, 104 S.Ct. 2039. /emphasis supplied)
(52)

And that ‘meaningful adversarial testing,’ encompasses the following

grounds in this case, where counsel, by failing to file the grounds on appeal or
even let petitioner know he was going to file an appeal, his deficiency precluded
the two appellate courts from even reviewing any of his appellate grounds.
Thus, the denial of appeal in Wallace is equal to the denial by counsel to the
petitioner’s right to “meaningful adversarial testing” in the form of appellate
review in the instant case.
(53)

Cognizable Ineffective Assistance Of Pcc Claims May Establish Cause
To Excuse A Procedural Default Under Two Circumstances
Reasonable jurists would find any and/or all of the STATE’S APPELLATE

COURTS claims debatable whether the district court was correct in finding
them procedurally defaulted, specifically whether Petitioner exhausted those
claims by raising them on appeal from the trial court’s denial of his post­
conviction action. Cause and prejudice are established to the degree that will
excuse any default or a fundamental miscarriage of justice would result if these
claims are not examined.
(1)

“Complete abandonment” with respect to those grounds appellant requested counsel to

file on appeal, which he not only did not communicate or consult with his client but the grounds
Appellant submitted to counsel in writing, he refused to add to the brief. When appellant tried to
file these grounds pro se, the appellate state courts in effect said appellant had to file these

16

grounds through counsel or forget about it! A Catch-22. This unreasonably stringent reasoning
satisfies one of the circumstances defined in Maples v. Thomas 565 U.S. 266, 288-89 (2012).
(2)

Petitioner considers it a time-honored subterfuge or ruse where PCC, knowing for years

that even if counsel does not ‘assist’ on appeal (i.e., fail to, or refuse to file all requested grounds
for appeal, fail to file an appeal, fail to follow the appellate procedure, etc.) appellate PCC’s
failures will always be excused in the Federal District Court because the state appellate courts
were therefore not ‘willing’ to review the contested claims on appeal due to appellant filing them
and not his appointed Counsel, and will not review claims, that were pro se appeal grounds. This
is what happened to appellant in the state courts.
(3)

Then the well-honed step to the federal courts finds the petitioner barred from having

these claims reviewed, because the State’s position is that his appeal was dismissed based on an
“independent and adequate state ground”, in the state appellate process, the dubious
understanding that when a prisoner has an appointed attorney on appeal, he cannot open his
mouth, which the Federal Courts typically and in this case, agree and “DISMISSED”, the pro se
petitioner’s petition for the writ of habeas corpus.
(4)

This scenario is unconstitutional and a cruel way to deny a pro se petitioner due process

of law, because as long as it has been the law that dismissal based on an independent and
adequate state ground constitutes a procedural default ofpro se appellate court grounds, state
post conviction attorneys know that when he refuses to file the grounds their client wants filed or
simply disappears effectively from the radar of their prisoner client communication capability,
what they are doing will upset and undermine the ability of his client’s pursuit of the writ of
habeas corpus on grounds that he intended the state appellate courts to review, and appointed
counsel escapes censure because he doesn’t have to be “effective” anyway on pot conviction
appeal. This is the unjust case scenario here.
(5)

To compound this series of inequities, the post conviction court is one of the three state

court levels recognized by the Federal Courts, which may review prisoners’ claims of ineffective
assistance of trial counsel (“IATC”). In Tennessee, prisoners are strongly discouraged to bring
IATC claims in direct appeal, thus collateral review is the only sensible level to review those
claims. If a petitioner does not agree -as is the case here- with the dismissal of his post
conviction petition in the same court where those claims originated, primarily against the post
conviction (i.e. ‘trial’) court, he is often essentially foreclosed from any other review in the state

17

appellate or federal district courts, due to this game played by PCC on appeal and in the
evidentiary hearing not raising meritorious IATC claims.
(54) DEBATABLE CLAIMS CONTRAY TO FEDERAL LAW OR BASED ON AN
UNREASONABLE DETERMINATION OF THE FACTS OF COUNSEL’S
INEFFECTIVENESS FOR FAILING TO:
This Court currently holds that cause based on his attorney’s failure to raise the claims in
(1)
the appellate court or attorney error in a post-conviction appellate proceeding cannot constitute
cause to excuse a procedural default. Citing, Atkins v. Holloway, 792 F. 3d 654 661 [6th Cir.
2015]) This is where appellant encounters a miscarriage of justice. Appellant submits that he has
a right to counsel and a right to be heard by himself in the State of Tennessee. Yet the courts
should give constitutional significance to these deficiencies described above and herein. There is
no recourse to a state prisoner if his PCC is blatantly ineffective on appeal of the dismissal of his
client’s post conviction petition by the trial court, which is typically the same court that appoints
him as a public defender in the first place. Petitioner submits that his IATC clams were not fully
and fairly addressed in his initial post-conviction review and should therefore survive a
procedural default bar.
(2)

The United States Supreme Court has recognized an exception to Coleman v. Thompson,

501 U.S. 722, 752 (1991), where as here, it is understood that a claim of ineffective assistance of
trial counsel must be litigated in a collateral proceeding. In such cases “a procedural default will
not bar a federal habeas court from hearing a substantial claim of ineffective assistance at trial if,
in the initial-review collateral proceeding there was no counsel or counsel in that proceeding was
ineffective.” Martinez v. Ryan, 132 S.Ct. 1309, 1320 (2012). In a subsequent Supreme Court
ruling in Trevino v. Thaler, 133 S.Ct. 1911, 1921 (2013), Martinez was extended to include states
like Tennessee, where the IATC claims are unlikely to be litigated on direct appeal. See Sutton v.
Carpenter 745 F.3d 787 (6th Cir. 2014).
(2)

The Supreme Court’s decisions in Martinez and Trevino are applicable here because

appellant’s claims of IATC had to be advanced by petitioner from the stand, because PCC
refused to argue or assist him at the evidentiary hearing. And then he had to forego reliance on
this same recalcitrant incommunicado post conviction attorney on appeal, who refused to
communicate with petitioner as to the nature and substance of appeal. He was effectively
AWOL. Appellant did not know he had filed either appeal until after they were dismissed. In
particular, he did not know of the appeal grounds filed in the Tennessee supreme court by

18

recalcitrant counsel until he read the denial of appeal in the documents submitted to the federal
district court by the State’s assistant attorney general.
(3)

Thus the ineffective assistance of his substantial claims against trial counsel were

compounded by a classic ruse used by post conviction attorneys to go it alone and fail to adhere
to the wishes of their client or even communicate with him until the appeal had been denied. This
is how meritorious appellate grounds such as those submitted to the district court by appellant
don't receive due process of law in the appellate courts.
(4)

Petitioner argues that therefore his claims of IATC were not given a full, fair or

meaningful hearing by the post conviction court, counsel in that proceeding was “ineffective”
and his right to due process pursuant to T.C.A. 40-30-101 et seq., and T.R.A.P., were denied him.
Martinez, @ 1320; Thaler. @ 1921.
(5)

The Tennessee appellate courts refusal to address his pro se appellate claims which

petitioner was forced to file due to the complete absence of counsel, or lack of even a cursory bit
of communication, or to tell petitioner he has everything under control or he does not want the
input from petitioner, therefore this complete absence of communication should not justify a
dismissal based on an independent and adequate state ground and these state grounds are
debatable as whether they should not have been dismissed by the Federal Court. “Appellant
cannot he charged with the omissions of his attorney... T Maples v. Thomas. 565 U.S. 266, 28889 (2012)
(55)

CLAIMS DEBATABLE ON THE MERITS

a)

As to those claims the District court rejected ‘on the merits’, Appellant must show that

reasonable jurists would find the district court’s assessment of those claims debatable. Slack v.
McDaniel. 529U.S.473 484 (2000).

(56) District Court’s Assessment Of Exhausted Ineffective-Assistance Of Counsel Claims
Debatable:
(1)

Petitioner did attack the “underlying state conviction”. (Order of the District Court, pg.

18, factually erroneous).
(2)

DNA was available in Tennessee Davidson County, in 1992 and petitioner quoted a

Nashville Metro Detective’s own words that he intended to have the exhibits in the case
examined for DNA. For one reason or another, these tests were not utilized or referenced.
Petitioner’s arguments regarding the passage of time affecting his alibi defense, the reliability of

19

DNA tests results and the chain of custody issues were more than “general”. Petitioner pointed
to the corrosive effect of mixed donor samples that were reported and the integrity of the DNA
and contamination - which could not be found by relying on the State’s supportive DNA
examinations.
Petitioner provided Counsel with the names of several individuals that accompanied him
(3)
on the trip to Chicago the day the child was missing. The Petitioner said that trial Counsel and
the Defense Investigator Amber Cassitt tried to contact everyone on the list he gave them but on
person “couldn’t remember” and several others had “moved out of town, died, or they weren’t
able to locate them. (Id., pg. 3) the named potential witnesses whose memory according to the
Public Defender Investigator had simply eroded, were real losses and consequences resulting
from the dilatory pursuit of a suspect in this case. There was no factual assertion that “advances
in DNA technology” lead them to the Petitioner because the technology they relied on was
primarily decades in existence. The State never justified their delay because of “improved
technology” in DNA Forensic typing. They simply resumed testing when they got ready to
accuse Petitioner right before their retirement. Defense counsel named several specific witnesses
that the Investigator had contacted and all but one admitted that the passage of time had eroded
their abilities to recall if Petitioner had accompanied them to Chicago Illinois on the day the
victim became missing. Plus the rapacious news media feeding frenzy was no doubt extremely
intimidating because they had Petitioner convicted the first day the news releases went out.
(3)

Consecutive sentence in this case rode right over the impermissible boundary line of the

8th Amendment’s cruel and unusual prohibition. The District Court correctly concludes that there
is a “federal ‘”due process right to a fair sentencing procedure.” (Id., pg. 23) however the
argument the District Court addressed was not the major one Petitioner claimed regarding the
sentence he received. He was charged with 1st degree felony murder, which carries an automatic
life sentience in 1975. However the weak justification given for consecutive sentencing is the
issue here. The trial court used non-statutory reasons to justify running the 44-year sentences
consecutive to the Life sentence, reasons that were clearly based more on emotion and caprice
rather than the rational, logical or sensible requirements of the law. The trial Court went on
record stating that it based its’ decision to run sentences consecutive so that the victim’s family
in both cases, would feel satisfied in essence, that the sentences were consecutive to the Life
sentence he had already received See Barrett, 2012 WL 2870571m @ *43-44; [Order, Barrett v.

20

Genovese, pg. 24]. Therefore, the District Court should not have deferred to the holding of the
state trial and appellate courts, which seemed to miss the reasoning that is required by law for
sentencing. (“Defendant’s sentence ‘’’needed to be long enough to keep [the Defendant]
permanently incarcerated’” and that Petitioner must serve this sentence consecutive to a
previously imposed (Life) sentence in part because to do other wise would minimize the death of
the victim and the murder victim on the previous case. ” Id. Pg. 26, fn. 4). The trial court then
justified the consecutive ordering of his sentences based on two cases that came after the date of
offense: Gray v. State 538 S. W. 2d 391 (Tenn. 1976) and State v. Taylor, 739 S.W 2d 227 (Tenn.
1987).
(4)

The District Court erroneously found that “Petitioner does not dispute the fact of these

convictions. ” (Id., pg. 27) Untrue! Petitioner has long disputed the fact that he was lawfully
convicted of’’unlawful carnal knowledge of minor”, that there was insufficient evidence to
convict him of murder and larceny or rape, all the way from the state courts to the federal court,
both in this matter and previously. Thus the prior disposition of these claims as well are contrary
to and an unreasonable application of federal law. See Barrett v. State 1993 WL 8605. Appellant
submitted an exhibit ’’APPEAL” for an indictment for “Rape” and sentence for “unlawful carnal
knowledge of a woman forcibly and against her will ” in 1974. (T.C.A. § 39-3701) The State
courts assumed the conviction under another statute - T.C.A. 39-3706. The federal court case
which followed 2013 WL 1178266, M. D. Tenn. found the concerned indictment B-36512: “As
the Indictment in B-36512 only made reference to carnal knowledge of a woman, T.C.A. § 393701.” (Tenn. Code Ann § 39-3701 [1955]) Yet TDOC’s Sentence Information Services
unlawfully changed the conviction to “carnal knowledge of Female between twelve eighteen not
amounting to Rape” (T.C.A. § 393706). They knew and the trial Court knew that this was
unconstitutional to alter the judgement of a trial Court but that is what the Courts are relying on.
The Western District Federal Court in Case No. l:12-cv-178, and related 6th Circuit Case No. 135814 found in this matter: “The Court observes that Appellant alleged that he was indicted for
(}} }}

rape

>} }

and pleaded guilty to the indictment, and specifically to ‘ ’’unlawful carnal knowledge

of a woman forcibly and against her will. ” (U.S. District Court Case No. l:12-cv-l 78) (Docket
Entry No. 1-1, @21. At that time under Tennessee law the crime of rape was defined by statute
as “the unlawful carnal knowledge of a woman forcibly and against her will. ” Tenn. Code Ann.
§ 39-3701 (1955) (amended by Tennessee Public Acts 1979 pg. 1065, eh. 415)

21

The District Court was put on notice in his Petition for the Writ of Habeas Corpus, that
the guilty plea conviction for “unlawful carnal knowledge of minor ” was a unknowing guilty
plea conviction which even the TDOC in a prior petition for relief in the U.S.District Court
Middle District, Petitioner launched an attack on that sentence, where the victim in that case was
a woman approximately 30+ years of age.
(5)

Petitioner also pointed to the five years he was free and his conduct belied the

justification upheld by the district court that “Defendant was a dangerous offender with, little or
no regardfor human life and who had no hesitation about committing a crime involving a high
risk to human life. ” (Id. Pg. 26, Order) The fact of the matter is that Petitioner had not been
accused of coming any crime since March 1975 a total of 34 years including over five calendar
years of freedom. Petitioner was over sixty (60) years of age when he was sentenced in January
2009. A “Life” sentence in 1975 requires a service of “30 full calendar years” before parole. This
would make him eligible for parole at the dangerous age of ninety (90). Clearly, the consecutive
sentencing was primarily a political stunt tinged with racism and caprice.
(6)

All of the talk about protecting the public from some who is over 90 years of age is

grandstanding and political opportunism. See T.C.A. 40-3613: “Providedfurther, any person
who shall have been convicted and sentenced to a term of imprisonment in the state penitentiary
for a period or term ofsixty-five (65) years or more or life may become eligible for parole
provided such person shall have been confined or served a term in the state penitentiary of not
less than thirty (3) full calendar years.... ”
(7)

The trial court observed from the media focus on the case which he noted in court, that

the pre trial publicity had made the case known to the jury and to ensure a fair trial should have
been moved to West Tennessee. Again even thought he trial court is noted to have heard the
Petitioner’s claims that he was denied a fair and impartial trial due to incessant inflammatory
pre-trial publicity, because the PCC did not raise these issues on post conviction appeal, in short
Petitioner did not exhaust the available remedies for these three claims by presenting them to the
TCCA and he can no longer do so. ” (Id., pg. 39) Again the familiar refrain. According to law,
petitioner did not have to raise these claims to the TCCA to be properly exhausted for federal
review so he contests that conclusion, however as stated herein petitioner did raise those claims
his pro se appeal to the TCCA.

22

Both state jailhouse liars were presented as due process and equal protection issues not
(8)
“solely as a matter ofstate evidence law ”. Nonetheless, thought the District Court held that the
claim regarding “Sheldon Anter” (“S.A.”) “Claim is not cognizable in this federal habeas
proceeding because Petitioner raised it on direct appeal ‘solely ’ as a matter ofstate evidence
law”. 7he Court did not cite any law to justify the learned court’s odd holding on this matter.
(Id., pg. 40). Trial Counsel should have at least moved to strike the pernicious biased testimony
of jailhouse liar S.A. a twice-deported illegal alien, who was undergoing DEPORTATION
proceedings by our Federal Government when Assistant (now Deputy) District Attorney Tom
Thurman went down to New Orleans and begged the Feds to allow Anter to come back to
Tennessee in order to (lie) his way back into the U.S. It was exhibited that Mr. Thurman wrote a
letter to the Federal authorities on behalf of S.A. His sister thought that Mr. Thurman had
reneged on his promise to the Anter family that if he testified at the first trial he would not be
deported. So she went hysterical, exposed the quid pro quo, to avoid her brother being deported
back to Trinidad for the third time after 14 years a daughter and the fear of “being killed if he
returned”. She and went to the news media with her complaint that the “DA lied to her and her
brother, that he wouldn’t be deported if he “testified” against petitioner in the first trial, which he
did. This was her complaint made before the second trial and counsel did not follow up on this
information which was in the newspapers. True counsel put up a spirited criticism during trial
but Anter told so many lies, he no doubt contributed to the violation of Petitioner’s constitutional
right and helped to deprive petitioner of his constitutional rights to be free from imprisonment.
His testimony and appearance at the second trial should have been stricken, suppressed or
something.
The State appellate court pro se application for permission to appeal was finally
recognized by the District Court (pg. 40) regarding the prevarication of Andrew Napper (“A.N.”)
and prosecutorial misconduct but the Court’s review was extremely strict against the pro se
appellant: “Although Petitioner did raise this claim in a ‘conclusory’ fashion in his pro se
application for permission to appeal to the Tn Sup Ct in his state post-conviction
proceedings.... that is not sufficient to fairly present the claim to the state courts. ” Id., pg. 40)
Andrew Napper was a claim that petitioner stated was extremely prejudicial as well though not
as extensively damaging as Anter’s was . Anter’s testimony was fueled by personal animosity
toward Defendant as well as the huge desire to parlay his lies into an agreement to stay in the

23

U.S. with his family of 13 years. Napper was motivated by the scenario that he might be killed if
sent back to state prison because he had been used by DEA previously to bust up gang related
drug activities. He understood that he could stand a better chance in a small jail than the wild
blue yonder of state prison grounds. Counsel was deficient in his handling of these two biased
criminal informants.
(9)

The District Court overlooked again the fact that petitioner did present his claim of

prejudicial photographs in post conviction petition and pr se appeals and unreasonably held that
petitioner did not present the claim of prejudicial photographs to the TCCA on either direct
appeal or post conviction appeals. (Id., pg. 40) then it went on to hold that the photographs were
useful as in State v. Nesbitt, 978 S. W. 2d 872, 901 n. 2, “as proof that the deceased was a
reasonable creature in being; that is to say a child that was born alive ” is at least a strained
justification for these provocative pictures. There had been no assertion by anyone that the child
had not been living for nine years when she was killed. There was no question asked by anyone
if the “person killed was the same person named in the indictment”. Plus the District Court
using still another unreasonable excuse for the pictures of the child stating “And Ms. Trimble
used the victim’s school picture to identify her as the person named in the indictment. ” (Id., pg.
56) is ludicrous. The mother did not need a picture to identify her own child. Even after 33 years,
identity was not an issue. The purpose intended and served was to inflame the passion and
sympathy of the jury, to make it more probable than not to convict anyone on trial for this crime
appear guilty. “Photos can sometimes be overwhelming depending on how they ’re presented... ”
State v. Larkin, 443 S. W. 3d 751, 765, CCA- Knoxville; 3-28-2013. The only seemingly rational
connection with pictures of the child’s birthday party provided by the District Court, was that
Petitioner’s DNA was reported on it after the warrantless 2nd DNA search u sing swabs.
Testimony was uncontrovered was elicited that the child had that blouse on around the time of
her disappearance. There was no need to show her to the jury in her gala Happy Birthday party
with this blouse on celebrationing, except to evoke the sympathy and passion of the jury.
Counsel was deficient in not challenging the introduction of these prejudicial provocative
pictures to the Jury or at least objecting to the surprise introduction on the grounds of relevance
and prejudice. With permission to appeal petitioner will be far more exact in proving these
assertions.

24

(10)

Petitioner did not strenuously and repeatedly raise the trial court errors regarding

admission of the jailhouse video in all of his petitions, which he believes and claimed
undermined his presumption of innocence and his right against compulsory self incrimination
from the mouths of three witnesses, Assistant District Attorney General Tom Thurman, S.A. and
A. N., and then, as the District Court proposes: “...not then raise this claim to the TCCA. ” (Pg.
41) The Court is being used by the ruse employed time and time again in Tennessee where the
court-appointed attorney refuses to communicate with his client-prisoner and refuses to file the
proper appeal, which was insisted upon by the client. The trial (post conviction) court never
denied that it did not promise to review the video overnight.. ..The transcript of the trial, as
Petitioner showed in his state Petitions for post conviction relief proved contrary to the District
Court’s finding that Mr. Thurman did describe to the jury why he felt what was happening
during the alleged altercation and why.
(11)

This fact design should also satisfy cause of IAC with respect to substantial claims

because the state appellate courts typically prohibit defendants from raising IAC or any other
claims on Appeal unless PCC raises them for him. Pro se appellants are forcibly tied at the hip of
a person who in this case intends to restrict his access to the appellate courts. Thus, both causes
should excuse any “procedural default” of IAC claims. Trevino v. Thaler 569 U.S. 413, 429,
(2013); Martinez v. Ryan, 566 U.S. 1, 17 (2012). Abdur Rahman v. Carpenter, 805 F. 3d 710
713 (6th Cir. 2015) (“Martinez and Trevino apply in Tennessee”) Further, the district court was
unreasonable by concluding that post-conviction’s alleged ineffectiveness could not constitute
cause to excuse “procedural default”.
(12)

He has a constitutional right in Tennessee and in the Federal Constitution to raise those

issues along with the issues raised by the appointed attorney. Even if the appellate courts in
Tennessee concluded that the petitioner waived these issues for review because he was bringing
them himself, they could have nonetheless considered whether a plain error analysis was
applicable under the facts and still examines whether any error occurred. His claims are subject
to review insofar as they are “plain”. Holguin-Hernandez v. U.S., 140S.Ct. 762 (2020); United
States v. Olano 507 U.S. 725, 732-736, 113 S.Ct. 1770 (1993). “Appellate courts in Tennessee
have ‘the authority to ‘consider an error that has affected the substantial rights of a party at any
time, even though the error was not raised in the motion for a new trial or assigned as error on
appeal.

State v. Knowles, 470 S. W. 3d 416, 423 (Tenn. 2015) (quoting Tenn. R. App. P.

25

36[b]). “We refer to this discretionary consideration of waived issues as ‘plain error’ review. ”
Knowles, 470 S. W. 3d at 423; see also Grindstaff v. State, 297 S. W. 3d 208, 219 n. 12. (Tenn.
2009). “Plain error” review is also available when counsel fails to lodge a contemporaneous
objection when the issue first arises. State v. Thomas, 158 S. W. 3d 361, app. 413 (Tenn.
2005). (emphasis supplied) “Two essential requirements are neededfor there to be an effective
waiver: (1) knowledge of the right being waived and (2) the grant of authority to waive the right.
A party cannot waive a right that they do not know they have ”, Citing, Reed v. Washington Cnty.
Bd. OfEduc., 756 S. W. 2d 250 255 (Tenn. 1988)([a] waiver is a voluntary relinquishment by a
party of a known right. ” Morgan, suyra, @ 8(“However, if an individual does not know of his
rights or if he fails to understand them he cannot waive those rights. ” Reed, 756 S. W. 2d at
255) [citations omitted)
(57)

SUBSTANTIAL GROUNDS

The following grounds are proposed as having substantial merit:
(13)

Constructive Amendment of Indictment
Trial counsel performed ineffectively by failing to object to a constructive amendment of

the indictment. The charge of rape was never pled in the indictment. The grand jury did not make
this charge on its own judgment, which is a substantial right, which cannot be taken away with or
without court amendment. U.S.C.A. Const. Amend. 5; Tennessee Constitution Article 1, § 14;
State v. Goodson, 77 S. W. 3d240; T.R.Crim. P. Rule 7 (b)(2); T.C.A. § 40-1713. While Count I
of the indictment purports to charge the petitioner with First Degree Murder and felony murder,
there is no indictment for any other “underlying felony” that identifies what other offense the
defendant was put on notice to defend against, and more importantly, insufficient evidence of an
underlying felony or of a jury verdict to one. "A valid indictment is an essential jurisdictional
element without which there can be no prosecution." Wyatt v. State, 24 S. W.3d 319, 323 (Tenn.
2000); State v. Perkinson, 867 S. W.2d 1, 5 (Tenn. Crim. App. 1992). By authority of Article 1,
Section 8 of the Tennessee Constitution the Fifth, Sixth and Fourteenth Amendments of the
Federal Constitution, Count I and 2 should be dismissed. See State v. Smith, 612 S. W.2d 493, 497
(Tenn. Crim. App. 1980), citing, Inman v. State, 195 Tenn. 303, 304-305, 259 S.W.2d 532, 532
(1953) ("The test for the sufficiency of an indictment is whether it contains the elements of the
offense intended to be charged...") When the indictment fails to assert an essential element of

26

the offense — no offense has been charged — Tandl subsequent proceedings are a nullity.
State v. Perkinson. 867 S.W.2d 1, 6 (Tern. Crim., App. 1992). (Emphasis supplied)
The State of Tennessee was without jurisdiction or authority to prosecute petitioner for
rape, larceny or burglary, State ex rel, Kuntz v. Bomar, 214 Tenn. 500, 504, 381 S. W. 2d 290,
291-92 (1964) but based on the record before us, this is what the state of Tennessee did in this
case. Whereas the records below show that the state of Tennessee is uncertain whether the
defendant was on trial for and convicted of rape or larceny. "Tennessee necessarily requires that
the factual allegations [in an indictment] must relate to all the essential elements of [the] offense
including that ofscienter." State v. Marshall 870 S.W.2d 532, 537 (Tenn. Crim. App. 1993).
Thus, an indictment that is so defective as to fail to vest jurisdiction in the trial court may
be challenged at any stage of the proceedings, including in a habeas corpus petition. Wyatt v.
State, 24 S.W.3d 319, 323 (Tenn, 2000). “The Supreme Court held that the Sixth Amendment
right to jury trial as incorporated against the States by way of the Fourteenth Amendment,
requires a unanimous verdict to convict a defendant of a serious offense....” Ramos v. Louisiana.
2020 WL1906545; Patton v. United States. 281 U.S. 276, 50 S.Ct. 253, (1930); Andres v. United
States. 333 U.S. 740 68 S.Ct. 880 (1948); Blakely v. Washington, 542 U.S. 296, 301, 124 S.Ct,
2531, (2004); Ayyrendi v. New Jersey. 530 U.S. 466 477, 120 S.Ct. 2348 (2000).
By way of prosecutorial misconduct the constructive amendment of the case took place
when the prosecutor repeatedly argued to the jury that the petitioner “raped” the nine-year old
victim. The prosecutor did not have any proof of rape. He was not told by the criminal
informants jailhouse liars, that petitioner said he raped the child. There was no evidence of rape
by the petitioner. The child’s vaginal vault contained another person’s DNA. The District Court
jumped over his factual innocence to the charge of rape when it wrote in its Order of dismissal
that: “the medical examiner took vaginal swabs from the victim’s vagina ...Subsequent analysis
showed the presence ofsperm... ” Why does the Court note this without adding that the DNA
analysis exonerated appellant as the depositor of the “sperm”? Just writing that examination had
been performed for DNA, without connecting the results to anyone, leaves the impression that
appellant was the depositor of the DNA. That is an unfair machination at the very least. To
appellant, this “Factual Background” (Pg. 4, Order) omission indicates that the Court tripped
over finding half-truths rather than objective analysis, when it leads to proof of innocence.

27

The extremely prejudicial aspersions by the State’s attorney Tom Thurman that petitioner
was guilty of rape, was repeated in argument and in the false statements to the jury that the two
jail house liars also said that “he (petitioner) raped her. He even lied on his witnesses S.A. and
A.N.
By extremely improper closing argument to the jury was so inflammatory and improper that
it affected the outcome of the trial and clearly denied him a unanimous jury verdict and
obstructed petitioner’s constitutional right to a fair trial by an impartial jury. State v. Cribbs, 967
S.W. 2d 773, 786 (Tenn. 1998); State v. Goltz, 111 S.W. 3d 1,5 (Tern. Crim. App. 2003); Judse
v. State, 539 S.W. 2d 340, 344 (Tenn. Crim. App. 1976)
Deprivation of the right to indictment by grand jury is a structural error which rendered
petitioners trial fundamentally unfair. Rape and larceny or rape and burglary do not share the
same elements. Allowing the prosecutor to argue to the jury two or more underlying felonies
which then permitted the jury to pick which underlying felony offense they wanted.
(14)

Insufficient Evidence Beyond a Reasonable Doubt
“In June 2008, a Davidson County grandjury indicted the Petitioner for first-degree

murder and felony murder. In July, 2009, (a) jury found Petitioner guilty ofsecond-degree
murder a lesser-included offense, on both counts. ” (Barrett v. Genovese, @ *1). The District
Court concluded that since Petitioner was convicted of second-degree murder whereas he had
been charged with “premeditated murder” and “felony murder in the perpetration of larceny” this
means there was sufficient evidence to support both convictions. However as the TCCA
explained in their direct appeal response petitioner was convicted of “2nd degree felony murder
and second desree premeditated murder. He was convicted of both offenses and yet there is no
equivalent lesser-included offense for 1st degree felony murder and 1st degree premeditated
murder, which were the original charges. Therefore there is insufficient evidence to support these
convictions. A simple review of the record will show that there was no evidence of any
monetary value taken from the victim, which is required to sustain a charge of “larceny”. (See
Barrett v. Genovese @ *23).
Again, as in each case that is viewed as “procedurally defaulted”, petitioner relies on the
Statement of the Case argument and laws herein. In addition, the District Court abused its
discretion by concluding that Petitioner’s brief was apparently in the “pipe line” when the
Tennessee Supreme Court decision in State v. Dorantes 331 S. W. 3d 370, 379 (Tenn. 2011) was

28

decided. Dorantes introduced a more lenient standard of proof for conviction based on
sufficiency of evidence than that which existed at that date of offense in this case. Petitioner
submits that it is a denial of due process and cruel and unusual punishment for the TCCA to rely
on a standard of proof that reduced the State’s burden to be upheld on appeal or ex post facto
standard of proof after he was convicted. (See Genovese supra, @ *24. The TCCA decision that
post-date a state court’s prior determination cannot be ‘clearly established law ’ for the purposes
of the federal habeas statute. For the Federal Court to uphold the TCCA decision of State
Dorantes, 331 S. W. 3d 370 3 79 (Tenn. 2011), which eliminated the “every other reasonable
theory or hypothesis except that ofguilt” analysis for conviction based on circumstantial
evidence alone (‘’’must be consistent with the guilt of the accused but it must also be inconsistent
with his [or her] innocence and must exclude every other reasonable theory or hypothesis except
that ofguilt. ” ’) and replaced it with the standard of proof being the same “without regard to
whether evidence is direct or circumstantial” (Genovese, @ 44) is an unreasonable application
because the Dorantes. decision in this case cannot be clearly established law and therefore the
Court utilized an unreasonable application of law which was not clearly established when
Appellant was convicted.
Further the conclusion that the victim died from asphyxia is also inconclusive, in that this
diagnosis is one of exclusion, where every other possible cause of death has been scientifically
excluded. This test was not applied in this case, and the characteristics of second degree murder
are unavailing and there is insufficient evidence to support this conviction. Id, 2 *25. The court
concluded that the description of the suspect fit the petitioner, overlooks one salient fact that was
never refuted: the eye witnesses all testified that the perpetrator was White (Caucasian) and their
was DNA evidence that the killer of the child was White, not Black. Further, a description of the
injuries to the child does not in themselves prove that the Petitioner was the assailant. (See
generally @ 25, Id) especially since there was DNA evidence on the victim’s clothing indicating
another male profile.
Had Appellant been afforded a fair and impartial jury as guaranteed to every American
by the, 6th, and 14th Amendments to the United States Constitution and Article I, § of the
Constitution of the State of Tennessee, minus the prejudicial acts and omissions of the trial
Court, the State’s prosecutors petitioner would not have been convicted;
(15)

Irrational Consecutive Violates 8th Amendment, U.S. Constitution

29

‘Second-degree murder (T.C.A.§ 39-13-202(a)(2)[formerly T.C.A.§ 39-2403] is not a
lesser included offense of first degree felony murder (T.C.A. § 39-2402(4). “The only lesser
included offenses offirst-degree felony murder are reckless homicide and criminally negligent
homicide. ” See State v. Gilliam, 901 S. W. 2d 385[TCCA 1995]; State v. Brown 311 S. W. 3d 422
(Tenn. 5-27-10). Therefore, petitioner’s conviction and sentence for this offense is
unconstitutional. There was no proof that petitioner had killed anyone or knew anyone who
killed the victim.
The state court, in violation of Eddinss v. Oklahoma, 455 U.S. 104 113-114, 102 S.Ct.
869 (1982) refused to consider as mitigating evidence the five years of freedom event-free
petitioner spent prior to arrest and after having served nearly 29 consecutive years of
incarceration in the state prison system. In Eddinss, the sentencing judge and appellate court
found mitigating evidence about the defendant’s “family history” irrelevant as a matter of law.
455 U.S. at 113, 102 S.Ct. 869. The Supreme Court held: “Just as the State may not by statute
preclude the sentencer from considering any mitigating factor neither may the sentencer refuse
to consider as a matter of law any relevant mitigating evidence.” Id., at 113-114, 102 S.Ct. 869.
Those five (5) years that petitioner spent in the free world free of any wrong doing or
accusation of wrong doing, after nearly thirty (30) years of incarceration, were entitled to be
proffered as mitigating evidence. “ Williams, 529 U.S. at 397, 120 S.Ct. 1495; Rompilla. 545 U.S.
at 382, 125 S.Ct. 2456. Dawson v. Delaware, 112 S.Ct. 1093, 503 U.S. 159 (3-9-92); Jells v.
Mitchell 538 F. 3d 478 (6th Cir. 8-18-2008): “failure to use mitigation specialist was deficient ”.
Those five years appellant did not even get a traffic ticket. His business (“AJ. ’s ‘One Man Army ’
Expert Lawn Service ”) required him to have contact with hundreds of people each month. He
told trial counsel he was elected to the Neighborhood Anti-Crime block Club presidency by
members of his neighborhood (Evergreen). He also was a “judge” on the Shelby County Voting
Registrar for the years 2005-7). Counsel also learned that appellant received several decorations
for combat tour in Viet Nam including the Purple Heart. These facts could have gone to sway the
jury to a lesser sentence.
The consecutive sentencing and indeed the sentence of “44 years” is “ ’greater than
necessary to accomplish the goals ofsentencing.’’ ” Holsuin supra. [2], citins, Kimbroush v.
United States. 552 U.S. 85, 101, 128 S.Ct. 558, (2007) “Congress has instructed sentencing
courts to impose sentences that are ‘ ’’sufficient, but not greater than necessary, to comply with ’ ”

30

(among other things) certain basic objectives, including the need for " just punishment,
deterrence protection of the public, and rehabilitation’ Holguin, [3], citing, Deanv. United
States, 581 U.S.

, 137S.CL 1170, 1175.

Here, it is very doubtful that the sentencer had the proper motives to give consideration to
whether the sentences should run consecutive, but the question for the Court is whether the trial
court’s choice of consecutive sentencing was reasonable or whether the judge instead abused his
discretion in determining that the factors he considered supported the sentence imposed. “A
finding of abuse of discretion ‘reflects that the trial court’s logic and reasoning was improper
when viewed in light of the factual circumstances and relevant legal principles involved in a
particular case.,, State v. Ronald Lee Freels, Jr., citins, State v. Shaffer 45 S. W. 3d 553, 555
(Tenn. 2001).
(58)

TRIAL COURT ERRORS

(15)

Prejudicial pre-indictment delay (Please see #56 infra)

(16)

Defective Indictment. The District Court acknowledges that he petitioner “did raise this

claim in his original pro se post-conviction petition... ” But it falls for the same ruse again, when
although petitioner did submit his claim to the TCCA on post conviction appeal, but pro se due
to the lack of assistance of counsel on appeal. Conversely the Court concluded wrongly that
“thus. Petitioner did notfully exhaust his available remedies in the state courts, and he is now
barredfrom doing so.... ” This claim is procedurally defaulted. ” Id. At *21.
(17)

Prejudicial pre-trial publicity was not addressed and the district Court’s assessment of

this claim also falls into the ruse that the post conviction process laid out in that they all say
petitioner did not raise this issue of prejudicial pretrial publicity “In short Petitioner did not
exhaust the available remedies for these three claims (Claims 2.B., 2.C., 2 H.) by presenting
them to the TCCA and he can no longer do so. He has not demonstrated cause to overcome this
default. These claims will be denied. "(Id. @ *21) petitioner has shown over and over again
before the District Court and herein, how he was hamstrung by the defunct involvement of the
post conviction counsel appointed by the post conviction court even though he has shown that he
did present these grounds in his pro se appeals on post conviction stages.
(18)

Trial Court’s Denial of Motion to Continue in order for the Defendant to obtain

independent DNA analysis; This ground was presented to the state appellate courts following the
denial of his post conviction petition alleging them, albeit pro se. Therefore the continued

31

reliance by the District Court on the deficiency of post conviction counsel not filing these
grounds which petitioner had put in his post conviction petition and tried to get counsel to file on
appeal, is at least unreasonable. One example of the need for an independent DNA expert is from
trial Counsel, who “...said that, with respect to the DNA evidence a profile other than the
Petitioner’s had been developed from the victim’s clothing but was never matched to an
individual... ” See Barrett v. State No. M2015-01161-CCA-R3-PC, 8-8-16.
(19)

Assisting in concocting prejudicial, fabricated testimony of two jailhouse liars. Biased,

dishonest redaction of Sheldon Anter’s testimony by court putting lies on top of lies; including
attributing statements to the defendant alleging he said things which in fact the trial court told
him to say that the defendant said things, i.e., “ he has killed before...” etc.
(20)

Improperly bolstering prosecutorial misconduct regarding jailhouse (silent) video and the

rendition of what it was about from the mouths of the prosecutor Tom Thurman and testimony of
jailhouse liar Sheldon Anter who hated petitioner, telling the jury about what the altercation was
about and who was the aggressor;
(39)

Failure to require the State to decide as a result of their bifabricated argument of two

offenses, as to what charge the defendant was on trial for, thus it is impossible to know what the
jury convicted the Defendant for. “The Sixth Amendment right to a jury trial, as incorporated
against the States by way of the Fourteenth Amendment, requires a unanimous verdict to convict
a defendant of a serious offense. ” (other cites omitted)
(40)

His convictions for murder are unconstitutional. Had the jury not been so inflamed by the

clever tricks of the learned prosecutor Tom Thurman, they would not have found sufficient
evidence beyond a reasonable doubt to support conviction predicated on rape or larceny. Had the
jury been given the special jury form or instruction verdict would have shown which of the
underlying felonies argued to the jury, were relied upon in reaching their verdict.
(41)

The trial Court denied petitioner due process by not giving instruction defining “sexual

intercourse”. Absent evidence of sexual intercourse as that term is defined by statute or a
substantial step toward an overt act of sexual intercourse, rape or attempted rape had not been
proven. The DNA test closest to this offense exonerated petitioner. The court erred in instructing
the jury. The court declined to provide the jury with a special verdict form that would have
shown which of the underlying felonies the jury relied upon in reaching its verdict. There is no
way for the District Court to know whether jury based its verdict on a unanimous determination.

32

(21)

Failure to fulfill his word to the Defendant and the Jury that he would take the video

under advisement that night and inform them the next day as to who was the aggressor because
there was considerable argument before the jury as to the prejudicial description of the video as
stated by state prosecutor Tom Thurman and jailhouse liar Sheldon Anter.
(42)

The honorable Court below justified the failure of the trial Court to instruct the jury

according to law. (pg. 60, Id) The petitioner was not challenging "jury instructions as a
whole... ” State and Federal laws require juries be informed in specific terms and logic about
how they should view testimony from criminal informants, who are not giving testimonies as lay
witnesses. Petitioner takes the case offered by the Court that jury instructions should “adequately
inform the jury regarding the credibility of witness testimony”, and “alert[s] the jury to the
various considerations that it should take into account in weighing testimony.” Citing and
quoting Goff v. Basley. 601 F. 3d 445 469 (6th Cir. 2010, quotim, Scott v. Mitchell 209 F. 3d
854, 883 (6th Cir. 2000). However these two cases are not talking about “criminal informants”
such as Andrew Napper and Sheldon Anter. The Court quoted the trial court as stating to the
jury: “If from the evidence presented you find that a witness has been convicted of a prior
crime.. .and the trial court adds additional doubt to the meaning of how to weigh testimony of a
criminal informant “ ’ ’ 'you can consider such only for the purpose of its effect, ifany on his or
her credibility as a witness ” This information was far less specific that what the Tennessee
Supreme Court required of it state judges in State v. Stevens, 989 S. W. 2d 290, 294 (Tenn. 1-11999). Jacumin 778 S. W. 2d @ 436 (citing, test ofAsuiliar-Spinelli. U.S. Supreme Court (See pg.
34, Petitioner’s ISSUES FOR REVIEW) Failure to comply with state law governing the
testimony of criminal informants in that they are not ordinary citizens doing their duty to God
and their country but the special cautionary jury instructions specifically designed for “criminal
informants” and “professional informants” was completed ignored by the trial Court and Defense
Counsel which compounded his deficiency in assisting his client. If the use of these jail house
liars was no big deal, why were they used? Why did the state prosecutor Mr. Thurman, gamble
on using such obviously shady characters, who were obviously unfit to testify against petitioner?
What did he have to gain? These jail house liars violated with the assistance of the prosecutor
Mr. Thurman, the defendant’s right to remain silent. After 33 years and never any ‘confession’ to
anyone of guilt to the charged offense, these criminal informants were allowed to testify that
petitioner told them he was guilty of the charged offense. The lead prosecutor verbally and

33

physically made forceful delivery of the remark that appellant told them he was guilty and
imbued it with a potential for prejudice greater than would ordinarily be ascribed to a single
remark made during a lengthy trial. Mr. Thurman made these statements to the jury in closing
argument. The State admitted at trial that each jailhouse liar received benefits from their lies
against Petitioner. Petitioner quoted the terms of these tacit agreements that were admitted by
both witnesses and S.A.’s sister but the District Court unreasonably ignored these admissions.
(43)

Failing to act as the 13th juror to overturn the verdict for insufficient evidence that the

Defendant had committed any crime against the victim.
(44)

Failures to give the requisite jury instructions on the pivotal absentee witness Frank

White. The court and defense counsel allowed for impermissible hearsay testimony by S.A.
putting accusatory, prejudicial remarks from absentee witness Frank White, which prejudiced
Petitioner’s right to confront his accuser. According to S.A., Frank White accused Petitioner of
assaulting him, name-calling and his presumption of innocence. Counsel should have rose to
strike or seek to suppress Anter’s hearsay testimony as being in violation of the absentee witness
rule as aforesaid. (Order of Court, pg. 62)
(45)

BY DENIAL OF MOTION TO SUPPRESS 2nd DNA WARRANTLESS SEARCH. The

record clearly indicates that this 2nd DNA search did take place, that the petitioner addressed this
issue in each court in the State of Tennessee, and that there was never a resolution of this claim.
For the Court to now conclude that there may not have been a 2nd DNA test is unreasonable and
unfounded.
(46)

FAILURE TO HAVE A INDEPENDENT DNA TESTING OF EVIDENCE

(47)

FAILURE TO DENY ADMISSION OF SURPRISE EXHIBITS OF PHOTOGRAPHS,

The court’s admission of the child’s photos by the state prosecutor prejudiced petitioner’s ability
to receive a fair trial that a mistrial or reversal were the only remedies. The photos were
impressible provocative and prejudicial. It was uncontroverted that the child was nine years of
age. It was not in dispute that she was a child. In State v. Trusty, 326 S. W. 3d 582 (Tenn. Crim.
App. 2010) , the Tennessee Court of Criminal Appeals explained the process by which a trial
court must determine whether photographs are admissible:
“In determining whether a photograph is admissible the trial court must first determine
whether it is relevant to a matter at issue in the case. ” State v. Jackson. 2012 WL
6115084 @ *38, citing, State v. Trusty, Id. At 604 (other citations omitted)

34

“The court must next consider whether the probative value of the photograph is
‘’’substantially outweighed by the danger of unfair prejudice confusion of the issue or
misleading the jury, kf, citine, Tenn. R. Evid. 403; 2012 WL 6115084
Unlike the court in State v. Noura Jackson, 444 S. W. 3d 554 (rev. 2012 WL 6115086),
the trial Court never described in detail what each photograph that it allowed depicted nor
explained why each was admissible. The thin justification offered by the District Court was over
the top and redundant in terms of the necessity for those photographs. The State of Tennessee
never made the argument in post conviction or at trial, that the Federal Court made in justifying
those prejudicial photographs. Therefore the Distract Court was objectively unreasonable and its
treatment of this issue is subject to debate by reasonable scholars of law.
(48)

FAILURE TO REQUEST JURY INSTRUCTION ON ABSENTEE WITNESS since the

trial Court allowed his client’s right to confrontation of hostile witnesses (whose testimony was
given against Petitioner through the mouth of S.A. and A.N.) was deficient assistance.
(49)

FAILURE TO OBJECT TO IMPROPER PROSECORTIAL ARGUMENTS which were

extremely prejudicial and lies.
(58)

INEFFECTIVE ASSISTANCE OF TRIAL COUNSEL (“IATC”)

(50)

On his IATC claims the District Court held “all eleven remaining sub-claims are

procedurally defaulted. ” (Id., pg. 47, 45) Here the differences between trial and post conviction
counsel are qualitative and quantitative. Trial counsel performed ineffectively by failing to call
Cicero X as an alibi wittiness to testify. Cicero X possessed exculpatory information and told
counsel’s investigator that he remembered Petitioner being in Chicago, on the date of the
offense. Cicero was a true alibi and the only one he had due to the erosion of time on other
Muslims’ memory. According to law the decision of whether to use a witness is the defendant’s,
not as the District Court concludes, a “matter ofstrategy” alone. (Barrett v. Genovese, Id., at
*20. Cicero as alibi witness was not called after consulting with Petitioner “a decision that the
Petitioner admitted he agreed with at the time...In retrospect however the Petitioner said that
‘’’even a little bit might have been better than none” ’, because Cicero was the “onlyperson who
remembered his being in Chicago on the day the victim went missing.

Barrett v. State, 2016

WL 4410649.
Trial counsel was responsible for calling this witness, “because these decisions require
the skill, training and experience of the advocate, the power of decision on them should rest with

35

the lawyer”, and that the lawyer should maintain ‘"the ultimate choice and responsibility for the
strategic and tactical decisions in the case. ” Pvlant v. State 263 S. W. 3d 854, 874, citing, A.B.A.
Standards for Criminal Justice §4-5-2(b) (3d ed. 1993) and Baxter v. Rose, 523 S. W. 2d 930,
936.
(51)

Trial counsel performed ineffectively by failing to object and request a mistrial based on

prosecutorial misconduct committed repeatedly during trial and closing that the Defendant raped
the victim, and that he lied to his daughter on the phone. Prosecutors may not express his
personal belief that the defendant’s testimony was not credible.” Here he commented on the
wiretap of petitioner’s phone call to his daughter. See United States v. Youns. 470 U.S. 117
(1985); United States v. Collins. 78 F. 3d 1021,1040 (6th Cir. 1996). And then, the prosecutor
went on to describe the defendant as the assailant in a jailhouse video confrontation that the trial
court promised the jury he would take the video under advisement that night and render his
decision the next day as to who was the aggressor in the video. This never happened and the
prejudicial description of the prosecutor as to appellant being the aggressor went unchallenged
by anyone. These comments infected the trial with so much unfairness as to make the resulting
conviction a denial of due process. Darden v. Wainwrisht 477 U.S. 168 181 (1986) (quoting
Donnelly v. DeChristoforo, 416 U.S. 637 643 (1974).
(52)

The excessive rapacious pre-trial publicity salted the ground of a jury pool for over a

year. Described by the media as “the Crime of the Century” and with daily and weekly
“specials” on the crime, typically juxtaposing pictures of the Defendant next to that of the 9 year
old victim, local television and newspapers made a lot of money and their obviously race-based
axe to grind performing the historic role of convicting a black man for ‘rape’ of a white victim,
which somehow was done in an all-white upper class neighborhood 33 years previously was
intent on saying and doing everything they could publicize to aid the prosecution in obtaining a
conviction of the Defendant. It was learned at trial that the mother of the victim had remarried an
editor of the Tennesseean newspaper the major news source in the city of Nashville, TN in the
years following the death of her child. Trial counsel was deficient and their failure to properly
weigh the class, race and political underpinnings of this crime cost Petitioner a fair trial by an
impartial jury. The decision to support a change of venue due to pre trial publicity should have
impressed counsel to move for a change of venue to West Tennessee if not to dismiss the
indictment.

36

(53)

Counsel should have moved for a mistrial due to the constructive amendment of the

indictment.
(59)

DENIAL OF DUE PROCESS BY P.C. COUNSEL AT HEARING OR APPEAL

(54)

Petitioner had repeatedly made clear to the Evidentiary hearing court that he was

dissatisfied with PCC. Without any consultation or communication with petitioner he filed a
lackadaisical appeal to the TCCA without Petitioner’s knowledge. Petitioner also filed a pro se
appeal. PCC was in effect a “block” to prevent Petitioner from appealing his claims that had
been denied by the trial court. (Id., pg. 48) FAILURE TO SHOW ANY INTEREST OR ASST.
FOR OBTAINING WITNESSES
(55)

FAILURE TO ASSIST PETITIONER IN OBTAINING TRANSCRIT OF EVID.

HEARING SO HE COULD ASSIST IN HIS OWN APPEAL. That Appellant was denied
counsel at a critical stage of the proceedings in state appellate court is further exemplified by his
failure to provide appellant requested copy of the evidentiary hearing following post conviction
process, nor with copy of either appeal briefs and failure to combine appellant’s requested claims
for appeal or communicate with him about his appeals in the least. “For example, no showing of
prejudice is necessary ‘”if the accused is denied counsel at a critical stage of his trial. United
States v. Cronic, 466 U .S. 648, 659, 104 S.Ct. 2039 (1984). Appeal of a wrongful conviction
where he received two (2) forty-four (44) year sentences is certainly a critical state of the trial
process notwithstanding the post conviction appeal stage.
FAILURE TO CHALLENGE THE COLLECTION, CUSTODY, TESTING OF DNA
EVIDENCE; The State’s reliance on DNA as proof of guilt was not conclusive. Had the
questions and issues Petitioner raised at trial to counsel and again in his post conviction petitions
as well as the two petitions for the writ of habeas corpus in federal court, would have caused the
reasonable review to throw this evidence out for unreliability chain of custody issues mixed
donor profiles and selective prosecution. The SERI lab amplified “swabs” received by DNA
expert on “December 12 2007 two months after the first search and seizure and reported
Petitioner’s DNA on the victim’s pants. (Id., pg. 53, Order) Contrary to the District Court and the
State’s findings there was no proven custodial pavane that establishes that any or all of these
DNA search results came from the October 17 2007 search. The Court remonstrated that the
SERI lab experts “relied on the DNA sample obtained pursuant to a search warrant in October
2007. ” Actually the SERI lab reports according to the court’s earlier finding was based on swabs

37

received December 12 2007. Thus it is unreasonable for the court to go against clearly
established Supreme Court law in Dunaway v. New York. and the questions easily discerned in
the chain of custody, by finding counsel was not in breach of the Strickland standards.
(56)

REFUSED TO ASSIST IN SUBPOENA WITNESSES OR SECURE INDEPENDENT

DNA ANALYSIS; When Petitioner made his thoughts and observations known to courtappointed PCC, he had plenty of time at that point, to secure or attempt to secure independent
DNA analysis. Petitioner informed the trial court that their appointed was refusing to assist
petitioner in obtaining DNA analysis to independently report on the errors in the TBI testing, the
first thing the trial Court did in its Order was to deny this ground because petitioner did not
obtain (on his own from the prison cell) a DNA expert to prove his allegations. It was not as the
District Court concluded that his decision not to secure independent analysis was made before he
talked with his client. That is why Counsel regretted that he did not secure that analysis instead
of relying on the contested analysis of the State; Petitioner had secured while he was in jail
waiting on trial the premier scientist as recognized by the U.S. Supreme Court, for DNA Typing
and analysis. This is the source that petitioner relied on when he made his thoughts known to
Counsel. When Counsel became aware of the grounds once again, through his review of
Petitioner’s Post Conviction Petition and appeal, then his regret came home to him. The District
Court falls back on the ruse which petitioner has made plain in this motion that since petitioner
did not have a DNA expert to testify at the post conviction stage he looses. However petitioner
has made it plain throughout and in his Petition for the Writ of Habeas Corpus, that post
conviction counsel refused to assist him in securing this witness to testify at an evidentiary
hearing.
(57)

REFUSAL TO ASSIST ON APPEAL OR COMMUNICATE WITH HIS CLIENT;

(60)

DENIAL OF RIGHT TO APPEAL BY TCCA AND TSCT

(58)

Rejection ofpro se appeal in light of circumstances was unreasonable. He “did all he

could do to fairly present these claims to satisfy the exhaustion requirement ...reasonable jurists
could debate that conclusion... ” Woolbrisht v. Crews,supra. 2018 WL 7247245, 6th Cir., No. 185131; 7-9-18. The federal Court cannot presume that because counsel did submit one or two
grounds for appeal, that therefore appellant was afforded all the Due Process needed, because
those meritorious grounds which the Court went on to deny habeas relief upon which the PCC
did not present, may have been a turning point in his state appeals had those courts exercised due

38

process and reviewed them. Therefore the pro se appeal grounds that were presented by the
defendant and heard in the evidentiary hearing at post conviction but were ignored on appeal by
counsel and the appellate courts, were treated unreasonably in the federal court and of course the
state appellate courts. To attempt to avoid redundancies please see “Statement of the Case”.
(59)

Failure to review pro se appeal grounds that were heard in the evidentiary hearing and

submitted pro se on appeal was error. To hold otherwise is offensive to the Due Process Clause
of the Fourteenth Amendment because, on its face and as construed and applied, denies him
access to the courts and not to be deprived of liberty without due process of law.
(61)

PROSECUTORIAL MISCONDUCT

(60)

The way the Court’s decision lies now is that after all of the efforts Petitioner put in

addressing prosecutorial misconduct (constructive amendment) as changing the nature and
description of the offense without notice to the Defendant, improper argument throughout the
trial and sentencing, denying him a fair trial by an impartial jury and due process of law, right to
confront his accuser, and employing without conscience jailhouse liars in a blatant quid pro quo.
State’s attorney violated Defendant’s constitutional right to remain silent by making the
statement that why he had not come forward to explain why his DNA is on the exhibit thus
denying him a fair and impartial jury trial. Mr. Thurman directly and indirectly commented on
petitioner’s silence.
(62)

DENIAL OF A. FAIR & MEANINGFUL EVIDENTIARY HEARING BY THE

POST CONVICTION COURT
(61)

FAILURE TO HEAR MOTION TO RECUSE or to recuse itself;

(62)

FAILURE TO GRANT MOTION FOR INDEPENDENT DNA TESTING

(63)

DENIAL OF SUBPOENAS FOR ESSENTIAL WITNESSES AT E.HEARING

(64)

STACKING TWO EVIDENTARY HEARINGS FOR SEPARATE TRIALS TEN (10)

MINUTES APART TO PREJUDICE PETITONER’S RIGHT TO POST CONVICTON
RELIEF.
(65)

FAILURE TO ADDRESS THE LACK OF INSTRUCTIONS ON CRIMINAL

INFORMANTS. TRIAL JUDGE NEVER ADDRESSED THESE CLAIMS IN THE
EVIDENTIARY HEARING
(66)

FAILURE TO REVERSE CONVICTION BASED ON WARRANTLESS DNA

ANALYSIS AND DEFECTIVE DNA SEARCH WARRANT. The State should have been

39

required to prove that no second warrantless DNA search took place at the NMPD jail before
trial but after the 1st DNA search. Petitioner was not even charged with this crime until after
Detectives Bill Pridemore (now retired) and Pat Postiligione time (now retired) took his DNA the
second. They called Defendant’s then counsel for the previous case (Kerry G. Haymaker) and
got him to tell Petitioner on their phone to go ahead and let them take his DNA the second time.
(Petitioner protested to counsel and these two detectives as to why the necessity to take his DNA
the second time when he was already charged with the previous crime. Haymaker kept assuring
petitioner that it would be all right. He was in on the snicker. This is why counsel should have
honored petitioner’s request to have a Dunaway hearing in order to test the legality of the
warrantless search and what happened in terms of chain of custody, CODIC circulation and why
the first DNA search did not produce the same results, i.e., a “match” to the Trimble
killing... Therefore counsel should have objected and moved to suppress the introduction of the
test results following the warrantless second DNA search. (See Order fn. 13 pg. 52) The District
Court is in error that “But there is nothing in the record to reflect that a second DNA sear4ch
occurred at all, ‘much less ’ that it occurred in the manner described by Petitioner. ” (Id) Then
why has it not been denied prior to the District Court’s question? There again it was remiss of the
District Court to not Order for an Evidentiary hearing on this pivotal issue. The accusation
followed the second DNA test by only a few days; thus the references to an October date could
refer to either DNA search(pg. 53, Id)
(67)

Then again the FBI report for “the DNA profile ” is undated by the Court. There is

nothing apparent that Jennifer Luttman used DNA profile - not sample - came from the 1st or 2nd
DNA search, to report Petitioner’s DNA on the victim’s blouse. The Court cites the ratio of
identification but does not mention the fact that this ratio was based on less loci than is required
in the field for a “match” to be declared, as there were reportedly only “9 loci” when the TBI
Special Agent Chad Johnson told the Jury that at least “13 loci” must match before a match can
be declared....
(68)

FAILURE TO ISSUE SUBPOENAS FOR WITNESSES. Petitioner requested a DNA

analysis, jail inmates, Sheldon Anter’s sister, Sheldon Anter, Tennesseean reporters (2) and all
were denied by the trial (evidentiary hearing) Court.

40

(69)

FAILURE TO ADDRESS THE CLAIM THAT PETITIONER WAS UNLAWFULLY

CONVICTED OF LARCENY AND THAT THE CHARGE LACKED SUFFICIENT
EVIDENTARY FOUNDATION FOR CONVICTION.
CONCLUSION
Therefore Petitioner submits that the foregoing grounds are properly exhausted and
within the interests of comity and federalism having been satisfied Counsel’s failure to file an
appeal of these grounds is no bar to the Habeas Courts review of those same grounds. “A
unilateral decision to terminate appellate review without the appellant’s knowledge or consent is
ineffective assistance of counsel. Jones v. State 1987 WL 15535 (TCCA, 1987), citing, Moultrie
v. State, 542 S. W. 2d 835, 838 (TCCA 1976) That is the law in the state of Tennessee and the
Federal law. When ‘‘an attorney who fails to file an appeal that a criminal defendant explicitly
request has, as a matter of law, provided ineffective assistance of counsel that entitles the
defendant to relief in the form of a delayed appeal. ” Campbell v. United Stales 686 F. 3d 353
(6th Cir. 2012; Ludwig v. United States 162 F. 3d 456 458-59 (6th Cir. 1998)
Appellant respectfully moves this Honorable Court for a Certificate of Appealability for
any or all of the (cumulative) foregoing.
Respectfully submitted,
Jerome S. Barrett Pro-Se
73179
M.C.C.X.
UNIT 6/7
P. O. Box 2000
Wartburg, TN 37887
CERTIFICATE OF SERVICE
I hereby certify that I have served a true and correct copy of the foregoing upon Chief
Deputy Clerk Ms. Susan Rogers; 100 E 5th Street, 540 Potter Steward US Cthse, Cincinnati, OH
45202-3988
On this the _18th__ day of June 2020.

41

WESTLAW
Barrett v. Genovese
United Slates District Court, M.D. Tennessee, Nashville Division. ; January 24,2020 | Slip Copy j 2020 WL 409688 (Approx. 36 pages)

2020 WL 409688
Only the Westlaw citation is currently available.
United States District Court, M.D. Tennessee, Nashville Division.

Jerome Sidney BARRETT, Petitioner,
v.
Kevin GENOVESE, Warden, Respondent.
No. 3:l7-cv-ooo62
Filed 01/24/2020
Attorneys and Law Firms
Jerome S. Barrett, Only, TN, pro se.
John H. Bledsoe, III, Richard Davison Douglas, Tennessee Attorney General's Office,
Nashville, TN, for Respondent.
MEMORANDUM OPINION
WAVERLY D. CRENSHAW, JR., CHIEF UNITED STATES DISTRICT JUDGE
*1 Jerome Sidney Barrett, a state prisoner, filed a pro se petition for the writ of habeas
corpus under 28 U.S.C. § 2254 (Doc. No. 1) and an amended habeas petition (Doc. No. 3)
(collectively, the “Petition’'). Respondent filed an answer (Doc. No. 23) and Petitioner filed a
reply (Doc. No. 33). In the reply, Petitioner requests discovery and an evidentiary hearing.
(Doc. No. 33 at 45-48.) For the following reasons, these requests will be denied, Petitioner
is not entitled to relief on any of his claims, and this action will be dismissed.
I. Procedural Background
In June 2008, a Davidson County grand jury indicted Petitioner for first-degree murder and
felony murder. (Doc. No. 22-1 at 5-7.) In July 2009, a jury found Petitioner guilty of seconddegree murder, a lesser included offense, on both counts. (Doc. No. 22-2 at 63.) “The jury
sentenced him to forty-four years for each conviction. The trial court merged the convictions
and ordered that the sentence be served consecutively to a life sentence for a previous
conviction." State v. Barrett. No. M2009-02636-CCA-R3-CD, 2012 WL 2870571, at *25
(Tenn. Crim. App. July 13, 2012). The Tennessee Court of Criminal Appeals (“TCCA”)
affirmed the judgment. Ji at *46. Petitioner filed an application for permission to appeal to
the Tennessee Supreme Court (Doc. No. 22-27), and the Supreme Court denied it on
December 12, 2012 (Doc. No. 22-28).
In November 2013, the trial court received Petitioner's pro se petition for post-conviction
relief. (Doc. No. 22-29 at 66-110.) The court appointed counsel (idL at 111), and Petitioner
filed a pro se amended petition1 (id. at 112-30). The court held an evidentiary hearing (Doc.
No. 22-31) and denied relief (Doc. No. 22-29 at 134-42). The TCCA affirmed. Barrett v
State. No. IVI2015-01161-CCA-R3-PC, 2016 WL 4410649 (Tenn. Crim. App. Aug. 18,2016).
Petitioner then filed two applications for permission to appeal: one prepared by counsel
(Doc. No. 22-36), and another prepared by Petitioner himself (Doc. No. 22-37). On
December 14, 2016, the Tennessee Supreme Court denied discretionary review and
dismissed Petitioner’s pro se application because he was “represented by counsel who filed
a timely application for permission to appeal.” (Doc. No. 22-38.)
Petitioner filed a habeas corpus petition (Doc. No. 1) and an amended petition (Doc. No. 3)
in this Court, and Respondent concedes that the Petition is timely (Doc. No. 23 at 2).
II. Factual Background
On direct appeal, the TCCA provided a comprehensive account of the evidence at trial.
Barrett. 2012 WL 2870571, at *1-25. The Court will refer to specific evidence as necessary
in the analysis below. Here, to provide a basic context for Petitioner’s claims, the Court relies
on the TCCA’s summary of the underlying facts on post-conviction appeal:
*2 In 2009, the Petitioner was convicted of second degree murder for the February 1975
murder of nine-year-old Marcia Trimble.... [Ojn the evening of February 25,1975, the

victim left her Nashville home to deliver Girl Scout cookies to a neighbor who lived across
the street. When the victim's mother called for her approximately twenty-five minutes later,
the victim did not respond and did not return home.
Following an extensive search, the victim's body was found on March 30,1975, in a
neighbor’s garage. The garage where she was found was open-ended without doors, and
her body was well-hidden. An autopsy showed that the victim's cause of death was
asphyxia caused by manual strangulation. The forensic examiner who performed the
autopsy opined that based upon decomposition, livor mortis, and the victim’s stomach
contents, she died at or near the time of her disappearance and was likely in the garage
almost from the time of death.
The medical examiner took vaginal swabs from the victim’s vagina, and that evidence was
preserved by rolling the swabs onto slides. Subsequent analysis showed the presence of
sperm, but DNA testing was not available in 1975. The slides prepared were preserved by
the medical examiner’s office. The Federal Bureau of Investigation (“FBI") conducted
serology testing on the victim's underwear, pants, and blouse. Those tests revealed no
blood or semen on the underwear but did show the presence of semen on the pants and
blood on the blouse.
The case remained unsolved, but the Metro Nashville Police Department continued to
investigate the murder, and in 1990 the victim’s case file was reviewed in an attempt to
locate evidence that could be submitted for DNA testing. Between 1990 and 2004, the
victim’s pants, blouse, and the slides created from the vaginal swabs were tested multiple
times by various laboratories. A DNA profile from this evidence was created in March
1992. That DNA was compared to samples from over one hundred individuals, including
samples from almost everyone in the victim’s neighborhood, but there were no matches.
The Petitioner was eventually developed as a suspect, and police obtained a search
warrant for his DNA in 2007. The Petitioner's DNA matched a profile developed from the
victim's blouse. A DNA expert opined that the probability of a random match was one in six
trillion. The Petitioner was subsequently arrested and indicted. In 2008, two jailhouse
informants informed authorities that while he was in jail, the Petitioner made statements
admitting that he had killed the victim but denying that he had raped her.
Barrett. 2016 WL 4410649, at *1-2 (internal citations and quotation marks omitted).
III. Asserted Claims
Petitioner asserts several claims in the original petition and amended petition. Because
many of the bare assertions in the original petition overlap with arguments raised in the more
expansive amended petition, the Court considers the original and amended petitions
collectively. In doing so, the Court has liberally construed the Petition to the fullest extent to
identify the following claims. For clarity, the Court has grouped these claims by type, and
listed them in roughly chronological order.
1. The indictment was not issued by a grand jury with a foreman. (Doc. No. 1 at 25; Doc.
No. 3 at 33.)
2. The trial court erred in the following eighteen ways:
2.A. Denying the motion to dismiss for excessive pre-indictment delay (Doc. No. 1 at 12;
Doc. No. 3 at 16);
"3 2.B. Failing to minimize the effect of prejudicial pretrial publicity (Doc. No. 3 at 2627);
2.C. Failing to dismiss the indictment based on prejudicial pretrial publicity (id.):
2.D. Denying the motion to continue trial to allow independent DNA analysis (id, at 10);
2.E. Denying the motion for a bill of particulars (ii at 20);
2.F. Denying the motion to suppress (Doc. No. 1 at 10; Doc. No. 3 at 15);
2.G. Allowing the person who performed the autopsy of the victim to testify as a DNA
expert for the prosecution (Doc. No. 1 at 18);
2.H. Being influenced by media coverage to admit evidence (Doc. No. 3 at 27);
2.1. Allowing the testimony of “two jailhouse liars” (Doc. No. 3 at 13-14, 23-24);

2.J. Admitting testimony of Petitioner’s statement that he “had killed before’ (Doc. No. 1
at 14);
2.K. Admitting photographs of the victim (Doc. No. 3 at 32-33);
2.L. Admitting a video recording of a jail altercation involving Petitioner and fellow
inmate Frank White, and allowing Sheldon Anter to testify about what White said to
Petitioner (Doc. No. 1 at 27; Doc. No. 3 at 14, 28);
2.M. Failing to tell the jury the court's opinion of who the aggressor was in the jail
altercation (Doc. No. 3 at 28);
2.N. Allowing the prosecution to ask a defense witness if he was arrested, suspended,
and resigned from the police force in 1978 (Doc. No. 1 at 15; Doc. No. 3 at 16);
2.0. Allowing the prosecution to impeach a defense witness with a prior misdemeanor
conviction (Doc. No. 1 at 20; Doc. No. 3 at 16);
2.P. Failing to give a jury instruction on criminal and professional informants (Doc. No. 3
at 17, 23);
2.Q. Failing to instruct the jury that it must find Petitioner guilty of an underlying felony to
find him guilty of felony murder (Doc. No. 3 at 19-21); and
2.R. Imposing an improper consecutive sentence above the maximum (Doc. No. 1 at
22; Doc. No. 3 at 34).
3. The state committed prosecutorial misconduct through comments during closing
argument. (Doc. No. 1 at 24; Doc. No. 3 at 6,14, 30-31.)
4. There is insufficient evidence to support Petitioner’s convictions. (Doc. No. 1 at 8; Doc.
No. 3 at 14, 22.)
5. Trial counsel was ineffective in the following fourteen ways:
5.A. Failing to file a motion to dismiss the indictment due to prejudicial pretrial publicity
(Doc. No. 3 at 26);
5.B. Failing to adequately question potential jurors regarding media coverage (id* at 27);
5.C, Failing to ask constitutionally required questions during voir dire (id* at 33);
5.D. Retaining DNA expert Ronald Acklen (Doc. No. 3 at 3-4, 6-8);
5.E. Failing to assess the constitutionality of the collection, testing, and custody of DNA
evidence (id at 3-4, 7);
5.F. Failing to have a DNA expert conduct an independent DNA test (id* at 4, 9);
5.G. Failing to request a Dunaway hearing of a second DNA search (id* at 9,16);
5.H. Failing to object and move to suppress evidence obtained as a result of a second
warrantless DNA search (id* at 15-16);
5.1. Failing to investigate the backgrounds of state witnesses Sheldon Anter and Andrew
Napper(id*at13);
5. J. Failing to object to the admission of photographs of the victim from around the time
of her death (id* at 33);
*4 5.K. Failing to object to the prosecutor's playing and narrating a video recording of
the jail altercation (id* at 28);
5.L. Advising Petitioner not to call any alibi witnesses, including an individual named
Cicero (id. at 17);
5.M. Failing to request a jury instruction on criminal and professional informants
regarding Anter and Napper (id* at 13-14, 17, 23); and
5.N. Failing to request a jury instruction on the absentee witness rule regarding Frank
White (id* at 25-26).

6. The Tennessee Supreme Court erred on direct appeal by reversing its decision to allow
him a discretionary appeal after a one-week feature on his case aired on local news. (14
at 27.)
7. The post-conviction trial court erred in the following eleven ways:
7.A. Failing to appoint substitute counsel in a timely manner (14 at 28-29);
7.B. Failing to hear the motion to appoint counsel from outside Nashville (j4 at 2,10);
7.C. Failing to hear the motion to recuse (14 at 2);
7.D Failing to hear the motion for independent DNA testing (14, at 2);
7.E. Failing to hear the motion to move the evidentiary hearing due to media bias (14 at
2);
7.F. Failing to issue a subpoena to help Petitioner secure witnesses and documentation
for the evidentiary hearing (14 at 8,10,12);
7.G. Holding two evidentiary hearings on the same day, five minutes apart (14 at 12);
7.H. Failing to address the claim that trial counsel should have requested a jury
instruction regarding the testimony of Anter and Napper (14 at 24);
7.1. Failing to address the claim that Petitioner’s larceny conviction was void (14 at 18,
20);
7.J. Ignoring the defense of “selective prosecution” based on differences between DNA
samples (14 at 3); and
7.K. Refusing to provide a copy of the evidentiary hearing transcript fid.).
8. Appointed post-conviction counsel was ineffective at the initial review stage in failing to:
8.A. Secure an independent expert’s DNA analysis (14 at 5, 9-10);
8.B. Support Petitioner’s pro se motion for independent expert assistance (14 at 9,11);
and
8.C. Arrange for alibi witness Cicero to testify at the evidentiary hearing (14).
9. Appointed post-conviction counsel was ineffective on appeal in:
9.A. Denying Petitioner’s right to appeal by refusing to include all the requested grounds
for relief in the appellate brief (14 at 10,13, 30);
9.B. Failing to provide Petitioner a copy of the evidentiary hearing transcript (id. at 12.
30); and
9.C. Failing to provide Petitioner a copy of the appellate brief (i4 at 12-13, 30).
10. The TCCA erred on post-conviction appeal by failing to address Petitioner’s claim that
the trial court erroneously allowed Anter’s testimony. (14 at 24-25.)
IV. Standard of Review
The authority for federal courts to grant habeas corpus relief to state prisoners is provided by
the Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”). Harrington v. Richter.
562 U.S. 86, 97 (2011). Under AEDPA, a habeas claim “adjudicated on the merits’ in state
court cannot be the basis for federal relief unless the state court’s decision was: (1) “contrary
to, or involved an unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States”; or (2) “based on an unreasonable
determination of the facts in light of the evidence presented in the State court proceeding."
28 U.S.C. § 2254(d). Thus, ”[t]he question under AEDPA is not whether a federal court
believes the state court's determination was incorrect but whether that determination was
unreasonable—a substantially higher threshold.” Schriro v. Landriaan. 550 U.S. 465, 473
(2007) (citing Williams v. Tavlor. 529 U.S. 362, 410 (2000)).
*5 Under Section 2254(d)(1), a state court’s decision is "contrary to” clearly established
federal law ” ‘if the state court applies a rule that contradicts the governing law set forth in
[Supreme Court] cases' or 'if the state court confronts a set of facts that are materially
indistinguishable from a decision [of the Supreme Court] and nevertheless arrives at a

[different result].'" Hill v. Curtin. 792 F.3d 670, 676 (6th Cir. 2015) (en banc) (quoting Lockver
v. Andrade. 538 U.S. 63, 73 (2003)). "Under the 'unreasonable application’ clause of
[Section] 2254(d)(1), habeas relief is available if 'the state court identifies the correct
governing legal principle from [the Supreme Court’s] decisions but unreasonably applies that
principle to the facts of the prisoner’s case.' ” ii (quoting Harris v. Haeberlin. 526 F.3d 903,
909 (6th Cir. 2008)). A state court’s application is not unreasonable under this standard
simply because a federal court finds it "incorrect or erroneous”—instead, the federal court
must find that the state court’s application was “objectively unreasonable." id. (quoting
Wiggins v. Smith. 539 U.S, 510, 520-21 (2003)).
To grant relief under Section 2254(d)(2), a federal court must find that “the state court’s
factual determination was 'objectively unreasonable’ in light of the evidence presented in the
state court proceedings.” Young v. Hofbauer. 52 F. App'x 234, 236 (6th Cir. 2002). Statecourt factual determinations are only unreasonable "if it is shown that the state court’s
presumptively correct factual findings are rebutted by 'clear and convincing evidence’ and do
not have support in the record.” Pouncv v. Palmer. 846 F.3d 144, 158 (6th Cir. 2017)
(quoting Matthews v. Ishee. 486 F.3d 883, 889 (6th Cir. 2007)). “[I]t is not enough for the
petitioner to show some unreasonable determination of fact; rather, the petitioner must show
that the resulting state court decision was ‘based on’ that unreasonable determination.” Rice
v. White 660 F.3d 242, 250 (6th Cir. 2011) (citing Bvrd v. Workman. 645 F.3d 1159,1172
(10th Cir. 2011)).
The demanding review of claims rejected on the merits in state court, however, is ordinarily
only available to petitioners who “exhausted the remedies available in the courts of the
State." 28 U.S.C. § 2254(b)(1)(A); Harrington. 562 U.S. at 103. In Tennessee, a petitioner is
“deemed to have exhausted all available state remedies for [a] claim" when it is presented to
the Tennessee Court of Criminal Appeals. Adams v. Holland. 330 F.3d 398, 402 (6th Cir.
2003) (quoting Tenn. Sup. Ct. R. 39). “To be properly exhausted, each claim must have been
‘fairly presented’ to the state courts,” meaning that the petitioner presented “the same claim
under the same theory ... to the state courts." Wagner v. Smith. 581 F.3d 410, 414, 417 (6th
Cir. 2009) (citations omitted).
The procedural default doctrine is “an important 'corollary1 to the exhaustion requirement,”
under which "a federal court may not review federal claims that... the state court denied
based on an adequate and independent state procedural rule." Davila v. Davis. 137 S. Ct.
2058, 2064 (2017) (citations omitted). A claim also may be “technically exhausted, yet
procedurally defaulted,” where "a petitioner fails to present a claim in state court, but that
remedy is no longer available to him.” Atkins v. Holloway. 792 F.3d 654, 657 (6th Cir. 2015)
(citing Jones v Baolev. 696 F.3d 475, 483-84 (6th Cir. 2012)).
To obtain review of a procedurally defaulted claim, a petitioner must "establish 'cause’ and
'prejudice,’ or a ‘manifest miscarriage of justice.' ” Middlehrooks v. Carpenter. 843 F.3d 1127,
1134 (6th Cir. 2016) (citing Sutton v. Carpenter. 745 F.3d 787. 790-91 (6th Cir. 2014)). A
petitioner may establish cause by "showpng] that some objective factor external to the
defense”— a factor that "cannot be fairly attributed to” the petitioner—"impeded counsel’s
efforts to comply with the State’s procedural rule.” Davila 137 S. Ct. at 2065 (citations
omitted). There is also “a narrow exception to the cause requirement where a constitutional
violation has 'probably resulted' in the conviction of one who is 'actually innocent’ of the
substantive offense.” Dretke v. Halev. 541 U.S. 386, 392 (2004) (quoting Murray v. Carrier.
477 U.S. 478, 496 (1986)). To establish prejudice, "a petitioner must show not merely that
the errors at his trial created a possibility of prejudice, but that they worked to his actual and
substantial disadvantage, infecting his entire trial with error of constitutional dimensions.”
Garcia-Dorantes v Warren. 801 F.3d 584, 598 (6th Cir. 2015) (quoting Hollis v. Davis. 941
F.2d 1471, 1480 (11th Cir. 1991)) (internal quotation marks omitted).
V. Analysis
*6 Respondent contends that all of the claims in the original petition—and some of the
claims in the amended petition—should be dismissed because they do not comply with the
pleading requirements of Habeas Rule 2(c). (Doc. No. 23 at 40-42.) Rule 2(c) requires a
petitioner to" ‘specify all the grounds for relief available to the petitioner’ and 'state the facts
supporting each ground.’ ” Mavle v. Fenix. 545 U.S. 644, 655 (2005) (citations omitted). This
rule is “more demanding” than Rule 8(a) of the Federal Rules of Civil Procedure, under
which “a complaint need only provide 'fair notice of what the plaintiff’s claim is and the
grounds upon which it rests.’" Mavle. 545 U.S. at 655 (quoting Conlev v. Gibson. 355 U.S.
41,47 (1957)).

Here, as stated above, the Court considers the original and amended petitions collectively.
Accordingly, although the claims in the original petition are unsupported by facts, and much
of the amended petition is difficult to decipher, the Court will not rely on the pleading
standard of Habeas Rule 2(c) to summarily deny Petitioner’s claims. Instead, the Court will
consider whether Petitioner has complied with Rule 2(c), as necessary, in its consideration
of each individual claim. See Made. 545 U.S. at 656 (explaining that a primary purpose of
“Rule 2(c)'s demand that habeas petitioners plead with particularity is to assist the district
court in determining whether" to order the State to respond). Nonetheless, Respondent also
contends that Petitioner is not entitled to relief because the claims are either not cognizable,
do not survive the demanding review of claims exhausted in state court, or are procedurally
defaulted. (Doc. No. 23 at 40.) The Court agrees and addresses each category of claims in
turn.
A. Non-Cognizable Claims
“Section 2254(a) states that a federal court ‘shall entertain an application for a writ of habeas
corpus in behalf of a person in custody pursuant to the Judgment of a State court only on the
ground that he is in custody in violation of the Constitution or laws or treaties of the United
States.’ ’’ Kirbv v. Dutton. 794 F.2d 245, 246 (6th Cir. 1986). Thus, federal district courts
traditionally grant habeas corpus relief only “when the petitioner is in custody or threatened
with custody and the detention is related to a claimed constitutional violation.” Id, As
explained below, some of Petitioner's challenges to his trial proceedings, direct appeal
proceedings, and post-conviction proceedings are outside the scope of federal habeas
corpus review for this reason. Id, at 246-47 (discussing Preiser v. Rodriguez 411 U.S. 475
(1973)) (analyzing the scope of the federal writ of habeas corpus).
1. Claims 2.F, 2.G, 2.I, 2.J, 2.N, 2.0—Trial Proceedings
Petitioner asserts eighteen claims of trial court error. Six are not cognizable. First, Petitioner
asserts in Claim 2.F that the trial court erred in denying his motion to suppress. (Doc. No. 1
at 10; Doc. No. 3 at 15.) To provide some context for this claim, Bill Pridemore, a detective
assigned to the cold case unit of the Metro Nashville Police Department (“MNPD”), obtained
a search warrant for Petitioner's DNA in October 2007. Barrett. 2012 WL 2870571, at *28.
Before trial, Petitioner filed a motion to suppress the resulting DNA sample and any test
results based on the sample. (Doc. No. 22-1 at 38-46.) He argued that Pridemore’s affidavit
accompanying the warrant did not establish probable cause, contained a false statement,
and omitted material information. (Id.)
This Court cannot grant "habeas relief based on a state court’s failure to apply the
exclusionary rule of the Fourth Amendment, unless the claimant shows that the State did not
provide him ’an opportunity for full and fair litigation of [his] Fourth Amendment claim.’"
Rashad v. Lafler. 675 F.3d 564, 570 (6th Cir. 2012) (quoting Stone v. Powell. 428 U.S. 465,
494 (1976)). An “ ‘opportunity for full and fair consideration’ means an available avenue for
the prisoner to present his claim to the state courts, not an inquiry into the adequacy of the
procedure actually used to resolve that particular claim.’ ” Good v. Berohuis. 729 F.3d 636,
639 (6th Cir. 2013) (quoting Powell. 528 U.S. at 949).
*7 Here, Petitioner had a full and fair opportunity to present this claim in state court, and,
indeed, thoroughly availed himself of that opportunity. He filed a pretrial motion to suppress
(Doc. No. 22-1 at 38-52), the court held an evidentiary hearing (Doc. No. 22-3), and the
court denied the motion on the merits (Doc. No. 22-1 at 119-26). After trial, Petitioner raised
this claim again in a motion for new trial (Doc. No. 22-2 at 70), and the court rejected it (id, at
84). Finally, Petitioner presented this claim on direct appeal (Doc. No. 22-24 at 55-68), and
the TCCA thoroughly analyzed it before rejecting it on the merits, Barrett 2012 WL
2870571, at *27-30. In these circumstances, the denial of Petitioner's motion to suppress is
not reviewable in a federal habeas corpus proceeding. See Good. 729 F.3d at 640 (holding
that presenting a suppression motion to both the state trial court and the state appellate
court “suffices to preclude review of the claim through a habeas corpus petition under Stone
v. PowelH.
Petitioner's five other non-cognizable claims related to his trial proceedings—Claims 2.G,
2.1, 2.J, 2.N, and 2.0—challenge the state court’s application of Tennessee evidentiary rules.
A federal habeas court “ 'must defer to a state court’s interpretation of its own rules of
evidence and procedure’ when assessing a habeas petition.” Miskel v. Karnes. 397 F.3d 446,
453 (6th Cir. 2005) (quoting Allen v. Morris. 845 F.2d610, 614 (6th Cir. 1988)). "A state court
evidentiary ruling will be reviewed by a federal habeas court only if it were so fundamentally
unfair as to violate the petitioner's due process rights.” Wilson v. Sheldon. 874 F.3d 470, 475
(6th Cir. 2017) (quoting Coleman v. Mitchell. 244 F.3d 533, 542 (6th Cir. 2001)). “[A]s a

general matter, ‘state-court evidentiary rulings cannot rise to the level of due process
violations unless they offend some principle of justice so rooted in the traditions and
conscience of our people as to be ranked as fundamental.’ ” Jd, at 475-76 (quoting Seymour
v. Walker. 224 F.3d 542, 552 (6th Cir. 2000)) (internal citation and quotation marks omitted).
This “standard for habeas relief is not easily met,” id, at 475, and Petitioner does not meet it
here.
In Claim 2.G, Petitioner asserts that “the trial court erred in allowing the forensic pathologist
who performed the victim’s autopsy”—Dr. Jerry Francisco—"to testify as an expert in DNA
analysis." (Doc. No. 1 at 18.) When Petitioner raised this claim on direct appeal, the TCCA
noted that "the admissibility of opinion testimony of expert witnesses” is governed by
Tennessee Rules of Evidence 702 and 703, and that “[qjuestions regarding the admissibility,
qualifications, relevancy, and competency of expert testimony are left to the discretion of the
trial court.” Barrett. 2012 WL 2870571, at *41 fcitino McDaniel v CSX Transp.. Inc.. 955
S.W.2d 257, 263-64 (Tenn. 1997)). The TCCA then carefully analyzed the claim under state
law and concluded that the trial court did not abuse its discretion. Id* at *41-43. The
asserted failure of the state court to comply with state law is not subject to federal habeas
review.2 See Peek v. Carlton. No. 3:04-cv-496, 2008 WL4186939, at *13 (E.D. Tenn. Sept.
5, 2008) (finding that a petitioner’s claim regarding “testimony as an expert witness involves
the alleged failure of the trial judge to comply with state law and thus is not cognizable in
federal habeas proceedings”).
Next, Petitioner asserts in Claim 2.I that the trial court erred by admitting the testimony of
“two jailhouse liars.” (Doc. No. 3 at 13-14, 23.) Here, Petitioner is referring to Sheldon Anter
and Andrew Napper, two inmates who were incarcerated with Petitioner and testified as
state's witnesses at trial. See Barrett. 2012 WL 2870571, at *12-15. The part of Claim 2.1
referring to Napper will be addressed below as a procedurally defaulted claim of trial court
error. Infra Section V.C.2. And the part of Claim 2.I referring to Anter is subsumed by the
more specific challenge to Anter’s testimony in Claim 2.J.
*8 As to Claim 2.J, Petitioner asserts that “the trial court erred in admitting evidence that [he]
stated he 'had killed before.’” (Doc. No. 1 at 14.)As background, Sheldon Anter testified
regarding conversations he had with Petitioner, as well as an argument between Petitioner
and another inmate named Frank White. Barrett. 2012 WL 2870571, at *12-14. Among
other things, Anter testified that Petitioner told White he had killed before. Id, at *13. On
direct appeal, Petitioner argued that the trial court should have found this testimony to be
inadmissible under Tennessee Rule of Evidence 404(b). Id, at *32. The TCCA considered
this claim solely under the relevant Tennessee Rules of Evidence and state law and
concluded that the trial court did not abuse its discretion in admitting this testimony. Id, at
*32-35. Accordingly, the Court will not review Claim 2. J here. See Allen v. Parris. No. 2:15CV-23-JRG-MCLC. 2018 WL 1595784, at *6-7 (E.D. Tenn. Mar. 30, 2018) (finding that
habeas claim regarding trial court's asserted failure to exclude evidence under Tennessee
Rule of Evidence 404(b) did not “state a cognizable basis for § 2254 relieF).
In Claim 2.N, Petitioner asserts that “the trial court erred in allowing the State to ask defense
witness whether he was arrested, suspended, and had resigned from the police force in
1978.” (Doc. No. 1 at 15; Doc. No. 3 at 16.) During trial, the defense called a former MNPD
employee named Ewen Robert "Bobby” Downs to testify. Barrett. 2012 WL 2870571, at
*22-23. Before cross-examining Downs, the prosecution requested permission at a bench
conference to “ask the witness ‘if he was suspended from the police department on August
22nd, 78 for lying during a police investigation.' ” id, at *36. Defense counsel objected, and
the court ruled this question would be allowed. Id, Petitioner challenged this ruling on direct
appeal under Tennessee Rule of Evidence 608, and the TCCA considered this claim under
state rules of evidence and state law. id, at *35-38. The TCCA, in fact, found that "the trial
court erred in allowing the State to cross-examine Mr. Downs about the circumstances of his
departure from the police force.” Id, at *38. But the TCCA did not find that this error “more
probably than not affected the judgment” under Tennessee Rule of Appellate Procedure
36(b), and therefore held that Petitioner was not entitled to relief. Jd, Petitioner's challenge to
the state court's resolution of this claim does not state a claim for federal habeas corpus
I, No. 3:12-cv-0Q48, 2013 WL 247415, at *33 & n.7 (M.D. Tenn.
Jan. 23, 2013) (finding that a petitioner’s challenge to the state court's application of state
evidentiary rules and Tenn. R. App. P. 36(b) did not “state a claim upon which habeas corpus
relief can be granted”).
Finally, Petitioner asserts in Claim 2.0 that “the trial court erred in permitting impeachment of
a defense witness with evidence of a misdemeanor conviction." (Doc. No. 1 at 20; Doc. No.

3 at 16.) Another former MNPD employee named Larry Felts testified during Petitioner’s
presentation of proof at trial. See Barrett. 2012 WL 2870571, at *23-24. Before Felts
testified, the prosecution requested a ruling at a bench conference regarding whether it
would be allowed to question him about the circumstances of his departure from the MNPD
and about a misdemeanor conviction. 14 at *39. Defense counsel objected, and the court
allowed the questions. 14 Petitioner, on direct appeal, argued that this evidence “should
have been excluded because it did not qualify for admission under Tennessee Rules of
Evidence 608, 609, or 616 and that it was barred by Rule 403." 14 The TCCA concluded that
“the trial court did not err in allowing the State to cross-examine Mr. Felts about his
conviction and employment termination." 14 at *41. Like the four preceding claims, this claim
is not cognizable in a federal habeas corpus proceeding. See Knighton v. Mills. No. 3:07-cv2, 2011 WL 3843696, at *11-12 (E.D. Tenn. Aug. 29, 2011) (finding that a petitioner’s habeas
claim challenging the state court’s application of Tenn. R. Evid. 609 and state law was “not
cognizable").
2. Claim 6—Denial of Permission to Appeal
*9 Petitioner’s claim that the Tennessee Supreme Court erred during his direct appeal
proceedings is also not reviewable in this case. In Claim 6, Petitioner asserts that the
Supreme Court was "intimidated against giving justice to the petitioner’s appeal” due to
media coverage. (Doc. No. 3 at 27.) That is, Petitioner asserts that the Supreme Court
initially granted his application for permission to appeal but changed course after a local
news channel aired a one-week feature on his case. (14) This claim is without merit for at
least two reasons.
First, the Tennessee Supreme Court’s decision to deny permission to appeal is not
reviewable in a habeas corpus proceeding because Petitioner has not identified an
applicable federal right to this discretionary review. See Kirbv. 794 F.2d at 246 (holding that
district courts typically grant habeas relief only based on "a claimed constitutional violation”).
Indeed, the Sixth Circuit has held that Tennessee’s scheme of discretionary Supreme Court
review does not conflict with federal law. See Adams v. Holland. 330 F.3d 398, 403 (6th Cir.
2003) (discussing O'Sullivan v. Boerckel. 526 U.S, 838, 847-49 (1999)) (”[T]here is no
'actual conflict' between [Tennessee] Rule [of Appellate Procedure] 39 and federal law.”).
Second, this claim has no basis in the record, and appears to arise from Petitioner’s
improperly conflating this case with his other criminal case from around the same time. In
this case—Davidson County Criminal Court Case No. 2008-B-1791—Petitioner was
convicted of second-degree murder, and the TCCA affirmed the trial court's judgment on July
13, 2012. Barrett. 2012 WL 2870571, at *1. In another case—Davidson County Criminal
Court Case No. 2007-D-3201—Petitioner was convicted of first-degree murder, and the
TCCA affirmed the trial court's judgment on July 18, 2012. State v Barrett No. M201000444-CCA-R3CD, 2012 WL 2914119. at *1 (Tenn. Crim. App. July 18, 2012). As support for
Claim 6, Petitioner cites to an unrelated TCCA opinion including a notation that the
Tennessee Supreme Court granted discretionary review in his other direct appeal. Sse Slate
v. Keeton. No. M2012-02536-CCA-RM-CD, 2013 WL 1619379 (Tenn. Crim. App. Apr. 16,
2013) (citing Barrett. 2012 WL 2914119). Petitioner does not point to any proof that the
Supreme Court ever did so in this direct appeal. Accordingly, Petitioner’s claim that the
Tennessee Supreme Court erred in denying discretionary review of his direct appeal will be
denied.
3. Claims 7,10—Post-Conviction Proceedings
Petitioner’s assertions of error by the post-conviction court at the initial review stage and on
appeal—Claim 7, its eleven sub-claims, and Claim 10—are “outside the scope of federal
habeas corpus review." Cress v. Palmer. 484 F.3d 844, 853 (6th Cir. 2007) (citing Kirbv. 794
F.2d at 246- 49 and Roe v. Baker. 316 F.3d 557, 571 (6th Cir. 2002)). A challenge to a
state’s post-conviction proceedings “cannot be brought under the federal habeas corpus
provision, 28 U.S.C. § 2254,” because “the essence of habeas corpus is an attack by a
person in custody upon the legality of that custody, and [ ] the traditional function of the writ
is to secure release from illegal custody." Kirbv. 794 F.2d at 247 (quoting Preiser. 411 U.S. at
484). Indeed, the Sixth Circuit has reaffirmed that “attacks on post-conviction proceedings
'address collateral matters and not the underlying state conviction giving rise to the
prisoner's incarceration.'" Leonard v. Warden. Ohio State Penitentiary. 846 F.3d 832, 855
(6th Cir. 2017) (quoting Kirbv. 794 F.2d at 247). These claims, accordingly, will be denied.
4. Claims 8, 9—Ineffective Assistance of Post-Conviction Counsel
*10 In Claims 8 and 9, respectively, Petitioner asserts three sub-claims of ineffective
assistance against his post-conviction counsel on initial review, and three sub-claims of

ineffective assistance against his post-conviction counsel on appeal. These assertions of
error are not cognizable as independent habeas claims because they are specifically barred
by statute and long-standing precedent.3 Hodoes v. Colson. 727 F.3d 517, 531 (6th Cir.
2013) (citing Martinez v, Ryan. 566 U.S. 1, 17 (2012)) (“28 U.S.C. § 2254(f) bars a claim of
ineffective assistance of post-conviction counsel as a separate ground for relief....”);
Coleman v, Thompson. 501 U.S. 722, 752 (1991) (“There is no constitutional right to an
attorney in state post-conviction proceedings.”) (citations omitted). Thus, Petitioner’s
standalone claims challenging the effectiveness of his post-conviction attorneys will be
denied.
In some circumstances, however, the ineffective assistance of post-conviction counsel may
be used to establish the “cause” necessary to obtain review of a procedurally defaulted
claim. Martinez. 566 U.S. at 17. This is a narrow rule, subject to several limitations, including
that it can only serve as “cause to overcome the default of a single claim—ineffective
assistance of trial counsel.” Davila. 137 S. Ct. at 2062-63 (discussing Martinez. 566 U.S. 1,
and Trevino v. Thaler. 569 U.S. 413 (2013)).
In the reply, Petitioner argues that he can “rely on Martinez and Thaler" because his post­
conviction counsel was ineffective and his procedurally defaulted claims “have some merit."
(Doc. No. 33 at 4.) Thus, as discussed in more detail below, the Court will consider
Petitioner’s assertions of post-conviction ineffectiveness as allegations of “cause" regarding
his procedurally defaulted claims of ineffective assistance of trial counsel. Infra Section
V.C.5.
B. Adjudicated Claims
Petitioner exhausted two of his twelve remaining claims of trial court error, and three of his
fourteen sub-claims for ineffective assistance of trial counsel.
1. Claim 2.A—Motion to Dismiss Due to Pre-Indictment Delay
Petitioner filed a pretrial motion to dismiss the indictment due to the thirty-three-year delay
between the offense and the return of the indictment. (Doc. No. 22-2 at 7-8,11-15.) The
state filed a response, (ii at 35-37.) The trial court heard oral argument on the motion at a
pretrial hearing (Doc. No. 22-6 at 135-38) and denied the motion at the conclusion of
argument (jd at 138-39). Petitioner contends that this ruling was in error. (Doc. No. 1 at 12;
Doc. No. 3 at 16). He raised this claim on direct appeal, and the TCCA rejected it:
A criminal defendant has the right to due process under the Fifth and Fourteenth
Amendments to the United States Constitution and article I, section 8 of the Tennessee
Constitution. The delay between the commission of an offense and the initiation of formal
proceedings may violate this right to due process. State v. Gray. 917 S.W.2d 668, 671
(Tenn. 1996).
In State v, Dvkes. 803 S.W.2d 250, 256 (Tenn. Crim. App. 1990), relying upon United
States v. Marion. 404 U.S. 307 (1971), this court stated that “[bjefore an accused is
entitled to relief based upon the delay between the offense and the initiation of adversarial
proceedings, the accused must prove that (a) there was a delay, (b) the accused
sustained actual prejudice as a direct and proximate result of the delay, and (c) the State
caused the delay in order to gain tactical advantage over or to harass the accused.” In
State v. Utlev. 956 S.W.2d 489, 495 (Tenn. 1997), the Supreme Court acknowledged the
“Marion-Dvkes" analysis for cases of delay in charging a defendant.
*11 The offense was committed in February 1975, and the victim’s body was discovered in
March 1975. It is undisputed that DNA technology was not available to the State in 1975.
The DNA testing that identified the Defendant took place in 2007. The indictment was
returned in June 2008.
We agree with the Defendant that sufficient delay occurred in this case to trigger a due
process inquiry. See, e.g.. State v. Carico. 968 S.W.2d 280 (Tenn. 1998) (conducting due
process inquiry in case involving seven-year delay between offense and arrest); Utlev.
956 S.W.2d 489 (five-year delay). Without question, the thirty-three-year delay was
lengthy. We do not dispute that in some cases, the passage of this many years may be
prejudicial to the defense. The Defendant argues, “[T]he extraordinary delay between the
commission of the crime and the return of the indictment rendered all but impossible the
Defendant’s ability to formulate an alibi defense or produce witnesses or other evidence in
his favor.” He argues generally that the passage of time may impair the quality and
quantity of evidence available and may compromise the reliability of the outcome. We
acknowledge that this is a relevant concern. See, e.g.. Carico. 968 S.W.2d at 285 n.5. We

note that the Defendant has not identified any specific unavailable witness or evidence
due to the passage of time, nor is any actual prejudice apparent. We likewise note that the
Defendant does not contend that the State intentionally delayed the prosecution in order
to obtain a tactical advantage. In fact, the record reflects that the police continued to
investigate the crime through the cold case unit and that advances in DNA technology
eventually proved fruitful in identifying the Defendant.
The record supports the trial court’s determination that the Defendant's due process rights
were not violated by the pre-indictment delay. The trial court did not err in denying the
motion to dismiss the indictment. The Defendant is not entitled to relief.
Barrett 2012 WL 2870571, at *31-32.
The TCCA correctly identified the federal standard for this claim, and its application of the
standard was reasonable. “The [United States] Supreme Court recognizes that the Due
Process Clause of the Fifth Amendment protects against oppressive pre-indictment delay.”
United States v. Schaffer. 586 F.3d 414, 424 (6th Cir. 2009) (citing Marion. 404 U.S. at 32425 and United States v. Lovasco. 431 U.S. 783, 789 (1977)). “A due process claim based on
[pre-indictment] prosecutorial delay” requires a two-part inquiry: (1) whether the delay
“caused substantial prejudice to [Petitioner’s] rights to a fair trial,” and (2) whether “the delay
was an intentional device to gain tactical advantage over the accused." Brenson v. Coleman.
680 F. App’x 405, 407 (6th Cir. 2017) (quoting Marion. 404 U.S, at 324). "[A] defendant must
meet both parts of the test to warrant dismissal of the indictment.” United States v.
Baltimore. 482 F. App’x 977, 981 (6th Cir. 2012) (citing United States v Creene 737 F.2d
572, 574-75 (6th Cir. 1984)).
As to the first prong, ”[t]he [United States] Supreme Court has repeatedly emphasized that,
in order to establish a due process violation, the defendant must show that the delay 'caused
him actual prejudice in presenting his defense.' ’’ Schaffer. 586 F.3d at 425 (quoting United
States v. Gouveia. 467 U.S. 180, 192 (1984)). The TCCA found that "actual prejudice" was
not “apparent,” and that Petitioner had "not identified any specific unavailable witness or
evidence due to the passage of time." Barrett. 2012 WL 2870571, at *31. Here, Petitioner
argues only that "all of his witnesses but one were not able to recall to counsel’s satisfaction
or were dead.” (Doc. No. 3 at 16.) Such general assertions of prejudice are not sufficient to
establish a due process violation. See Brenson. 680 F. App’x at 407-08 (denying a
petitioner's habeas claim for excessive pre-indictment delay where the state court found that
speculative assertions of witnesses' memories fading and unavailability did not establish
actual prejudice).
*72 The TCCA likewise found, regarding the second prong, that Petitioner did not even
“contend that the State intentionally delayed the prosecution in order to obtain a tactical
advantage.” Barrett 2012 WL 2870571, at *31. Petitioner now seems to imply that the delay
must have been intentional because DNA testing has been used in Tennessee at least since
1990, and he was not indicted until 2008. (Doc. No. 3 at 16.) This is mere speculation,
however, and it is inconsistent with the record. As the TCCA found, Petitioner’s prosecution
was the result of continued investigative efforts by the MNPD cold case unit and
advancements in DNA technology, and did not involve any intentional delay tactic. Barrett
2012 WL 2870571, at *31. That is, MNPD personnel took steps to investigate the case after
1990 but did not develop Petitioner as a suspect and obtain a search warrant for his DNA
until October 2007. Jd at *11-12, 15. Petitioner was arrested and indicted after the MNPD
obtained the results from the testing, [d at *15. This sequence of events is consistent with
due process. See Smith v. Caruso. 53 F. App'x 335, 336-37 (6th Cir. 2002) (citing Lovasco
431 U.S. at 796) (“Where delay is investigative, rather than intentional in order to gain a
tactical advantage, due process principles are not offended ....”)
In conducting its analysis of this claim, the TCCA recognized that the “thirty-three-year
delay" in this case was “lengthy." Barrett. 2012 WL 2870571, at *31. It also acknowledged
Petitioner’s “relevant concern" that "the passage of time may impair the quality and quantity
of evidence available and may compromise the reliability of the outcome.” id But such
general concerns would apply to any prosecution involving a prolonged pre-indictment delay,
and the Court simply cannot presume prejudice based on the unavoidable passage of time.
The state court thoroughly considered this claim, its reasoning was consistent with clearly
established federal law, and the ruling was not based on an unreasonable interpretation of
the facts. This claim will be denied.
2. Claim 2.R—Improper Sentence

Next, Petitioner asserts that "the trial court erred in imposing a forty-four-year sentence to be
served consecutively to [his] life sentence.” (Doc. No. 1 at 22; Doc. No. 3 at 34.) On direct
appeal, he raised the two issues that comprise this claim separately. First, Petitioner argued
that the jury imposed an excessively long sentence. Barrett. 2012 WL 2870571, at *43-44.
And second, he argued that the court erred by “imposing his sentence consecutively to a life
sentence for a previous conviction." M, at *44-45. Here, Respondent contends that this
entire claim is not reviewable because it challenges a state court's application of state
sentencing law. (Doc. No. 23 at 64-65.) While “trial courts have historically been given wide
discretion in determining ‘the type and extent of punishment for convicted defendants,' ”
Austin v. Jackson. 213 F.3d 298, 301 (6th Cir. 2000) (quoting Williams v. New York. 337 U.S.
241,245 (1949)), convicted defendants nonetheless retain a federal “due process right to a
fair sentencing procedure.” Id* at 300 (quoting United States v. Anders 899 F.2d 570, 575
(6th Cir. 1990)). Thus, in an abundance of caution, the Court will review the TCCA’s
resolution of this claim. In doing so, however, the Court concludes that Petitioner is not
entitled to relief.
The TCCA considered and rejected the excessive-sentence argument as follows:
As noted by the State, second degree murder at the time of the offense carried a sentence
to prison “for life or for a period of not less than ten (10) years.” T.C.A. § 39-2408 (1975)
(renumbered at T.C.A. § 39-2-212) (repealed 1989); see id*, § 40-35-117(c) (2010)
(providing that prior law shall apply to sentencing of a defendant for a crime committed
before July 1, 1982). The law also provided, "The jury before whom the offender is tried,
shall ascertain in their verdict whether it is murder in the first or second degree; and if the
accused confess his guilt, the court shall proceed to determine the degree of crime by the
verdict of a jury, upon the examination of testimony, and give sentence accordingly.” See
id*, § 39-2404 (1975) (amended 1977, 1988) (repealed 1989); see, e.o.. State v. Brvant.
805 S.W.2d 762. 763 (Tenn. 1991). "Until 1982, appellate review of sentencing was limited
to issues of probation, consecutive sentencing, and capital punishment. Where the jury
fixed sentences within the range authorized by the criminal statute, no appeal was
available." Brvant. 805 S.W.2d at 763 (citing Rvali v State. 321 S.W.2d 809 (Tenn. 1959);
State v. Webb. 625 S.W.2d 281 (Tenn. Crim. App. 1980); Johnson v. State. 598 S.W.2d
803 (Tenn. Crim. App. 1980)).
*13 The Defendant acknowledges that jury-imposed sentences within the range
prescribed by the former sentencing law normally have not been considered to be
"excessive or indicative of passion, prejudice, or caprice on the part of the jury.” See
Dukes v. State. 578 S.W.2d 659, 666 (Tenn. Crim. App. 1978). He notes that the
Tennessee Supreme Court modified sentences involving jury-imposed jail confinement in
McKniaht v. State. 106 S.W.2d 556 (Tenn. 1937) and Bacon v. State. 385 S.W.2d 107
(Tenn. 1964). We note, however, that both cases cited by the Defendant involved
misdemeanors, and distinguish them on that basis. See Bacon. 385 S.W.2d at 270
(identifying "assault and battery" and describing a misdemeanor assault); McKniaht. 106
S.W.2d at 557 (identifying unlawfully soliciting insurance as a misdemeanor).
In any event, the Defendant advocates that this court should reduce his sentence to one
commensurate to a Range I sentence for second degree murder under current law. He
notes that his forty-four year sentence is greater than the maximum sentence for both
Range I and Range II sentences for second degree murder under current law. He argues
that pursuant to current Code section 39-11 -112, he should receive the benefit of the
lesser sentence provided for second degree murder by current law. Code section 39-11112 states:
When a penal statute or penal legislative act of the state is repealed or amended by a
subsequent legislative act, the offense, as defined by the statute or act being repealed
or amended, committed while the statute or act was in full force and effect shall be
prosecuted under the act or statute in effect at the time of the commission of the
offense. Except as provided under the provisions of § 40-35-117, in the event the
subsequent act provides for a lesser penalty, any punishment imposed shall be in
accordance with the subsequent act.
T.C.A. § 39-11-112 (2010) (emphasis added). Code section 40-35-117 provides that prior
law shall apply for all defendants who committed crimes before July 1,1982. jjL, § 40-35117(c) (2010). This court has said that section 40-35-117 is constitutional. See, e.o.. State
v. Turner. 919 S.W.2d 346, 361-62 (Tenn. Crim. App. 1995); State v. Melvin. 913 S.W.2d
195, 201-02 (Tenn. 1995).

We conclude that the jury imposed a sentence that was within the applicable range and
that the Defendant is not afforded further review by this court. The Defendant is not
entitled to relief.
Barrett 2012 WL 2870571, at *43^44.
As this analysis reflects, the excessive-sentence portion of this claim is essentially an
argument that Petitioner should not have been sentenced under the sentencing laws in
place at the time of the underlying offense. Under Tenn. Code Ann. § 40-35-117(c), however,
“all persons who committed crimes prior to July 1,1982” are sentenced based on prior law.
And the TCCA applied its prior holding that “section 40-35-117 is constitutional.” Barrett.
2012 WL 2870571, at *44. In doing so, the TCCA cited State v. Turner. 919 S.W.2d 346
(Tenn. Crim. App. 1995), where that court explained as follows:
The Tennessee General Assembly has the exclusive authority to designate what conduct
is prohibited and the punishment for that conduct. As a corollary, the General Assembly
had the authority to provide that crimes committed prior to July 1,1982, would be
exempted from both the 1982 and the 1989 Acts. Moreover, the General Assembly did not
violate any constitutional right guaranteed to the appellant, or any other citizen, by
exempting crimes committed prior to July 1, 1982, from both Acts.
Whether this Court makes an analysis based upon the strict scrutiny test, as the appellant
suggests, or the rational basis test, as the state suggests, the results will be the same.
The appellant’s right to Due Process was not violated by the imposition of a sentence
based upon the law and punishment that existed when he committed the offense.
*14 919 S.W.2d at 362. Petitioner has not demonstrated that the TCCA’s determination of
this excessive-sentence issue was objectively unreasonable, or contrary to clearly
established federal law. See Frazier v. Fortner. No. 1:09-cv-00016, 2011 WL 4402959, at’47 (M.D. Tenn. Sept. 21,2011) (finding that the TCCA’s application of Tenn. Code Ann. § 4035-117(c) “did not violate the Ex Post Facto clause nor any due process rights of the
Defendant under any clearly established Supreme Court precedents at the time of his
sentencing"). Petitioner is not entitled to relief on this ground.
The state court’s determination of the consecutive-sentence portion of Petitioner's
sentencing claim was also reasonable. The TCCA analyzed this portion as follows:
Before considering the issue raised, we note that at the Defendant’s request, the trial court
considered consecutive sentencing of the Defendant under current Code section 40-35115. That statute was not in effect at the time of the Defendant's crime. At that time, the
Code provided:
When any person has been convicted of two (2) or more offenses, judgment shall be
rendered on each conviction after the first, providing that the terms of imprisonment to
which such person is sentenced shall run concurrently or cumulatively in the discretion of
the trial judge; provided, that the exercise of the discretion of the trial judge shall be
reviewable by the Supreme Court on appeal.
T.C.A. § 40-2711 (1975) (amended 1979) (repealed 1982). As we noted in Section VIII, the
current Criminal Code provides that prior law shall apply for all defendants who committed
crimes before July 1,1982. See ii, § 40-35-117(c). The proper law for determining
whether the Defendant should receive a consecutive sentence was the law as it existed in
1975.
In that regard, the Defendant’s crime was committed before our Supreme Court’s
decisions in Gray v. State. 538 S.W.2d 391 (Tenn. 1976) and State v. Tavlor. 739 S.W.2d
227 (Tenn. 1987). Those cases established the framework that was adopted by our
legislature in defining the current consecutive sentencing scheme. See generally T.C.A. §
40-25-115, Sent’g Comm. Cmts. Collectively, Gray and Taylor defined five categories of
offenders for whom consecutive sentencing was appropriate. See ii The legislature
added two additional categories in 1990. id. Before the Gray and Tavlor decisions, there
was no guidance for a trial court in imposing consecutive sentencing. See Gray. 538
S.W.2d at 392-93 (noting the absence of guidelines for determining when consecutive
sentencing was appropriate and defining guidelines to be followed in the future); see also
Bundv v. State. 140 S.W.2d 154 (Tenn. 1940) (stating that consecutive sentencing was in
the discretion of the trial court); Wooten v. State. 477 S.W.2d 767, 768 (Tenn. Crim. App.
1971).

All of that said, the development of the law is of little consequence to the outcome of this
case. Use of the subsequently developed guidelines only reinforces that the trial court did
not abuse its discretion. In the present case, the trial court found two bases for imposing
consecutive sentencing. First, the court found that the Defendant's history of criminal
activity was extensive. See Gray. 538 S. W.2d at 393. The record reflects that the
Defendant had prior convictions for first degree murder, rape, unlawful carnal knowledge
of a minor, and assault with intent to rape. This was an appropriate consideration that was
within the discretion of the trial court, without regard to the timing of the Gray decision.
The trial court did not abuse its discretion in imposing consecutive sentencing on this
basis.
*15 Second, the trial court found that the Defendant was a dangerous offender with little or
no regard for human life and who had no hesitation about committing a crime involving a
high risk to human life. Sse ii With regard to this finding, the court noted that the
sentence “needjedj to be long enough to keep [the Defendant] permanently incarcerated"
and that an extended sentence would minimize the deaths of the victim and the murder
victim from the previous case.4 See i&; see also State v. Wilkerson. 905 S.W.2d 933
(Tenn. 1995). Again, this was an appropriate consideration for the trial court to have
considered. The trial court did not abuse its discretion in relying on this basis to impose
consecutive sentences.
Barrett. 2012 WL 2870571, at *44-45.
Here, Petitioner contests only the first factor relied on by the trial court—that he had an
extensive history of criminal activity. As the TCCA observed, at the time of sentencing in this
case, Petitioner "had prior convictions for first degree murder, rape, unlawful carnal
knowledge of a minor, and assault with intent to rape." Barrett. 2012 WL 2870571, at *45.
Petitioner does not dispute the fact of these convictions. Instead, he seems to argue that
these convictions should not have been used to impose a consecutive sentence because
the offenses occurred "less than one month apart’ and “were all over thirty (30) years old" at
sentencing. (Doc. No. 3 at 34.) Petitioner has not, however, cited any clearly established
federal law to support this argument. The TCCA explained that “the proper law for
determining whether the Defendant should receive a consecutive sentence was the law as it
existed in 1975," and that the imposition of consecutive sentences, at that time, was entirely
within the trial court’s discretion. Barrett 2012 WL 2870571, at *45 (citations omitted). The
United States Supreme Court has recognized this sentencing scheme as constitutional. See
Oregon v. Ice. 555 U S. 160, 163-64 (2009) (noting that states “entrust[ing] to judges'
unfettered discretion the decision whether sentences for discrete offenses shall be served
consecutively or concurrently’ do not “transgress! ] the Sixth Amendment"). The consecutive
sentence portion of this claim, therefore, is without merit.
Because the state court’s determination of Petitioner’s sentencing claim was neither contrary
to nor an unreasonable application of clearly established federal law, Claim 2.R will be
denied.
3. Claims 5.D, 5.F, 5.L—Ineffective Assistance of Trial Counsel
The Court now turns to Petitioner's exhausted sub-claims of ineffective assistance of trial
counsel. On post-conviction appeal, Petitioner asserted that trial counsel was ineffective for
failing to: (1) timely request independent DNA testing; (2) call a DNA expert; and (3) call an
alibi witness. Barrett. 2016 WL 4410649, at *1. Here, Petitioner does not raise the first and
second sub-claims verbatim. Nonetheless, as explained in more detail below, the Court
liberally construes Claims 5.F and 5.D, respectively, to be exhausted through the first and
second sub-claims raised on post-conviction appeal. Meanwhile, Petitioner clearly
exhausted Claim 5.L by asserting that trial counsel was ineffective for failing to call an alibi
witness.
*f6The federal law governing the adequacy of a criminal defendant’s representation is
defined in Strickland v. Washington. 466 U.S. 668 (1984). Premo v. Moore. 562 U.S. 115,
121 (2011). The TCCA correctly identified and set forth the Strickland standard before
considering Petitioner’s ineffective-assistance claims on the merits. Barrett 2016 WL
4410649, at *4-5.
Under Strickland, a petitioner must show (1) deficient performance of counsel and (2)
prejudice to the defendant. Knowles v. Mirzavance. 556 U.S. 111, 124 (2009) (citing
Strickland. 466 U.S. at 687). Trial counsel’s performance is deficient where it falls “below an
objective standard of reasonableness.” Strickland. 466 U.S. at 687-88. “[A] court must
indulge a strong presumption that counsel's conduct falls within the wide range of

reasonable professional assistance; that is, the defendant must overcome the presumption
that, under the circumstances, the challenged action ‘might be considered sound trial
strategy.’" M, at 689 (citing Michel v. Louisiana. 350 U.S. 91, 101 (1955)). To establish
prejudice, a petitioner “must show that there is a reasonable probability that, but for
counsel’s unprofessional errors, the result of the proceeding would have been different. A
reasonable probability is a probability sufficient to undermine confidence in the outcome." hi
at 694. ’’[A] court deciding an ineffective assistance claim” need not "address both
components of the inquiry if the defendant makes an insufficient showing on one." H. at 697.
When a petitioner raises an exhausted ineffective-assistance claim in a federal habeas
petition, ”[t]he pivotal question” is not "whether defense counsel’s performance fell below
Strickland’s standard,” but "whether the state court's application of the Strickland standard
was unreasonable.” Harrington. 562 U.S. at 101. This amounts to a “ 'doubly deferential’
standard of review that gives both the state court and the defense attorney the benefit of the
doubt." Burt v. Titlow. 571 U.S. 12, 15 (2013) (quoting Cullen v. Pinholster 563 U.S. 170,
190 (2011)). That is because, under Section 2254(d)(1), “an unreasonable application of
federal law is different from an incorrect application of federal law.” Ji (quoting Williams. 529
U.S. at 410). Accordingly, "[a] state court must be granted a deference and latitude that are
not in operation when the case involves review under the Strickland standard itself." ii
Here, in Claim 5.F, Petitioner asserts that trial counsel was ineffective for failing to have an
expert conduct independent DNA testing. (Doc. No. 3 at 9-10.) As background for this sub­
claim, Petitioner’s counsel filed a motion to continue trial on June 30, 2009, to allow
adequate time to obtain independent DNA testing. (Doc. No. 22-2 at 21-23.) At that time,
trial was set to begin on July 13, 2009. (JpL at 21.) The court denied the motion, stating that
counsel had “known about the DNA for 11 months.” (Doc. No. 22-5 at 111-12.) On post­
conviction appeal, Petitioner argued that “trial counsel was deficient for failing to make a
timely request for independent DNA analysis.” Barrett 2016 WL 4410649, at *5. While
Claim 5.F does not specifically question the timing of counsel’s request, it raises the same
issue as on post-conviction appeal: counsel’s failure to ensure that an expert conducted
independent DNA testing before trial. Thus, the Court liberally construes Claim 5.F to have
been exhausted on post-conviction appeal.
*17 The TCCA rejected this sub-claim as follows:
[T]he Petitioner contends that trial counsel was deficient for failing to make a timely
request for independent DNA analysis. The Petitioner asserts that if “independent testing
[had] been requested at an earlier and more reasonable time the request might have been
granted.” However, the Petitioner failed to introduce any results of independent testing at
the hearing in support of his claim and offered no explanation as to how he was prejudiced
by the absence of independent DNA testing.
At the evidentiary hearing, trial counsel testified that after consulting with Dr. Acklen, he
determined that independent testing was not necessary. Dr. Acklen opined to counsel that
he agreed with the conclusions reached by the State's experts. Additionally, Dr. Acklen
advised trial counsel about particular areas of cross-examination. Counsel admitted at the
hearing that ”[i]n retrospect" he wished that he had requested independent testing earlier,
mostly because it was something that the Petitioner wanted. However, when reviewing an
attorney's conduct in the post-conviction context, “a fair assessment... requires that every
effort be made to eliminate the distorting effects of hindsight, to reconstruct the
circumstances of counsel’s challenged conduct, and to evaluate the conduct from
counsel's perspective at the time.” Strickland. 466 U.S. at 689. Likewise, deference is
made to trial strategy or tactical choices if they are informed ones based upon adequate
preparation. Hellard v. State. 629 S.W.2d 4, 9 (Tenn. 1982). Trial counsel made a decision
not to request independent testing based on his consultation with an expert and
subsequent conclusion that additional testing would not be helpful. Although he expressed
regret in hindsight that he did not request independent testing, we conclude that at the
time, he made a reasonable strategic decision not to request independent testing earlier in
the case. Accordingly, the Petitioner has not proven that counsel rendered deficient
performance, and he is not entitled to relief.
Barrett. 2016 WL 4410649, at *5-6.
It was reasonable for the state court to determine that counsel did not perform deficiently in
deciding not to obtain independent DNA testing prior to trial. As the TCCA noted, counsel's
decision was based on his consultation with Dr. Ronald Acklen, a DNA expert. Counsel
testified at the evidentiary hearing that Dr. Acklen reviewed all of the laboratory reports,

notes, and procedure manuals related to the DNA testing in this case, (Doc, No. 22-31 at
63-64.) “Counsel and Dr. Acklen discussed the 'methodology and procedure’ utilized by the
various laboratories involved in the DNA analyses,” and Dr. Acklen informed counsel that he
agreed with the assessments reflected in the state’s reports. Barrett. 2016 WL 4410649, at
*4. Based on Dr. Acklen's opinion, counsel decided that it was unnecessary to obtain
independent testing.
Counsel’s expression of regret at the evidentiary hearing regarding this decision was clearly
based on Petitioner’s desire, not his own. (Doc. No. 22-31 at 66 (“In light of the fact that
[Petitioner] wanted it done and we were unable to achieve that, I wish that I had done it
sooner.”).) Even so, ”[u]nder Strickland, courts give little weight to counsel’s hindsight
assessment of [his] trial actions.” O'Neal v. Burt. 582 F. App'x 566, 573-74 (6th Cir. 2014)
(collecting cases); see also Tvler v. Rav. 610 F. App’x 445, 449 (6th Cir. 2015) (“The
question under Strickland is not what the reviewing judge would have done in hindsight, or
even what the attorney himself would have done in hindsight.”). Counsel’s decision not to
obtain independent DNA testing before trial was an informed one, "within the wide range of
reasonable professional assistance.” Strickland. 466 U.S. at 689. Applying the “doubly
deferential” standard of review for exhausted claims of ineffective assistance of counsel, the
Court concludes that the state court was not unreasonable in determining that counsel was
not deficient.
*18 The TCCA’s finding that Petitioner failed to demonstrate prejudice resulting from the
failure to obtain independent DNA testing was also not unreasonable. The TCCA pointed out
that Petitioner did not “introduce any results of independent testing at the hearing in support
of his claim and offered no explanation as to how he was prejudiced by the absence of
independent DNA testing.” Barrett. 2016 WL 4410649, at *5. Here, Petitioner blames this
failure on the post-conviction trial court’s refusal to consider pro se motions seeking
independent DNA analysis,5 documents, and witnesses. (Doc. No. 3 at 10-12.) Petitioner
also lays this failure at the feet of post-conviction counsel for inadequately assist him. (JsL at
9-10, 12.) But, as the Court explained in denying Petitioner’s claims of error by the post­
conviction trial court, supra Section V.A.3, “[ejrrors or deficiencies in post conviction
proceedings are not properly considered in habeas corpus proceedings.” Havden v. Warden.
Marion Corr, Inst.. No. 2:15-cv-2927, 2016 WL 2648776, at *3 (S.D. Ohio May 10, 2016)
(collecting cases). And there is no constitutional “right to the effective assistance of
postconviction counsel.”
, 830 (6th Cir. 2019) (quoting
Coleman. 501 U.S. at 752) (“The Supreme Court has explained that a defendant has ‘no
constitutional right to an attorney in state post-conviction proceedings’ and therefore ‘cannot
claim constitutionally ineffective assistance of counsel in such proceedings.’ ”).
“A federal habeas court’s review of ‘any claim that was adjudicated on the merits in State
court proceedings' is limited to the evidence presented in the state proceeding.” Smith v
Carpenter. No. 3:99-cv-0731, 2018 WL 317429, at *4 (M.D. Tenn. Jan. 8, 2018) (citing
Pinholster. 563 U.S. at 181-82). Here, regardless of Petitioner's current complaints, the fact
remains that Petitioner failed to present evidence in his post-conviction proceedings that the
absence of independent DNA testing prejudiced him. Thus, the state court’s determination to
this effect was not unreasonable.
The TCCA’s reasonably determined that Petitioner failed to demonstrate both deficiency and
prejudice as to counsel’s failure to obtain independent DNA testing before trial. Claim 5.F,
therefore, will be denied.
Next, in Claim 5.D, Petitioner seems to assert that trial counsel was ineffective for retaining
an insufficient DNA expert. (Doc. No. 3 at 3^t.) As noted above, trial counsel consulted with
DNA expert Dr. Acklen before trial. On post-conviction appeal, Petitioner contended that "trial
counsel was ineffective for not calling a DNA expert to testify for the defense." Jd at *5.
Here, Petitioner argues that Dr. Acklen did not have the “scientific objectivity" necessary to
“independently assess” the DNA state's reports and “advise defense counsel as to the
reliability and admissibility of the DNA evidence in the case.” (Doc. No. 3 at 3.) The
implication of this argument is that, if Dr. Acklen was sufficiently competent, he would have
identified deficiencies with the state’s DNA reports, advised counsel to that effect before trial,
and testified to that effect during trial. Accordingly, the Court liberally construes Claim 5.D to
have been exhausted through Petitioner’s second sub-claim on post-conviction appeal.
The TCCA essentially found that Petitioner failed to demonstrate that he was prejudiced by
trial counsel's retaining an allegedly inadequate DNA expert. Barrett. 2016 WL 4410649, at

*5. That is, because Petitioner "failed to produce the testimony of a DNA expert at the
hearing,” the TCCA held, it could not “assess what impact” a DNA expert’s testimony “would
have had at trial.” Ji (citing Black v. State. 794 S. W.2d 752, 757 (Tenn. Crim. App. 1990)).
As explained above, counsel did not call a DNA expert to testify at trial because Dr. Acklen
concurred with the conclusions of the state's DNA reports. Petitioner now disagrees with Dr.
Acklen’s assessment, reasoning that Dr. Acklen must have lacked the “scientific objectivity"
necessary to render an adequate opinion. But without the testimony of either Dr. Acklen or
another DNA expert at the post-conviction evidentiary hearing, the TCCA had no basis to
conclude that Dr. Acklen’s opinion was flawed in some way. Again, while Petitioner blames
post-conviction counsel for the failure to present this evidence, the Court must consider only
the evidence actually presented. See Smith. 2018 WL 317429, at *4 (citing Pinholster. 563
U.S. at 181-82). In doing so, the Court concludes that it was not unreasonable for the TCCA
to find that Petitioner failed to demonstrate prejudice resulting from counsel's use of Dr.
Acklen as a DNA expert.
*19 The TCCA did not make a finding on whether counsel was deficient in retaining Dr.
Acklen. "When a state court relied only on one Strickland prong to adjudicate an ineffective
assistance of counsel claim,” the Court reviews the unadjudicated prong tie novo. Ravner v.
Mills. 685 F.3d 631,638 (6th Cir. 2012). Here, the Court concludes that Petitioner has not
demonstrated deficiency under this standard.
Counsel testified at the evidentiary hearing that he had worked with Dr. Acklen before and
that he hired Dr. Acklen through Tennessee's Administrative Office of the Courts. (Doc. No.
22-31 at 63.) Under Tennessee Supreme Court Rule 13, Section 5(b)(2)(B), in order to
obtain Dr. Acklen's expert services in this case, counsel had to file a motion including
information about Dr. Acklen’s qualifications and licensure status. The trial judge signed an
ex parte order authorizing this expenditure. (Doc. No. 22-31 at 63.) Counsel then ensured
that Dr. Acklen received all of the laboratory reports, notes, and procedure manuals provided
by the state. (JdJ Although Petitioner now takes issue with Dr. Acklen’s assessment of this
information, he does so only by presenting scattershot assertions of error in the state's DNA
reports. (See Doc. No. 3 at 3-4, 6-8, 9.) Petitioner does not assert that counsel had any
reason to doubt Dr. Acklen’s qualifications prior to consulting with him, or that Dr. Acklen has
since suffered some professional disrepute. Petitioner's conclusory assertion of
ineffectiveness does not overcome the strong presumption that counsel performed
adequately in retaining Dr. Acklen. See Burt. 571 U.S. at 23 (citing Strickland. 466 U.S. at
690) ("Counsel should be 'strongly presumed to have rendered adequate assistance and
made all significant decisions in the exercise of reasonable professional judgment.’ ”).
In sum, the Court concludes that the TCCA’s application of Strickland to the prejudice prong
of this claim was not unreasonable, and Petitioner has not demonstrated deficiency under a
tie novo review. Claim 5.D will be denied.
Finally, in Claim 5.L, Petitioner asserts that trial counsel was ineffective for advising him not
to call any alibi witness, including an individual named Cicero who would have testified that
Petitioner was in Chicago, Illinois at the time of the murder. (Doc. No. 3 at 17.) The TCCA
rejected this sub-claim:
According to the Petitioner, Cicero would have testified that he was in Chicago on the day
that the victim disappeared. In order to satisfy the prejudice prong of Strickland when
alleging that trial counsel was ineffective for failing to investigate or call witnesses, a
petitioner must "show that through reasonable investigation, trial counsel could have
located the witness ... and ... elicited] both favorable and material testimony from the
witness.” State v. Denton. 945 S.W.2d 793, 802-03 (Tenn. Crim. App. 1996) (citing Black
v. State. 794 S.W.2d 752, 757 (Tenn. Crim. App. 1990)). When a petitioner claims that trial
counsel was ineffective for failing to call witnesses, the only way he can prove prejudice is
by producing the testimony of those witnesses at the evidentiary hearing. See Black. 794
S.W.2d at 757.
Although the Petitioner and trial counsel testified that Cicero recalled the Petitioner's being
in Chicago on the day of the victim’s disappearance, Cicero was not called as a witness at
the evidentiary hearing. Consequently, it is unclear what Cicero would have actually
testified to and what impact, if any, that testimony would have had on the outcome of trial.
Accordingly, the Petitioner has not shown prejudice, and he is not entitled to. relief.
*20 Because Petitioner did not call Cicero at the evidentiary hearing to clarify what he would
have actually testified to at trial, the state court's determination that he failed to demonstrate
prejudice on this sub-claim is not objectively unreasonable. See Hutchison v. Bell. 303 F.3d

720, 748-49 (6th Cir, 2002) (citations omitted) (“[A] petitioner cannot show deficient
performance or prejudice resulting from a failure to investigate if the petitioner does not
make some showing of what evidence counsel should have pursued and how such evidence
would have been material."). Moreover, the evidentiary hearing testimony of Petitioner and
trial counsel reflects that counsel was not deficient. Regarding Cicero, Petitioner testified as
follows:
Cicero suffered from serious medical issues and was an ex-convict. According to the
Petitioner, counsel did not want to call Cicero because he did not believe Cicero would be
an effective witness, which counsel discussed with the Petitioner. Ultimately, Cicero was
not called as an alibi witness, a decision that the Petitioner admitted he agreed with at the
time, noting that he “trusted [counsel's] judgment.” In retrospect, however, the Petitioner
said that “even a little bit might have been better than none” because Cicero was the only
person who remembered his being in Chicago on the day the victim went missing.
Barrett. 2016 WL 4410649, at *2. Trial counsel also testified as follows:
Trial counsel... agreed that he and the Petitioner discussed an alibi defense early in the
case. Counsel said that he worked with a defense investigator, Amber Cassitt, and that he
gave her the list of potential alibi witnesses and asked her to meet with the Petitioner to
discuss details of the alibi and then to meet with as many people on the list as possible.
According to trial counsel, Ms. Cassitt spent a “substantial amount of time” attempting to
locate these potential witnesses. Trial counsel said that Ms. Cassitt was able to locate
about half of the individuals named by the Petitioner, but some of them did not remember
the Petitioner. Two people remembered the Petitioner and “thought that it was likely that
he would have gone [to Chicago] because he was active in [the] [Nation of Islam]
community at that time.” However, Cicero was the only person who “specifically" told Ms.
Cassitt that he recalled the Petitioner’s being in Chicago on the relevant date.
According to trial counsel, Cicero was not actually located until closer to the trial date.
Counsel decided to file a notice of alibi and then he and the Petitioner “had further
discussion about whether... [Cicero] would be a good witness in terms of credibility
issues." Trial counsel said that he stood by his decision not to call Cicero as a witness,
saying that if there had been “stronger means to prove that [the Petitioner] was in
Chicago," trial counsel would have presented that evidence. However, trial counsel opined
that the alibi evidence they had was not strong, and he ultimately concluded that “putting
out a weak alibi was worse than putting on no proof at all.”
li at *3.
“[DJeciding which witnesses to present at trial is a matter of strategy.” Yancev v. Haas. 742 F.
App’x 980, 984 (6th Cir. 2018) (citations omitted). And Petitioner “must overcome the
presumption that” his counsel’s decision not to call Cicero as an alibi witness “might be
considered sound trial strategy." Strickland. 688 U.S. at 689 (citing Michel. 360 U.S. at 101).
Petitioner’s counsel testified that he considered presenting an alibi defense, investigated
potential alibi witnesses, and concluded that Cicero—the only potential alibi witness—was
not a strong enough witness to carry an alibi defense without additional evidence
corroborating his testimony. In counsel’s judgment, “putting out a weak alibi was worse than
putting on no proof at all." Barrett 2016 WL 4410649, at *3. And as theTCCA noted,
Petitioner agreed with this judgment at the time: only later, during his post-conviction
evidentiary hearing, did Petitioner state that “in retrospect,...even a little bit might have been
better than none.” (Doc. No. 22-31 at 11.) Petitioner's purely speculative, retrospective
disagreement with counsel’s judgment goes against Strickland's instruction to "eliminate the
distorting effect of hindsight" when assessing an attorney’s performance. 466 U.S. at 689.
The Court concludes that, in these circumstances, counsel's decision not to call an alibi
witness was not deficient performance. Having failed to demonstrate both deficiency and
prejudice on this sub-claim, Petitioner is not entitled to relief.
C. Procedurally Defaulted Claims
*21 Petitioner's remaining claims will be denied as procedurally defaulted without cause.
This includes a defective-indictment claim, several claims of trial court error, a claim of
prosecutorial misconduct, an insufficient-evidence claim, and various sub-claims of
ineffective assistance of trial counsel.
1. Claim 1—Defective Indictment
Petitioner asserts, without elaboration or explanation, that the indictment is unconstitutional
because it was issued by a grand jury that did not appoint a foreman. (Doc. 1 at 25; Doc. No.

3 at 33.) Petitioner did not present this claim to the TCCA on direct appeal. He did raise this
claim in his original pro se post-conviction petition (Doc. No. 22-29 at 80), and the trial court
squarely rejected it (jd, at 138). Petitioner did not, however, present this claim to the TCCA
on post-conviction appeal. Thus, Petitioner did not fully exhaust his available remedies in the
state courts, and he is now barred from doing so by Tennessee Rule of Appellate Procedure
4, Tennessee's one-year statute of limitations for post-conviction petitions, and Tennessee’s
“one-petition” limitation on post-conviction relief. Tenn. Code Ann. §§ 40-30-102(a), (c). This
claim is procedurally defaulted.
Petitioner generally argues that his failure to present claims to the TCCA on post-conviction
appeal was due to ineffective assistance. (See Doc. No. 3 at 10, 13, 30 (asserting that post­
conviction appellate counsel was ineffective in failing to include requested grounds for relief
in the appellate brief).) But Petitioner cannot rely on this argument to establish the cause
required to overcome this claim's default because it is not a claim of ineffective assistance of
trial counsel. See Davila. 137 S. Ct. at 2062-63 (citations omitted). Accordingly, Claim 1 is
not subject to further review.6
2. Trial Proceedings
Petitioner’s remaining claims of trial court error concern four subjects—media attention,
pretrial motions, the admission of evidence, and jury instructions.
a. Claims 2.B, 2.C, 2.H—Media Attention
First, in Claim 2.B, Petitioner asserts that the trial court failed in its “affirmative constitutional
duty to minimize the effect of prejudicial pretrial publicity.” (Doc. No. 3 at 26.) Relatedly,
Claim 2.C asserts that the court should have dismissed the indictment before trial due to this
publicity. (Id,) And in Claim 2.H, Petitioner asserts that the court improperly admitted
evidence during trial due to media coverage. (Id,)
Petitioner raised Claim 2.B in his motion for new trial (Doc. No. 22-2 at 75), the trial court
rejected it (Doc. No. 22-29 at 138), and Petitioner did not present it to the TCCA on direct
appeal. Nor did he raise Claim 2.C or 2.H at that stage. Later, through his pro se post­
conviction petitions, Petitioner asserted all three claims. (Doc. No. 22-29 at 91-94,115-16.)
The trial court found that Petitioner did not present any evidence that “the pre-trial publicity
and media coverage of the trial denied [him] due process of law and a fair trial." (Jd, at 140.)
Then, Petitioner did not raise Claim 2.B, 2.C, or 2.H on post-conviction appeal. In short,
Petitioner did not exhaust the available remedies for these three claims by presenting them
to the TCCA, and he can no longer do so. He has not demonstrated cause to overcome this
default. These claims will be denied.7
b. Claims 2.D, 2.E—Pretrial Motions
*22 Second, Petitioner takes issue with the trial court's denial of certain pretrial motions.
Specifically, Claim 2.D pertains to Petitioner’s motion to continue trial to allow independent
DNA analysis (Doc. No. 3 at 10), and Claim 2.E addresses his motion for a bill of particulars.
(Jd, at 20.) Petitioner raised both claims in a motion for new trial (Doc. No. 22-2 at 70, 73),
and the trial court denied each one (jd, at 84, 85). Petitioner did not then present these
claims to the TCCA on either direct or post-conviction appeal. Thus, Petitioner did not fairly
present Claims 2.D and 2.E to the state courts, and he has not shown cause to overcome
this default. These two claims are not subject to further review.
c. Claims 2.I, 2.K, 2.L, 2.M—Admission of Evidence
Third, Petitioner takes issue with the admission of certain evidence at trial. Claim 2.I
challenges the trial court's admission of testimony from two different witnesses—Sheldon
Anter and Andrew Napper. (Doc. No. 3 at 13-14, 23-24.) As explained above, supra Section
V.A. 1, the Anter portion of this claim is not cognizable in this federal habeas proceeding
because Petitioner raised it on direct appeal solely as a matter of state evidentiary law. As to
the Napper portion of this claim, however, Petitioner did not raise it on direct appeal at all.
While Petitioner expressed displeasure with Napper’s testimony in his pro se post-conviction
petition, he did so under the umbrella of prosecutorial misconduct. (See Doc. No. 22-29 at
83-84.) Regardless, the trial court denied the claim (Doc. No. 22-29 at 139), and Petitioner
did not present it to the TCCA on post-conviction appeal.
Although Petitioner did raise this claim in a conclusory fashion in his pro se application for
permission to appeal to the Tennessee Supreme Court in his state post-conviction
proceedings (Doc. No. 22-37 at 7), that is not sufficient to fairly present the claim to the state
courts. “[Wjhere a habeas petitioner had the opportunity to raise a claim in the state courts
on direct appeal but only raised it for the first time on discretionary review, such a claim is
not fairly presented.” Thompson v. Bell. 580 F.3d 423, 438 (6th Cir. 2009) (discussing

Castille v. Peoples. 489 U.S. 346, 351 (1989)). That is the case here, as Petitioner failed to
raise this claim prior to his request for discretionary Supreme Court review. Because
Petitioner has not demonstrated cause for this failure, the Napper portion of claim 2.1 will be
denied as procedurally defaulted.
As to Claim 2.K, Petitioner asserts that the trial court erred in admitting two photographs of
the victim from around the time of her death because they were unduly prejudicial. (Doc. No.
3 at 32-33.) But Petitioner did not present this claim to the TCCA on either direct or postr
conviction appeal. And raising this claim in his request for discretionary Supreme Court
review of his post-conviction proceedings (see Doc. No. 22-37 at 31) is not sufficient to
exhaust it, because that is not a "procedural context in which ... the merits [of a claim] are
considered as of right.” Olson v. Little. 604 F. App’x 387, 402 (6th Cir. 2015) (discussing
!, 489 U.S. 3461: see also Smith v. Parker. No. 10-1158-JDB-egb, 2013 WL 5409783,
at *30 (W.D. Tenn. Sept. 25, 2013) (applying Castille and concluding that a petitioner does
not fairly present a claim to the state courts by raising it in an application for permission to
appeal to the Tennessee Supreme Court). This claim is procedurally defaulted without
cause.
In Claim 2.L, Petitioner asserts that the trial court erred in admitting a video recording of an
altercation in the jail between Petitioner and fellow inmate Frank White, and allowing
Sheldon Anter to testify about what White said to Petitioner. (Doc. No. 1 at 27; Doc. No. 3 at
14, 28.) As context for this claim, Anter testified that White called Petitioner a “baby killer and
a rapist” immediately before this altercation. (Doc. No. 22-13 at 38-41.) On direct appeal,
Petitioner did not raise any claim about the admissibility of this recording, or Anter’s
testimony about White’s remarks. Petitioner did raise this claim in his pro se post-conviction
petition (Doc. No. 22-29 at 100-03), and the trial court denied it (ji at 141). Petitioner did
not then appeal this claim to the TCCA. Because Petitioner did not fairly present this claim to
the state courts, he can no longer do so, and he has not demonstrated cause for this default,
Claim 2.L will be denied
*23 Petitioner’s other claim related to this video recording will be denied as well. In Claim
2.M, Petitioner asserts that the judge erred by failing to do what he told the jury he would do
— view the video overnight and tell the jury his opinion of who the aggressor was the next
day. (Doc. No. 3 at 28.) This claim will be denied as procedurally defaulted without cause
because Petitioner did not present it to the TCCA at any point. 8
d. Claims 2.P, 2.Q—Jury Instructions
The final category of procedurally defaulted claims of trial court error relates to jury
instructions. In Claim 2.P, Petitioner asserts that the court erred by failing to instruct the jury
on criminal and/or professional informants in connection with the testimony of Sheldon Anter
and Andrew Napper. (Doc. No. 3 at 17, 23-24.) And in Claim 2.Q, Petitioner asserts that the
court should have instructed the jury that a finding of guilt for the charge of felony murder
required a finding of guilt on an underlying felony, (li at 17-21.)
Petitioner did not present either jury-charge claim to the TCCA on direct or post-conviction
appeal. He did raise these two claims in his pro se application for permission to appeal in his
post-conviction proceedings (Doc. No. 22-37 at 19, 34), but, as explained above, this did not
exhaust the claims. Petitioner has not demonstrated cause for this default. Claims 2.P and
2.Q will be denied.
3. Claim 3—Prosecutorial Misconduct
In Claim 3, Petitioner asserts that the state committed prosecutorial misconduct through
improper closing argument at trial. (Doc. No. 1 at 24; Doc. No. 3 at 6, 14, 30-31.) He did not
raise a prosecutorial misconduct claim on direct appeal. In his pro se post-conviction
petitions, Petitioner presented several arguments regarding prosecutorial misconduct based
on the prosecutor’s actions during trial and closing argument. (Doc. No. 22-29 at 86-88,
123-25.) The state court denied these claims (isL at 139-40), and Petitioner did not raise a
prosecutorial misconduct claim before the TCCA on post-conviction appeal. Petitioner did
assert a sprawling claim of prosecutorial misconduct throughout his pro se request for
permission to appeal to the Supreme Court (Doc. No. 22-27 at 20, 23, 26-30), but that is not
sufficient to exhaust a claim. Claim 3 is procedurally defaulted without cause.
4. Claim 4—Sufficiency of the Evidence
Petitioner next asserts, in Claim 4, that there is insufficient evidence to support the
conviction. (Doc. No. 1 at 8; Doc. No. 3 at 14, 22.) Petitioner’s presentation of this claim is
based on a faulty premise, and the claim itself is procedurally defaulted. The premise is
flawed because Petitioner maintains that there is not sufficient "evidence of the conviction for

felony or premeditated murder."9 (Doc. No. 3 at 14.) But Petitioner was not convicted of
these offenses. As the TCCA clearly explained on direct appeal, although the indictment
charged Petitioner with “premeditated murder" and “felony murder in the perpetration of
larceny," the jury convicted Petitioner of second-degree murder. Barrett. 2012 WL 2870571
at *25. Because Petitioner was not convicted of premeditated murder or felony murder, his
argument that there is insufficient evidence to support convictions for those offenses is
immaterial.
*24 Regardless, Petitioner’s arguments in support of his insufficient-evidence claim are
procedurally defaulted. Petitioner raised an insufficient-evidence claim on direct appeal, but
did not rely on the same theory as he does in his federal habeas corpus petition. That is, in
the claim presented to the TCCA, Petitioner argued "that there was no eyewitness account
of the crime, that the evidence is circumstantial, and that the conviction rests 'solely' upon
proof of his DNA on the victim’s blouse and the testimony of two convicted felons.” Barrett
2012 WL 2870571, at *25. Here, by contrast, Petitioner contends that there is insufficient
evidence to support his convictions "due to lack of specificity of the indictment" (Doc. No. 3
at 14, 22), because there is no evidence of larceny or rape (kL at 14), and because there is
an inadequate chain of custody regarding DNA evidence (jcL at 4). Petitioner, therefore,
failed to present “the same claim under the same theory [ ] to the state courts," so he did not
properly exhaust his insufficient-evidence claim. See Warmer. 581 F.3d at 417. He has not
established cause for this default, so Claim 4 will be denied.
Finally, even if the Court were to liberally construe this claim as having been exhausted on
direct appeal, the state court's rejection of the claim before it was clearly reasonable. The
TCCA analyzed Petitioner's insufficient-evidence claim as follows:
Our standard of review when the sufficiency of the evidence is questioned on appeal is
"whether, after viewing the evidence in the light most favorable to the prosecution, any
rational trier of fact could have found the essential elements of the crime beyond a
reasonable doubt." Jackson v. Virginia. 443 U S. 307, 319 (1979); State v. Williams. 657
S.W.2d 405, 410 (Tenn. 1983). This means that we may not reweigh the evidence but
must presume that the trier of fact has resolved all conflicts in the testimony and drawn all
reasonable inferences from the evidence in favor of the State. Sefi State v. Sheffield 676
S.w.2d 542, 547 (Tenn. 1984); Statev. Cabbage. 571 S.W.2d 832, 835 (Tenn. 1978). Any
questions about the "credibility of the witnesses, the weight to be given to their testimony,
and the reconciliation of conflicts in the proof are matters entrusted to the jury as the trier
of fact.” State v. Dotson. 254 S.W.3d 378, 395 (Tenn. 2008) (citing State v. Vasnues. 221
S.W.3d 514, 521 (Tenn. 2007)); see State v. Bland. 958 S.W.2d 651,659 (Tenn. 1997).
The Defendant's contention is premised, in part, upon the former standard for analysis of
convictions based solely upon circumstantial evidence. Previously, Tennessee law
provided that for a conviction to be based upon circumstantial evidence alone, the
evidence "must be not only consistent with the guilt of the accused but it must also be
inconsistent with his [or her] innocence and must exclude every other reasonable theory
or hypothesis except that of guilt.” Pruitt v. State. 460 S.W.2d 385, 390 (Tenn. Crim. App.
1970); see also State v. Crawford. 470 S.W.2d 610, 612 (Tenn. 1971). Shortly after the
Defendant filed his brief, however, our Supreme Court adopted the United States
Supreme Court’s perspective that the standard of proof is the same, without regard to
whether evidence is direct or circumstantial, eliminating the “every other reasonable
theory or hypothesis except that of guilt” analysis. State v. Dorantes. 331 S.W.3d 370, 379
(Tenn. 2011) (citing Jackson. 443 U.S. at 326; Holland v. United States. 348 U.S. 121,
139-40 (1954)). We will, therefore, conduct our review in accord with Dorantes. See State
v. Sisk. 343 S.W.3d 60, 68 (Tenn. 2011) (reinstating convictions based on Dorantes
analysis after Court of Criminal Appeals reversed convictions for insufficient evidence
under Crawford circumstantial evidence analysis but noting that intermediate court did not
err in applying Crawford because its ruling was pre-Dorantesl.
At the time of the Defendant’s crime, the relevant statute provided that the defining
characteristics of second degree murder were an unlawful, willful, and malicious killing of
a victim. T.C.A. §§ 39-2401 (1975,1985) (renumbered at T.C.A. § 39-2-201) (repealed
1989), 39-2402 (1975) (amended 1977, 1979,1988) (renumbered atT.C.A. § 39-2-202)
(repealed 1982), 39-2403 (1975) (amended 1979) (renumbered at T.C.A. § 39-2-211)
(repealed 1989); see, e.g.. State v. Johnson. 541 S.W.2d 417, 418-19 (Tenn. 1976); State
v. Shepherd. 862 S.W.2d 557, 565 (Tenn. Crim. App. 1992).

*25 The Defendant challenges both the sufficiency of the proof of the statutory elements of
the crime and that of his identity as the perpetrator or as an aider and abettor to the crime.
In the light most favorable to the State, the record reflects that the victim died from
asphyxia due to manual strangulation. Her injuries were so great that her thyroid cartilage
and hyoid bone were broken. Dr. Francisco testified that this would take considerable
pressure because a child’s cartilage and bones were flexible. The evidence demonstrates
that the killing was unlawful, willful, and malicious and is sufficient to support the
conviction for second degree murder.
With respect to the proof that the Defendant perpetrated the crime, the evidence in the
light most favorable to the State established that the Defendant's DNA was present on the
victim’s blouse. The chance of the same STR DNA profile occurring in another person was
one in five quadrillion for the African-American population and one in 160 quadrillion for
the Caucasian population. The Defendant's DNA alpha type was present on the victim’s
pants. This type was shared by only eight percent of the population. Over 100 other
individuals, including virtually everyone from the victim’s neighborhood, were eliminated
as the contributors of the DNA evidence. Two of the Defendant's fellow inmates testified
that the Defendant admitted that he killed the victim and that his DNA was on her. Their
testimony regarding the altercation between the Defendant and Frank White was
consistent with the video recording of the altercation. There was no indication of any prior
acquaintance or association of the victim and the Defendant that might provide an
alternate explanation of the presence of his DNA on her clothing. Dr. Francisco and Dr.
Bass testified that the victim died at or near the time of her disappearance, which was
before the Defendant was in jail. When the Defendant was arrested, he was wearing a full
length coat, a ski mask, another hat, and two pairs of gloves. His clothing and physical
stature were consistent with the description WIs. Maxwell gave of the adult she saw in Ms.
Howard's driveway with the child she presumed was the victim. The Defendant is not
entitled to relief.
Barrett. 2012 WL 2870571, at *25-26.
The TCCA thus accurately identified the federal standard governing claims for sufficiency of
the evidence, as set forth in Jackson v. Virginia. 443 U.S. 307, 319 (1979). “ 'Under Jackson,
habeas corpus relief is appropriate based on insufficient evidence only where the court finds,
after viewing the evidence in the light most favorable to the prosecution, that no rational trier
of fact could have found the essential elements of the crime beyond a reasonable doubt."
Tucker v. Palmer. 541 F.3d 652, 656 (6th Cir. 2008) (quoting Parker v. Renico. 506 F.3d 444,
448 (6th Cir. 2007)). On federal habeas review, this standard "commands deference at two
levels": "First, deference should be given to the trier-of-fact’s verdict, as contemplated by
Jackson: second, deference should be given to the [state court’s] consideration of the trierof-fact’s verdict, as dictated by AEDPA.” Id, (citing Parker. 506 F.3d at 448).
Here, the state court concluded that there was sufficient evidence for the jury to find
Petitioner guilty of second-degree murder as it was defined at the time of the crime—the
unlawful, willful, and malicious killing of a victim. As to the elements of the crime, the TCCA’s
analysis focused on the testimony of Dr. Jerry Francisco, an expert in forensic pathology.
The TCCA noted Dr. Francisco's testimony that he performed an autopsy on the victim and
determined the cause of death to be asphyxia resulting from manual strangulation. fSee
Doc. No. 22-10 at 31-32.) Dr. Francisco testified that he made this determination based on
his conclusions “that the victim’s thyroid cartilage and hyoid bone were broken [and] that the
victim had an adjacent hemorrhage, blue lips, and small hemorrhages of the scalp, surface
of the chest organs, heart, and lungs.” Barrett 2012 WL 2870571, at *4. According to Dr.
Francisco, it would have required “considerable pressure” to break the victim’s cartilage and
bones. (Doc. No. 22-10 at 32.) Based on this evidence, it was reasonable for the TCCA to
find that the victim's killing was unlawful, willful, and malicious.
*26 It was also reasonable for the TCCA to find, based on an assortment of evidence, that
Petitioner committed the crime. The state court essentially based this conclusion on four
factors— DNA evidence connecting Petitioner to the victim’s blouse and pants, with no
exculpatory explanation for how it got there; testimony of Petitioner’s fellow inmates Sheldon
Anter and Andrew Napper that Petitioner admitted killing the victim and that his DNA was on
her; expert testimony that the timing of the victim’s death coincided with a period during
which Petitioner was not in jail; and testimony of the victim's neighbor that she saw an adult
"with the child she presumed was the victim," and that this adult's clothing and stature was
consistent with Petitioner’s at the time of his arrest in 1975.

As to DNA evidence on the victim's blouse, Jennifer Luttman testified as an expert in
forensic DNA analysis. According to Ms. Luttman, there was a “reasonable degree of
scientific certainty” that Petitioner was the source of DNA on the blouse. (Doc. No. 22-15 at
119.) Ms. Luttman testified that “[t]he chance of the same STR DNA profile occurring in
another person was one in five quadrillion for the African-American population and one in
160 quadrillion for the Caucasian population.” Barrett. 2012 WL 2870571, at *26. And as to
the DNA evidence on the victim’s pants, DNA expert Gary Harmor testified that Petitioner's
"DNA alpha type” was on the victim's pants, and that “[t]his type was shared by only eight
percent of the population.” M, Given the evidence presented to the Jury, it was reasonable for
the TCCA to conclude that there was sufficient evidence to convict Petitioner of seconddegree murder.
5. Ineffective Assistance of Trial Counsel
Finally, there are eleven remaining sub-claims of ineffective assistance of trial counsel:
Claims 5.A, 5.B, 5.C, 5.E, 5.G, 5.H, 5.1, 5.J, 5.K, 5.M, and 5.N. Petitioner did not present
these sub-claims to the TCCA. He did raise some of them—in particular, Claims 5.E, 5.G,
5.H, 5.J, and 5.M—in his pro se application for permission to appeal his post-conviction
proceedings to the Tennessee Supreme Court (Doc. No. 22-37 at 5, 31-35, 37), but that
does not constitute proper exhaustion. Accordingly, all eleven sub-claims are procedurally
defaulted.
As noted above, supra Section V.A.4, the" 'ineffective assistance of post-conviction counsel
can establish cause to excuse [the] procedural default of a ... claim of ineffective assistance
at trial.’" Atkins. 792 F.3d at 658 (quoting Sutton. 745 F.3d at 795-96). Here, in addition to
several specific assertions of ineffectiveness during his initial post-conviction proceeding,
Petitioner generally asserts that appointed post-conviction counsel “failed to provide
meaningful assistance ... in amending his petition for post conviction relief.” (Doc. No. 3 at
10.) The Court liberally construes this as an allegation of cause to overcome the default of
his remaining sub-claims of ineffective assistance at trial.
To determine whether Petitioner has effectively demonstrated cause, the Court considers
“(1) whether state post-conviction counsel was ineffective; and (2) whether [Petitioner’s]
claims of ineffective assistance of counsel were 'substantial.' ” Atkins. 792 F.3d at 660
(citations omitted). If Petitioner demonstrates "cause," then the Court must consider
“whether [he] can demonstrate prejudice.” Id, And if Petitioner has established both “cause”
and "prejudice," only then would the Court “evaluate [his] claims on the merits." M, (citations
omitted). Here, the Court need not reach the issue of whether post-conviction counsel was
ineffective because, as explained in more detail below, Petitioner has not demonstrated that
his remaining sub-claims are "substantial."
“A substantial claim is one that has some merit and is debatable among jurists of reason."
Abdur'Rahman v. Carpenter. 805 F.3d 710, 713 (6th Cir. 2015) (citing Martinez. 566 U.S. at
14). “In the converse, a claim is insubstantial when 'it does not have any merit,' ‘is wholly
without factual support,’ or when 'the attorney in the initial-review collateral proceeding did
not perform below constitutional standards.’" Porter v. Genovese. 676 F. App'x 428, 432
(6th Cir. 2017) (quoting Martinez. 566 U.S. at 15-16).
*27 Through his remaining sub-claims, Petitioner asserts that counsel was ineffective both
before and during trial. Because these sub-claims are insubstantial, Petitioner has not
established cause to overcome their default. The Court will address each group of claims in
turn.
a. Claims 5.A, 5.B, 5.C, 5.E, 5.G, 5.H, 5.I—Pretrial Assistance
First, in Claim 5.A, Petitioner asserts that counsel was ineffective for failing to file a motion to
dismiss the indictment due to excessive pre-trial publicity. (Doc. No. 3 at 26.) This sub-claim
is insubstantial because trial counsel was not deficient, and Petitioner has not demonstrated
that prejudice ensued, for failing to file a motion on this ground. The Court acknowledges
that there was extensive media coverage of this case. But Petitioner has not alleged, with
any degree of specificity, how this publicity would have justified dismissing the indictment. In
general, the preferred methods for ensuring that publicity does not undermine the
constitutional fairness of a trial include questioning the prospective jurors appropriately and
changing the venue.10 See Jackson v. Houk. 687 F.3d 723, 733 (6th Cir. 2012) (discussing
Mu'Min v. Virginia. 500 U.S. 415, 433 (1991) and Skilling v. United States. 561 U.S. 358, 386
(2010)). Not, as Petitioner proposes in this sub-claim, dismissing the indictment altogether.
See United States v. Silver. .103 F. Supp. 3d. 370, 380 (S.D.N.Y. 2015) (noting the lack of
any federal precedent for taking “the extreme step of dismissing an indictment solely based

on pre-indictment publicity”). Thus, it was objectively reasonable for counsel not to file a
motion to dismiss the indictment due to pretrial publicity, and Petitioner suffered no prejudice
for his failure to do so. Claim 5.A will be denied.
Next, Claims 5.B and 5.C challenge counsel's performance during voir dire. In Claim 5.B,
Petitioner asserts that "[cjounsel failed to adequately question potential jurors to determine
the extent to which they were subjected [to] and influenced by [the] constant, inflammatory
and exploitative media coverage.” (Doc. No. 3 at 27.) And in Claim 5.C, Petitioner asserts
that “counsel failed to ask constitutionally compelled voir dire questions” in light of the
“tainted ... jury pool” that resulted from “[t]he explosive, racially-charged publicity from the
first trial where he was convicted of first degree murder.” (Id, at 33.)
These assertions, while sensational, are devoid of factual support. That is, Petitioner does
not explain how counsel’s questioning was inadequate or identify any particular question
counsel should have asked. Petitioner also does not allege that counsel’s questioning
resulted in the empaneling of a juror who was actually biased against him. See Campbell v.
Bradshaw. 674 F.3d 578, 594 (6th Cir. 2012) (citation omitted) (denying habeas challenge to
counsel’s failure to request a venue change due to pretrial publicity where the petitioner did
“not identify] any juror who was actually seated that indicated an inability to set aside any
prior knowledge about the case or to judge the case fairly and impartially"). The Court
cannot presume prejudice based on the mere existence of substantial publicity surrounding
a case. Jackson. 687 F.3d at 733. Although the Court is unable to independently review the
voir dire transcript, because it is not a part of the state court record,11 Petitioner's
conclusory assertions of inadequate questioning by counsel do not overcome the
presumption of juror impartiality. See Folev v. Parker. 488 F.3d 377, 387 (6th Cir. 2007)
(citing Ritchie v. Rogers. 313 F.3d 948, 962 (6th Cir. 2002)) (“Negative media coverage by
itself is insufficient to establish actual prejudice, and the existence of a juror’s preconceived
notion as to the guilt or innocence of the defendant, without more, is not sufficient to rebut
the presumption of impartiality.”). Claims 5.B and 5.C are insubstantial and will be denied as
procedurally defaulted without cause.
*28 Petitioner’s next sub-claim is a broad challenge to counsel’s handling of Petitioner's
instructions regarding DNA evidence. In Claim 5.E, Petitioner asserts that counsel "failed to
properly assess and review [his] assignment of error as to the serious omissions and
constitutional blunders regarding the collection, testing and custody of the purported DNA
evidence.” (Doc. No. 3 at 3-4.) This sub-claim, therefore, has three parts—a collection
component, a testing component, and a chain of custody component. The collection
component is subsumed by Petitioner’s more specific challenges in Claims 5.G and 5.H,
discussed below. The testing component is subsumed by Claim 5.F, Petitioner’s assertion
that counsel failed to obtain independent DNA testing before trial. As discussed above, suora
Section V.B.3, the Court liberally construed this sub-claim to have been exhausted on post­
conviction appeal, and the TCCA’s rejection of it was not unreasonable.
Finally, as to the chain of custody component, Petitioner raised this same basic argument in
his pro se post-conviction petition. That is, Petitioner asserted that counsel was ineffective
for failing to challenge the chain of custody of DNA evidence at trial. (Doc. No. 22-29 at 99100.) Here, likewise, Petitioner essentially asserts that counsel could have undermined the
chain of custody at trial if he would have “properly assessed) and reviewed his] assignment
of error” before trial. The post-conviction court rejected this claim (Doc. No. 22-29 at 141),12
and Petitioner did not raise it on post-conviction appeal. Ineffective assistance of post­
conviction counsel can act as cause only when the ineffectiveness occurs at the initial
review stage, not the appeal stage. Atkins. 792 F.3d at 661 (emphasis added) (quoting West
v. Carpenter. 790 F.3d 693, 699 (6th Cir. 2015)) (“[Ajttorney error at state post-conviction
appellate proceedings cannot excuse procedural default.’’). Accordingly, because the post­
conviction trial court ruled on the chain of custody component of this sub-claim, it is
procedurally defaulted without cause. For all of these reasons, Claim 5.E will be denied.
Turning to Petitioner’s specific challenges to the collection of DNA evidence, Claim 5.G
asserts that counsel provided ineffective assistance by failing to request a pretrial Dunaway
hearing13 “to determine whether the warrant! jless DNA search" violated the Fourth
Amendment. (Doc. No. 3 at 9,16.) Similarly, in Claim 5.H, Petitioner asserts that counsel
“should have objected and moved to suppress the introduction of the test results following
the warrantless [second] DNA search.” (JcL at 15-16.) Despite using different terminology for
the name of motion that counsel should have filed, the substance of both sub-claims is the
same—counsel was ineffective for failing to properly challenge the admissibility of a second,

warrantless DNA search before trial. The Court, accordingly, considers these two sub-claims
together.
*29 These claims have no factual support. Petitioner makes a conclusory assertion that the
DNA evidence obtained from this second DNA search “played a significant role in the State's
case-in-chief.” (Doc. No. 3 at 15.) And he attempts to support this assertion by stating that
certain “unknown male” profiles in the state's DNA reports were only connected to Petitioner
after this second DNA collection. (id at 3, 9.) But there is nothing in the record to reflect that
a second DNA search occurred at all, much less that it occurred in the manner described by
Petitioner.
Even assuming that law enforcement officers obtained a DNA sample from Petitioner without
a warrant while he was in jail, however, Petitioner has not explained how this second sample
was used against him in this case. It is undisputed that officers collected a DNA sample from
Petitioner pursuant to a search warrant in October 2007, before his arrest. (Doc. No. 3 at
15.) And the record reflects that the crucial DNA evidence used against Petitioner during trial
was based on this October 2007 sample14—not some later sample collected without a
warrant.
Pat Postiglione, a Metro Nashville Police Detective, testified at trial that the October 2007
sample “was collected by swabbing the inside of [Petitioner's] mouth on both cheeks.”
Barrett. 2012 WL 2870571, at *15. Postiglione “identified the swabs used to collect evidence
from [Petitioner],” and testified that these swabs “were first sent to the TBI laboratory and
later sent to the SERI laboratory in California." id
First, as to the TBI laboratory, DNA expert Chad Johnson testified that he received
Petitioner's swabs on October 25, 2007, obtained a DNA profile from the swabs, and issued
a report on November 7, 2007. (Doc. No. 22-15 at 63-65.) The FBI requested the DNA
profile generated at the TBI laboratory. (id at 65.) Jennifer Luttman, an expert in DNA
analysis with the FBI, used this DNA profile—again, a DNA profile obtained from the October
2007 sample—to connect Petitioner to DNA on the victim’s blouse. (id at 116-20.)
Second, as to the SERI laboratory, DNA expert Gary Harmor testified that he received
Petitioner’s swabs on December 12, 2007. (Doc. No. 22-15 at 37-38.) Harmor gave the
swabs to another SERI employee named Amy Lee, who used the swabs to extract DNA. (id
at 38-39.) Harmor then “amplified the extracted DNA, determined the typing, and wrote his
report," which connected Petitioner to DNA on the victim’s pants. Barrett 2012 WL
2870571, at *19.
In sum, Petitioner has not demonstrated that a second, warrantless DNA search occurred, or
that the state used the results of such a search against him at trial. Instead, the record
reflects that experts at the TBI, FBI, and SERI relied on the DNA sample obtained pursuant
to a search warrant in October 2007 to conduct testing that ultimately connected Petitioner’s
DNA to DNA on the victim’s blouse and pants. Accordingly, counsel was not ineffective for
failing to challenge the admissibility of a second, warrantless DNA search before trial, and
Claims 5.G and 5.H are insubstantial.
Finally, in Claim 5.1, Petitioner asserts that counsel was unable to sufficiently attack the
credibility of Sheldon Anter and Andrew Napper at trial because he failed to investigate them
beforehand. (Doc. No. 3 at 13.) This sub-claim is belied by the record.
In a pretrial motion for exculpatory evidence, counsel requested background information on
Anter and Napper, including whether they had been promised or provided compensation in
exchange for their assistance, whether they previously provided any unreliable information in
another case, and whether they demanded compensation for their cooperation in this case.
(Doc. No. 22-1 at 132-33.) In regard to Anter, specifically, counsel asked whether the district
attorney provided him any assistance “with respect to his pending immigration case.” (id at
133.) The court granted the motion (Doc. No. 22-2 at 51), and counsel received the
information. Counsel also filed a pretrial notice of intent to use Anter and Napper’s prior
convictions for impeachment purposes. (]d at 39-40.) Then, at trial, the state attempted to
mitigate the impact of this information by eliciting some of it on direct examination. (Doc. No.
22-13 at 32-35 (Anter’s testimony); id at 94, 97 (Napper's testimony).) This strategy was
outside counsel’s control and has no bearing on his performance. Moreover, counsel
extensively cross-examined the witnesses on this information in an attempt to undermine
their credibility, (id at 44-46, 69-76 (Anter’s testimony); id at 98-102,105 (Napper’s
testimony).) While putting on Petitioner’s proof, counsel also called Antonio Johnson, a
Corporal at the Davidson County Sheriff's Office, to impeach Anter’s prior testimony in which

he denied asking Johnson about Petitioner. (Doc. No. 22-16 at 136-39.) Finally, counsel
devoted a substantial portion of closing argument to Anter and Napper's asserted
unreliability. (Doc. No. 22-17 at 78-81.)
*30 For all of these reasons, the record reflects that counsel's pretrial investigation of Anter
and Napper was objectively reasonable, and his handling of these witnesses at trial was not
deficient. Petitioner has not identified any alternative strategy toward Anter and Napper with
a reasonable probability of resulting in a different outcome. Claim 5.1 will be denied.
b. Claims 5.J, 5.K, 5.M, 5.N—Assistance During Trial
The final group of sub-claims pertains to counsel's performance during trial. First, in Claim
5.J, Petitioner asserts that counsel was ineffective in failing to object to the admission of
photographs of the victim from around the time of her death. (Doc. No. 3 at 32-33.) As
context, the prosecution introduced two photographs of the victim through Virginia Trimble,
her mother: one is the victim’s school picture, and the other is a picture of the victim at
another child’s birthday party wearing the same blouse she was wearing when she
disappeared. (Doc. No. 22-9 at 52, 72- 73 (introduction of photographs at trial); (Doc. No.
22-19 at 2-3, 8-9 photographs).) Petitioner argues that these photographs were
"inflammatory,” “provocative,” and "extremely prejudicial," while being either "marginally
probative" or “in no way probative.” (Doc. No. 3 at 32-33.) Petitioner asserts that counsel
should have objected to the introduction of the photographs on this basis. (Ji at 33.)
This sub-claim is insubstantial because Petitioner has failed to demonstrate both deficiency
and prejudice. The Tennessee Supreme Court has explained the state law on the
admissibility of photographs as follows:
Tennessee courts have followed a policy of liberality in the admission of photographs in
both civil and criminal cases. State v. Banks. 564 S.W.2d 947, 949 (Tenn. 1978) (citations
omitted). This policy translates into the rule that “the admissibility of photographs lies
within the discretion of the trial court.” Jd,... Flowever, before a photograph may be
admitted into evidence, it must be relevant to an issue that the jury must decide and the
probative value of the photograph must outweigh any prejudicial effect that it may have
upon the trier of fact. State v. Braden. 867 S.W.2d 750, 758 (Tenn, Crim. App.), oerm. to
appeal denied. (Tenn. 1993) (citation omitted); see also Tenn. R. Evid. 401 and 403.
State v. Nesbit. 978 S.W.2d 872, 901 (Tenn. 1998). Moreover, “ '[i]f relevant, the photograph
is not rendered inadmissible because the subject portrayed could be described by words;...
the photograph would be cumulative;... or [the photograph] is gruesome or for some other
reason is likely to inflame the jury.’ ” State v. Sparrow. No. M2012-00532-CCA-R3-CD,
2013 WL 1089098, at *22 (Tenn. Crim. App. Mar. 14, 2013) (quoting Collins v. State. 506
S.W.2d 179, 185 (Tenn. Crim. App. 1973)).
Here, both of the challenged photographs were relevant under Tennessee law. The
Tennessee Supreme Court “has previously approved of the admission during trial of a
photograph taken while the victim was alive to establish the corpus delecti of the crime and
to prove that the 'person killed was the same person named in the indictment.’ ” M, (quoting
Nesbit. 978 S.W.3d at 902).15 And Ms. Trimble used the victim's school picture to identify
her as the person named in the indictment. (Doc. No. 22-9 at 52 (“It’s my Marcia.”).)
*3f The picture of the victim at another child’s birthday party was also relevant. This picture
was taken a few days before the victim’s disappearance, and showed the victim wearing the
same blouse as she wore when she disappeared. Barrett 2012 WL 2870571, at *2. This
blouse featured prominently in the state's case, as a DNA expert would testify that
Petitioner's “DNA profile matched the major contributor's [DNA] profile developed from the
blouse,” and that “the random match probability was one in six trillion." id, at *21.
Accordingly, this challenged photograph was relevant to show that the blouse belonged to
the victim, and that she wore it around the time of her disappearance.
Because the challenged photographs were relevant, this Court has no basis to conclude that
the trial court would have found them to be inadmissible if counsel had objected to their
introduction. See Sparrow. 2013 WL 1089098, at *22 (quoting Collins. 506 S.W.2d at 185) (“
'If relevant, the photograph is not rendered inadmissible because the subject portrayed ... is
gruesome or for some other reason is likely to inflame the jury.’ ”). Petitioner, therefore, has
not demonstrated that counsel was deficient for failing to do so. Moreover, given all of the
evidence presented at trial, there is not a reasonable probability that there would have been
a different outcome if the jury did not view two photographs of the victim while she was alive.
For these reasons, Claim 5.J is insubstantial.

Next, in Claim 5.K, Petitioner asserts that counsel was ineffective for failing to object when
the prosecutor played a video recording of a jail altercation without sound and explained "to
the jury what was happening as the jury watched.” (Doc. No. 3 at 28.) As an initial matter, the
record belies Petitioner's assertion that the prosecutor explained what was happening while
this recording played. It is true that the video recording did not have audio. But it was
Sheldon Anter, not the prosecutor, who explained the activity in the video to the jury. Barrett
2012 WL 2870571, at *13 (“The video recording introduced during Ms. Ray’s testimony,
which had no audio, was played for the jury as Mr. Anter narrated it.”). Anter testified that this
video showed an altercation between Petitioner and fellow inmate Frank White, precipitated
by White taunting Petitioner about being a “baby killer and a rapist.” (Doc. No. 22-13 at 3841.) And the TCCA found that Anter’s “testimony regarding the altercation between
[Petitioner] and Frank White was consistent with the video recording of the altercation.”
Barrett. 2012 WL 2870571, at *26.
Even liberally construing Claim 5.K as a challenge to counsel’s handling of Anter’s testimony
regarding the video recording, however, the sub-claim is still meritless. Counsel did not
lodge an objection to this testimony at trial, but he did file a pretrial motion to exclude some
of Anter’s expected testimony under Tennessee Rule of Evidence 404(b). (Doc. No. 22-1 at
148,150-51.) At a pretrial hearing, Anter testified that, during the altercation, Petitioner told
White that “he had killed four people and had no problem killing again,” and that he would
“kill [White] like [he] killed them blue-eyed bitches." (Doc. No. 22-6 at 81.) The court found
Anter’s testimony regarding this first statement to be admissible, and the second statement
to be inadmissible. (Doc. No. 22-7 at 8-10.) Additionally, in an effort to mitigate the
prejudicial effect on Petitioner, the court “redacted" the first statement by allowing Anter to
testify only that Petitioner said, “I’ve killed before and I will kill you.” (Id, at 8.) Petitioner
challenged the trial court's ruling on direct appeal, and the TCCA found that the trial court did
not abuse its discretion. Barrett. 2012 WL 2870571, at *32-35.
*32 In short, counsel did not render inadequate performance by failing to object to Anter’s
description of the jail video recording at trial because he litigated the issue before trial.
Petitioner does not explain how counsel's pretrial challenge to Anter’s expected testimony
was deficient, or identify another strategy that counsel should have pursued on this issue.
Claim 5.K is not substantial.
The remaining two sub-claims—Claims 5.M and 5.N—accuse counsel of ineffectiveness for
failing to request certain jury instructions. In Claim 5.M, Petitioner asserts that counsel
should have requested an instruction on the unreliability of Sheldon Anter and Andrew
Napper because they were "criminal and/or professional informants.” (Doc. No. 3 at 23.)
Claim 5.N, meanwhile, relates to Anter’s testimony regarding statements made by Frank
White. Here, Petitioner asserts that White testified against him "through the mouth of...
Sheldon Anter,” so counsel should have requested an instruction on the “absentee witness
rule.” (IsL at 25-26.)
When reviewing a habeas petitioner's claim regarding an omitted jury instruction, the Court
considers whether the absence of the instruction" ‘so infected the entire trial that the
resulting conviction violates due process.’ ” Leberrv v. Howerton. 583 F. App'x 497, 502 (6th
Cir. 2014) (quoting Estelle v. McGuire. 502 U.S. 62, 72 (1991)). The asserted error “ 'must
be so egregious that [it] rendered] the entire trial fundamentally unfair. Without such a
showing, no constitutional violation is established and the petitioner is not entitled to relief.’ ’’
Wade v. Timmerman-Cooper. 785 F.3d 1059, 1078 (6th Cir. 2015) (quoting White v. Mitchell.
431 F.3d 517, 533 (6th Cir. 2005)). This is a “very high burden,” ii, and Petitioner has not
met it in Claims 5.M and 5.N.
First, counsel did not perform deficiently by failing to request an instruction on “criminal
and/or professional informants." The Court “review[s] jury instructions 'as a whole, in order to
determine whether they adequately informed the jury of the relevant considerations and
provided a basis in law for aiding the jury in reaching its decision.' ’’ Dixon v. Houk. 737 F.3d
1003, 1010 (6th Cir. 2013) (quoting United States v. Frederick. 406 F.3d 754, 761 (6th Cir.
2005)). Thus, a defendant’s constitutional rights are not violated where the trial court “
‘adequately inform[s] the jury regarding the credibility of witness testimony’ and 'alert[s] the
jury to the various considerations that it should take into account in weighing testimony.’'
Goff v. Baalev. 601 F.3d 445, 469 (6th Cir. 2010) (quoting Scott v Mitchell 209 F.3d 854,
883 (6th Cir. 2000)).
Here, the trial court thoroughly instructed the jury regarding the credibility of witness
testimony. (Doc. No. 22-18 at 24-26.) These instructions were constitutionally adequate,
and, indeed, directly addressed several of Petitioner’s stated concerns regarding the

unreliability of Anter and Napper. Petitioner states that: Napper previously worked as a
police informant (Doc. No. 3 at 23); Anter disliked Petitioner (ji at 28); both Anter and
Napper received or expected to receive benefits from the state in exchange for their
testimony (jiat 13); and both had criminal backgrounds (ill at 23). During trial, the jury
heard testimony about these topics from Anter and Napper. And the court instructed the jury,
in part, as follows:
*33 In forming your opinion, as to the credibility of a witness, you may look to the proof, if
any, of the witness’ reputation for truth and veracity; the intelligence and respectability of
the witness; his or her interest or lack of interest in the outcome of the trial; his or her
feelings; his or her apparent fairness or bias\ his or her means of knowledge; his or her
appearance and demeanor while testifying; his or her contradictory statements as to
material matters, if any are shown; and all the evidence in the case tending to corroborate
or to contradict him or her.

If, from the evidence presented, you find that a witness has been convicted of a prior
crime, you can consider such only for the purpose of its effect, if any, on his or her
credibility as a witness.
fid, at 24-25 (emphasis added).)
The jury had all of the information and instruction necessary to evaluate the credibility of
Anter and Napper's testimony. The absence of a specific instruction on "criminal and
professional informants" did not deprive Petitioner of due process, and counsel was not
deficient for failing to request this instruction at trial. Claim 5.M will be denied.
Second, counsel was also not deficient for failing to request an instruction on the “absentee
witness rule” addressed in Claim 5.N. Petitioner does not explain what this instruction would
have entailed. It appears, however, that Petitioner believes he was entitled to some kind of
special instruction because the introduction of Frank White’s statements, through Sheldon
Anter’s testimony, violated the Confrontation Clause. fSee Doc. No. 3 at 25-26); California v.
Green. 399 U.S. 149,179 (1970) (Harlan, J., concurring) (“From the scant information
available it may tentatively by concluded that the Confrontation Clause was meant to
constitutionalize a barrier against flagrant abuses, trials by anonymous accusers, and
absentee witnesses.”). Petitioner is mistaken.
“The Confrontation Clause guarantees a defendant the opportunity to cross-examine the
witnesses against him.” Landers v. Romanowski. 678 F. App’x 295, 300 (6th Ciri 2017)
(citing United States v. Owens. 484 U.S. 554, 559 (1998)). This right of confrontation,
however, “applies only to testimonial statements.” Jackson v. Stovall. 467 F. App’x 440, 443
(6th Cir. 2012) (citing Davis v. Washington. 547 U.S. 813, 823-26 (2006)). While the
Supreme Court has not established “a comprehensive definition of ‘testimonial,’" Crawford v.
Washington. 541 U.S. 36, 68 (2004) (footnote omitted), it has noted that “(tjestimony ... is
typically ‘[a] solemn declaration or affirmation made for the purpose of establishing or
proving some fact.' ” Jil at 51 (quoting 2 Noah Webster, An American Dictionary of the
English Language (1828)). Accordingly, the term “testimonial” most readily applies to
statements made at a preliminary hearing, grand jury proceeding, previous trial, or police
interrogation. Jil at 68.
Here, Anter testified about a statement White made when “taunting" Petitioner in a common
area at the jail immediately prior to a physical altercation between White and Petitioner.
(Doc. No. 22-13 at 38-39); Barrett, 2012 WL 2870571, at *13 (“Mr. Anter testified that on
August 16, 2008, Mr. White was taunting the Defendant about being a 'baby killer and a
rapist.’ ”). Later that evening, Anter testified, White continued to taunt Petitioner through
vents in the cells. (Doc. No. 22-13 at 40.) Thus, White’s statements were far from the type of
"testimonial” statements that trigger the protections of the Confrontation Clause. For this
reason, counsel was not deficient for failing to request a special jury instruction regarding
White's supposedly “testifying against [Petitioner] through" Anter. Petitioner also has not
demonstrated a reasonable probability of a different outcome if counsel had requested such
an instruction. Claim 5.N is procedurally defaulted without cause because it is insubstantial.
VI. Requests for Discovery and an Evidentiary Hearing
*34 In the reply, Petitioner seeks discovery under Habeas Rule 6 and an evidentiary hearing
under Habeas Rule 8. (Doc. No. 33 at 45—48.) Petitioner is entitled to neither.

First, habeas petitioners do not have a “ 'right to automatic discovery.’ ” Williams v. Baalev.
380 F.3d 932, 974 (6th Cir. 2004) (quoting Stanford v. Parker. 266 F.3d 442, 460 (6th Cir.
2001)). “Rule 6 embodies the principle that a court must provide discovery in a habeas
proceeding only 'where specific allegations before the court show reason to believe that the
petitioner may, if the facts are fully developed, be able to demonstrate that he is ... entitled to
relief.’ ” hi (quoting Bracv v. Gramlev. 520 U.S. 899, 908-09 (1997))." 'Conclusory
allegations are not enough to warrant discovery under Rule 6; the petitioner must set forth
specific allegations of fact.' ” Cornwell v. Bradshaw. 559 F.3d 398, 409 (6th Cir. 2009)
(quoting Wiliams 380 F3d at 974).
Here, the only specific factual allegations Petitioner attempts to present in support of his
discovery request, as relevant to this case,10 pertain to Sheldon Anter and Andrew Napper.
Petitioner alleges that both Anter and Napper "had a tacit non-prosecution agreement in
return for their testimony," and that Napper “had a tacit sentence reduction agreement in
return for his testimony." (Doc. No. 33 at 46.) These allegations appear to be speculative
rationalizations for why Anter and Napper agreed to testify, rather than concrete factual
allegations. fSee ii at 47 (“[T]here is a prima facie case [sic] that the State did in fact have a
non-prosecution and leniency agreement with its key witnesses and is knowingly concealing
these facts, acting as if these witnesses simply came forward out of the goodness of their
hearts, as good citizens.”).) Accordingly, Petitioner’s request for evidence is akin to an
impermissible “fishing expedition.” Williams. 380 F.3d at 974 (quoting Rectory. Johnson 120
F.3d 551, 562 (5th Cir. 1997)) (“Rule 6 does not 'sanction fishing expeditions based on a
petitioner’s conclusory allegations.’").
Even if the state possessed evidence regarding favorable agreements with Anter and
Napper, moreover, these materials would not entitle Petitioner to relief. “ '[W]here
undisclosed evidence merely furnishes an additional basis on which to challenge a witness
whose credibility has already been shown to be questionable or who is subject to extensive
attack by reason of other evidence, the undisclosed evidence may be cumulative, and hence
not material.’ ” Davis v. Gross. No. 18-5406, 2018 WL 8138536, at *3 (6th Cir. Sept. 10,
2018) (quoting Bvrd v. Collins. 209 F.3d 486, 518 (6th Cir. 2000)). As the Court explained
when rejecting Petitioner’s claim that counsel was ineffective for failing to investigate Anter
and Napper’s backgrounds, supra Section V.C.5.a, both the prosecutor and counsel
questioned them on their criminal histories and dealings with the state. This questioning
covered Napper’s prior work as a police informant, and counsel called a jail officer to testify
for the sole purpose of impeaching Anter's testimony. “Given these circumstances, evidence
that [Anter and Napper] struck deals in the current case, while undoubtedly a basis for
impeachment, would have been cumulative in light of the other impeachment that occurred."
Davis. 2018 WL 8138536, at *3 (citing Bvrd. 209 F.3d at 518). Cumulative impeachment
evidence is not a basis for discovery. See jd
‘35 Petitioner is also not entitled to an evidentiary hearing. “[W]ith a few exceptions,” none of
which apply here, a district court “ ‘shall not hold an evidentiary hearing on [a] claim’ ’’ where
“ 'the applicant has failed to develop the factual basis of [the] claim in State court
proceedings.’ ” Hodges v. Colson. 727 F.3d 517, 541 (6th Cir. 2013) (quoting 28 U.S.C. §
2254(e)(2)). And the Court cannot consider new evidence on claims that were adjudicated
on the merits in state court, id (citing Pinholster. 563 U.S. at 181). Finally, “[a] district court
is not required to hold an evidentiary hearing if the record 'precludes habeas relief.’" Muniz
v. Smith. 647 F,3d 619, 625 (6th Cir. 2011) (quoting Schiro v. Landrioan. 550 U.S. 465, 474
(2007)). Applying these principles to this case, and for the reasons stated throughout the
Court's analysis of Petitioner’s claims, Petitioner’s request for an evidentiary hearing will be
denied.
VII. Conclusion
For these reasons, Petitioner's claims are either not cognizable, fail on the merits, or
procedurally defaulted. He is also not entitled to discovery or an evidentiary hearing.
Accordingly, the Petition (Doc. Nos. 1 and 3) will be denied and this action will be dismissed.
Because this constitutes a “final order adverse to" Petitioner, the Court must “issue or deny a
certificate of appealability.” Habeas Rule 11 (a). A certificate of appealability may issue only if
Petitioner “has made a substantial showing of the denial of a constitutional right.” 28 U.S.C.
§ 2253(c)(2). “A petitioner satisfies this standard by demonstrating that jurists of reason
could disagree with the district court’s resolution of his constitutional claims or that jurists
could conclude the issues presented are adequate to deserve encouragement to proceed
further.” Miller-El v. Cockrell. 537 U.S. 322, 327 (2003) (citing Slack v. McDaniel 529 U.S.
473, 484 (2000)). “If the petition [is] denied on procedural grounds, the petitioner must show,

‘at least, that jurists of reason would find it debatable whether the petition states a valid claim
of the denial of a constitutional right and that jurists of reason would find it debatable
whether the district court was correct in its procedural ruling,’" Dufresne v. Palmer. 876 F.3d
248, 253 (6th Cir. 2017) (quoting Slack. 529 U.S. at 484). Here, the Court concludes that
Petitioner has not satisfied these standards, and will therefore deny a certificate of
appealability.
An appropriate Order is filed herewith.
All Citations
Slip Copy, 2020 WL 409688
| Footnotes
1

As the TCCA recognized on post-conviction appeal, this amended petition
“was not filed by counsel and was submitted by the Petitioner” even though
“counsel had been appointed at the time the amended petition was filed.”
Barrett v. State. No. M2015-01161-CCA-R3-PC. 2016 WL 4410649, at’2 n.1
(Tenn. Crim. App. Aug. 18, 2016). Thus, Petitioner’s pro se post-conviction
petitions were the operative petitions before the trial court.

2

Moreover, as the TCCA found, this claim is based on a faulty premise. Namely,
“Dr. Francisco did not testify as an expert in DNA analysis." Barrett. 2012 WL
2870571, at *42. Instead, ”[h]e testified as an expert in forensic pathology, and
as part of his expertise as a physician, he described basic scientific knowledge
as it related to his laboratory's lack of procedures for preventing contamination
of DNA evidence in 1975." Id^

3

The Court also notes that Petitioner’s broad assertion, in Claim 9.A, that
appellate post-conviction counsel denied his right to appeal is plainly belied by
the record. See Barrett. 2016 WL 4410649 (raising three claims on post­
conviction appeal).

4

To be clear on this point, the trial court found that Petitioner must serve this
sentence consecutively to a previously imposed sentence, in part, because
”[t]o do otherwise would minimize] the death[s] of the victims in each case.
(Doc. No. 22-21 at 13.)

5

The Court notes that, while there is not a record of the post-conviction court’s
formally ruling on Petitioner’s request for independent DNA analysis, the court
did find that it “heard no evidence" to support Petitioner’s claim that “the DNA
tests were unreliable, prejudicial, and unscientific.” (Doc. No. 22-29 at 140.)

6

The Court also notes that this claim appears to be baseless on the merits
because the indictment bears the signature of a foreperson and reflects that it
is a true bill. (Doc. No. 22-1 at 5.)

7

As part of these claims, Petitioner complains that changing the trial venue to
Chattanooga was “a farce” because “the media there had begun to crank up
their publicity before the jury was picked, which allowed for such media
sensationalizing to infect the whole trial.” (Doc. No. 3 at 27.) Here, as in Claim
6, it appears that Petitioner is incorrectly referring to another case he faced
around the same time as this one. Petitioner is currently challenging the
judgment in Case No. 2008-B-1791. (Doc. No. 1 at 1.) This trial was held in
Nashville. (See Doc. No. 33 at 39-40 (Petitioner's reply reflecting that trial was
held in Nashville).) The trial for Petitioner’s other case was apparently held in
Chattanooga. (See Doc. No. 22-31 at 18-19, 48-49 (Petitioner's testimony
from the evidentiary hearing on his post-conviction petition regarding the
venue for these two trials).)

8

Based on the trial transcript, it also does not appear that the judge made any
statement to the jury like the one alleged in this claim in the first place.

9

10

Similarly, Petitioner repeatedly asserts that the indictment and jury charge
were not sufficient to convict him of felony murder or larceny. (Doc. No. 3 at
17-22.)

The Court notes, again, that Petitioner did not request a change of venue in
this case. At the evidentiary hearing on Petitioner's post-conviction petition,
Petitioner testified that he discussed requesting a venue change with counsel,
and they agreed that it would not have been a helpful strategy. (Doc. No. 2231 at 18-19.)
11

According to the minutes for this case, however, the jurors were “duly elected,
impaneled, tried and sworn to well and truly try the issues joined and true
deliverance make according to the law and evidence.” (Doc. No. 22-2 at 57.)
And the trial court specifically instructed the jury, after closing argument, as
follows: “Members of the Jury, some of you may have been exposed to pretrial
publicity in this case. / again instruct you that you can consider no information
in reaching your verdict, other than the evidence you hear in the courtroom.”
(Doc. No. 22-18 at 19 (emphasis added).) From this instruction, it is
reasonable to infer that the trial court had previously instructed the jury
regarding pretrial publicity.

12

The post-conviction court specifically rejected Petitioner’s claim that “counsel
should have explored and presented cross contamination and substitution
defenses to the jury.” (Doc. No. 22-29 at 141.) To the extent that Petitioner is
attempting to assert a different chain of custody claim here, the Court
concludes that it is insubstantial because Petitioner has not provided sufficient
supporting factual allegations to satisfy Habeas Rule 2(c)’s pleading standard.
See Lvnn v. Donahue. No. 1:14-cv-01284, 2017 WL 5930304, at *7 n.1 (W.D.
Tenn. Nov. 30, 2017) (citations omitted) (noting that habeas claims are “subject
to dismissal” if “they are pled only as general allegations which fail to identify
the specific error and the resulting prejudice”). For instance, Petitioner seems
to assert that counsel provided inadequate assistance by not addressing “the
fact that Detective Bill Pridemorej ] examined the case exhibits seven different
times." (Doc. No. 3 at 4.) But Petitioner supports this assertion with a citation
to the TCCA’s opinion on direct appeal of his other case from around the same
time. (JlL (citing Barrett 2012 WL 2914119, at *5).)

13

Here, Petitioner is presumably referring to the United States Supreme Court’s
decision in Dunaway v. New York. 442 U.S. 200 (1979). In Dunaway the
Supreme Court held that “an investigative interrogation ... must be supported
by probable cause to avoid infringing upon an individual's Fourth Amendment
right to be free from an unreasonable seizure.” Mvers v. Potter. 422 F.3d 347,
356 (6th Cir. 2005) (citing Dunaway. 442 U.S. at 216). Petitioner has not
explained how the holding in Dunaway has any bearing on this claim.

14

15

Counsel, in fact, filed a pretrial motion to suppress this October 2007 DNA
sample. See supra section V.A.1.
In Nesbit. the Tennessee Supreme Court also noted that under Tennessee’s
criminal code prior to 1989, one of the “material elements] of the offense of
murder” was “proof that the deceased was a 'reasonable creature in being,’
that is, to say a child that was born alive.” 978 S.W.2d at 901 n.2 (citing
Morgan v. State. 256 S.W. 433, 434 (1923)). That material element appears to
apply here, as the state prosecuted Petitioner for the charged offenses of firstdegree murder and felony murder as they existed in 1975. The victim’s school
picture was also relevant for this reason.

16

Petitioner also alleges that the state withheld material regarding “the TBI
investigation of Dr. Levy.” (Doc. No. 33 at 47.) But no one by that name
testified at Petitioner’s trial in this case. Instead, this seems to be another
reference to Petitioner’s other criminal case from around the same time. See
Barrett v. State No. 2007-D-3201, 2015 WL 13756082, at *3 (Tenn. Crim. Ct.
May 18, 2015) (denying Petitioner’s post-conviction claim that counsel was
ineffective for failing to investigate “whether Dr. Levy was being investigated by
the TBI at the time of his trial”), rev'd on procedural grounds. No. M201501143-CCA-R3-PC, 2016 WL 4768698 (Tenn. Crim. App. Sept. 12, 2016). This
allegation, therefore, does not justify discovery here.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

End of
Document

WestiawNext. © 2020 Thomson Reuters

tmomsom raamsRS

Thomson Reuters ismor providing legal advice

*

Additional material
from this filing is
available in the
Clerk's Office.

